<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 4]
[From the U.S. Government Publishing Office]


                                               S.Hrg. 115-448, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                           MARCH 22, 29, 2017


         Printed for the use of the Committee on Armed Services

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-241 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                      COMMITTEE ON ARMED SERVICES
                    
 JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director

                                  (ii)                      
                      
 _________________________________________________________________

                        Subcommittee on Airland

  TOM COTTON, Arkansas, Chairman       ANGUS S. KING, JR., Maine
JAMES M. INHOFE, Oklahoma	       CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi	       RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina	       JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska		       ELIZABETH WARREN, Massachusetts
TED CRUZ, Texas			       GARY C. PETERS, Michigan
BEN SASSE, Nebraska            
                                 

                                  (ii)


                         C O N T E N T S

_________________________________________________________________

                             March 22, 2017

                                                                   Page

Army Modernization...............................................     1

Anderson, Lieutenant General Joseph, USA, Deputy Chief of Staff,      4
  G-3/5/7, United States Army.
Murray, Lieutenant General John M., USA, Deputy Chief of Staff,      12
  G-8, United States Army.
Dyess, Major General Robert W. Jr., USA, Acting Director, Army       12
  Capabilities Integration Center.
Marion, Brigadier General (Promotable) Robert L., USA, Deputy of     13
  Acquisition and Systems Management, Office of the Assistant 
  Secretary of the Army for Acquisition, Logistics and 
  Technology.

Questions for the Record.........................................    33

                             March 29, 2017

Air Force Modernization..........................................    45

Harris, Lieutenant General Jerry D., Jr., USAF, Deputy Chief of      47
  Staff for Strategic Plans, Programs and Requirements, 
  Headquarters, United States Air Force; Accompanied by 
  Lieutenant General Arnold W. Bunch, Jr., USAF, Military Deputy, 
  Office of the Assistant Secretary of the Air Force for 
  Acquisition; and Lieutenant General Mark C. Nowland, USAF, 
  Deputy Chief of Staff for Operations, Headquarters, United 
  States Air Force.

Questions for the Record.........................................    83

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:31 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Subcommittee Members present: Senators Cotton, Wicker, 
Cruz, King, and Donnelly.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    Today we are going to discuss how to prepare our Army for 
the battlefield of the future or what we might call Army 
modernization.
    Even though our Army is second to none, our rivals are 
catching up. Russia and China have made big gains in the last 
15 years. We are falling behind in long-range artillery, 
integrated air defense, cyber warfare. The list goes on. If we 
again face a major conflict with a great power, this capability 
gap can put our troops' lives at risk. Just weeks ago, the Vice 
Chief of Staff told Congress that the Army is, quote, 
outranged, outgunned, and outdated. You can understand why.
    For years, we pulled the Army in two different directions. 
On the one hand, we have increased our commitments overseas, 
which require more troops, but on the other, we have cut 
defense spending dramatically. As a result, the Army leadership 
has had no choice but to focus primarily on short-term 
readiness, that is, the war they are fighting right now, not 
future conflict.
    But we must prepare for the future to protect our national 
security and do right by tomorrow's soldiers. That is why with 
this hearing, we want to focus on some basic questions. Who is 
leading the modernization effort? What do they think of the 
potential for emerging technologies? How do they think 
combatant commanders can make use of them? This is a lot of 
ground to cover, so I will give just three examples.
    First, active protection systems. We bought different 
models from different suppliers, and now we are trying to 
figure out how to adapt them for Abrams, Bradleys, and 
Strykers. Where are we on this? How long will it take to deploy 
these systems across the force? How might this technology 
change future combat vehicle design?
    Second, the Distributed Common Ground System-Army (DCGS-A). 
We have poured billions of dollars into this program for over a 
decade, and yet it is still not ready for battle use. According 
to one report, even under laboratory conditions, soldiers and 
commanders, quote, did not consider it to be very helpful. End 
quote. Last year's NDAA [National Defense Authorization Act] 
directed the Army to seek a commercial solution for this 
problem. There are many domestic companies that might provide 
one. What is the current plan?
    Third, the Warfighter Information Network-Tactical (WIN-T). 
We are on track to spend $14 billion on this program, and yet 
there are still many problems with it. We need to know can it 
actually provide secure communications on a contested 
battlefield. Could enemy forces use its electronic signature to 
detect Army units? Are there any commercial solutions we can 
use to improve the program?
    Finally, we need to look at how the Army is organized. 
Should we reorganize the Army to make sure it stays focused on 
modernization? How do we ensure a united effort throughout the 
organization? Who will supply the vision that will underpin it? 
Should this be a responsibility of a command or a staff element 
in the headquarters of the Department of the Army? These are 
all pressing questions, but regardless of the ways and the 
means, it is clear the Army must modernize for a warfighting 
future that is different from the past and develop a strategy 
to give it purpose and direction.
    To explore these and other topics, I welcome our 
distinguished witnesses: Lieutenant General Joseph Anderson, 
Deputy Chief of Staff for Operations, Plans, and Training; 
Lieutenant General John Murray, Deputy Chief of Staff for Army 
Programs; Major General Robert Dyess, Acting Director of the 
Army Capabilities Integration Center; and Brigadier General 
Promotable Robert Marion, Army Deputy Acquisition and Systems 
Management. Thank you all for your service to our country. I 
look forward to your testimony and our hearing.
    Senator King?

            STATEMENT OF SENATOR ANGUS S. KING, JR.

    Senator King. Thank you, Mr. Chairman.
    Before I begin my remarks, I want to welcome to the 
audience in our hearing Mr. Ted Jordan and his students from 
Cape Elizabeth High School in Maine, one of the great classroom 
teachers I have ever known. We are awfully glad to have you 
here, Mr. Jordan.
    Mr. Chairman, thank you very much for holding today's 
hearing. I would also like to welcome all of our witnesses this 
afternoon. Thank you for your testimony and particularly for 
your service to our country.
    Last week, this subcommittee held a very informative 
hearing on the future of warfare. It will come as no surprise 
to our witnesses that the previous panel underscored that our 
military must be prepared for conflict across the full spectrum 
of operations. In the near term, our forces will remain engaged 
in counterterrorism and stability operations, but we also must 
be ready for high-end conflict with near-peer competitors such 
as China and Russia.
    Likewise, U.S. forces will contend with anti-access/area 
denial threats, as well as hybrid warfare tactics, and given 
the proliferation of advanced technology and weapons around the 
globe, it is highly likely that our military will confront 
advanced Russian and Chinese arms on the battlefield even if we 
do not face their forces directly.
    The pointed language in your written statement that our 
Army is rapidly reaching a point where we will be outgunned, 
outranged, and outdated--by the way, that was reminiscent of 
Hamilton. I think in Hamilton, General Washington said we are 
outgunned, outmanned, and outplanned. Very close. Outgunned, 
outranged, and outdated when compared to our most capable 
potential adversaries. This deserves attention and action on 
our part to ensure that modernization efforts effectively 
address this challenge.
    Finally, we must also acknowledge that our adversaries are 
capable of causing great harm to our country without directly 
engaging our forces in combat. As I stated last week, Russia 
has achieved extraordinary success in undermining Western 
democratic values and destabilizing its neighbors during the 
last several years, in many cases without firing a shot. As you 
know, the intelligence community concluded that Russia actively 
interfered in our recent presidential election, and they appear 
to be using some of these same tactics right now in France and 
Germany.
    It is clear, therefore, that our strategy for countering 
the Russian influence, as well as other countries that adopt 
similar tactics, has to include more than a military response.
    While today's hearing is not explicitly about the future of 
warfare, the testimony from our witnesses regarding the Army's 
modernization strategy does signal how the Army is preparing 
for warfare in the future. Resources are never unlimited, and 
the Army must make investments based on near-term risks, as 
well as future threats, to procure new weapons, upgrade 
existing platforms, and fund research and development accounts.
    Furthermore, due to the spending caps mandated by the 
Budget Control Act, the Army has had to make very tough 
resource allocation choices. The Army has prioritized 
rebuilding full spectrum readiness and maintaining end strength 
levels, which puts a strain on fully funding modernization and 
procurement accounts. We must ensure that our troops are 
trained and ready for today's fights while also ensuring our 
modernization strategy supports the Army's ability to fight 
future battles against advanced adversaries.
    Last year, a Center for Strategic and International Studies 
report illustrated how the Army's current modernization 
challenge is exacerbated by two trends. First, the Army is 
relying upon weapon systems initially fielded in the 1980s, 
such as the Abrams main battle tank and the Bradley fighting 
vehicle. Secondly, the Army has a mixed record of developing 
new acquisition programs to replace these weapon systems 
resulting in truncated or canceled programs and the loss of 
billions of dollars.
    Therefore, as this committee considers funding the Army 
modernization efforts, we must ensure that resources are 
devoted to programs that will enable our soldiers to prevail in 
future fights.
    I would like our witnesses today to address how Army 
procurement accounts have been adversely impacted by the 
reduction in funding over the past several years and if these 
actions have added substantial cost and risk to modernization 
programs.
    In addition, I hope we can discuss actions the Army is 
taking to ensure program requirements are realistic so we can 
prevent future programs from being canceled due to cost growth, 
requirements creep, and schedule delay. As we consider 
increasing Army end strength and restoring readiness, we cannot 
afford for our future modernization programs to meet the fate 
of recent Army programs that were canceled such as the future 
combat systems, the Comanche helicopter, and the Crusader 
artillery system.
    Finally, we must remember that resources are never 
unlimited, as I mentioned. Increasing defense spending at the 
expense of other core elements of national power will not 
guarantee a more effective fighting force. The administration 
has not yet released their final 2018 budget request, but they 
published a budget document detailing top line funding for the 
Department of Defense. According to this document, the Army 
will focus on rebuilding readiness and reversing the reductions 
in end strength levels. But both efforts have implications for 
Army modernization.
    In addition, the administration has submitted a $30 billion 
supplemental request for the Department of Defense for this 
year, of which $8.3 billion is set aside for Army requirements.
    Increased funding will help America rebuild readiness and 
begin the long-term effort to modernize the force. However, I 
am concerned that the administration has also proposed dramatic 
cuts to the Department of State, USAID, and other agencies. In 
my view and that of virtually every witness who has recently 
appeared before the Armed Services Committee, that approach is 
shortsighted and would risk seriously compromising our national 
security.
    It is my hope that we can responsibly increase the defense 
budget while ensuring the other critical elements of national 
power are also adequately funded. As we plan the future force 
structure of the Army, we must remain mindful that end 
strength, readiness, and modernization are deeply intertwined 
and adjustments to each should be carefully synchronized and 
calibrated to ensure our Army is guaranteed to never face a 
fair fight even against our most capable adversaries.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing from our witnesses.
    Senator Cotton. Thank you, Senator King.
    General Anderson?

 STATEMENT OF LIEUTENANT GENERAL JOSEPH ANDERSON, USA, DEPUTY 
          CHIEF OF STAFF, G-3/5/7, UNITED STATES ARMY

    Lieutenant General Anderson. Thanks, Chairman Cotton, 
Ranking Member King, distinguished members of the subcommittee. 
Thank you for the opportunity to testify on the state of your 
U.S. Army.
    I appreciate your support and demonstrated commitment to 
our Army and look forward to discussing Army modernization with 
you today.
    My experience has allowed me to witness significant, 
lasting detrimental effects to Army readiness and modernization 
caused by sequestration and continuing resolutions. The abrupt 
implementation of fiscal year 2013 sequestration significantly 
impacted every aspect of our Army, from training to readiness 
through delayed modernization, sequestration compelled the Army 
to take drastic measures. Continuing resolutions compound 
resourcing solutions and greatly affect the Army's ability to 
generate readiness and execute its modernization strategy.
    Our competitors have studied our doctrine, made revisions 
to their own, and are rapidly modernizing their militaries. We 
now face the prospect of fighting in complex anti-access/area 
denial environments against threats equipped to overmatch 
several of our current capabilities. This strategic environment 
requires a trained and ready Army that has both the capacity 
and capability to meet current and future challenges and 
prevail against a full range of military activities.
    Today the Army remains globally engaged with over 185,000 
trained and ready soldiers helping combatant commanders shape 
today's security environment. The operation tempo required to 
meet current and emergent demand consumes readiness as fast as 
we can supply it. This places the Army's ability to meet 
wartime contingency requirements at high risk.
    Resourcing NDAA 2017 end strength authorizations is 
absolutely necessary to bridge gaps within our current 
formations and is the first step required to meet readiness 
objectives. The Army will mitigate some manning shortfalls by 
optimizing its available resources to maximize total force 
readiness, filling the holes in current formations, and 
strengthening our armored brigade combat teams. Additional end 
strength increases will build greater quantities of critical 
unit types and develop crucial capabilities in long-range fires 
and air missile defense formations required to adequately 
prepare for major contingencies.
    Readiness does remain our number one priority I think as 
you very well know. We must stand ready at a moment's notice to 
defend the U.S. and its interests. With your assistance, the 
Army will continue to resource the best trained, best equipped, 
and best led fighting force in the world.
    We thank you for the steadfast support of our outstanding 
men and women in uniform, and I look forward to your questions.
    [The prepared statement of Lieutenant General Murray, 
Lieutenant General Anderson, Major General Dyess, and Brigadier 
General Marion follows:]

    Joint Prepared Statement by Lieutenant General John M. Murray, 
Lieutenant General Joseph Anderson, Major General Robert M. Dyess, Jr. 
                 and Brigadier General Robert L. Marion
                              introduction
    Chairman Cotton, Ranking Member King, distinguished Members of the 
Senate Subcommittee on Airland, thank you for your continued support 
and demonstrated commitment to our soldiers, Army civilians, families, 
and veterans. On behalf of our Acting Army Secretary, the Honorable 
Robert Speer, and our Chief of Staff, General Mark Milley, we thank you 
for the opportunity to appear before you today and look forward to our 
discussion.
    Army modernization today stands at a precipice due to a combination 
of strategic, technological, and budgetary trends that threaten to 
place our Army at a disadvantage not only against advanced adversaries, 
but also against a broad range of other potential threats and enemies. 
In early 2016 the National Commission on the Future of the Army 
observed that reductions in Army modernization were elevating risk to 
the Joint Force. That military risk has already manifested itself: our 
Army is rapidly reaching a point where we will be outgunned, outranged, 
and outdated when compared to our most capable potential adversaries. 
Continued failure to fund modernization will leave the U.S. with a 20th 
Century Army unsuited to handle the geostrategic environment of the 
21st Century. Moreover, deferred modernization costs merely place 
today's burden on tomorrow's Army. Given these realities, maximizing 
the utility of the modernization efforts after an era of uncertain and 
limited budgets is critical for the future of the Army.
                      the urgency of modernization
    To protect the homeland, foster security abroad, and win wars Army 
forces must have the capabilities, capacity, and readiness to 
accomplish assigned missions as part of the Joint Force. In short, Army 
forces must have overmatch. Army forces that possess overmatch enable 
the other services, create options for Joint Force commanders, give 
weight to diplomacy, and expand policy choice. Overmatch also 
constrains adversaries; if our potential adversaries cannot hope to 
hold ground, dominate populations, or control resources, then they 
cannot achieve their policy objectives. The U.S. has enjoyed the 
benefits of tactical overmatch for so long that some now take its 
benefits for granted and underestimate the effort required to maintain 
it.
    Legacy platforms that have provided the foundation of U.S. Army 
tactical overmatch for decades are near the limits of what can be 
achieved through further upgrades and are at risk of becoming obsolete. 
Moreover, the U.S. must be mindful that adversaries may no longer be 
convinced that the U.S. Army is capable of denying them victory on the 
battlefield. Perceiving they can achieve their objectives within an 
acceptable timeframe and cost, adversaries will attempt to present the 
U.S. with a fait accompli. But, capable ground forces that prevail in 
close combat are a powerful deterrent and enable Joint Force freedom of 
action. To keep pace with potential adversaries and wisely invest in 
the opportunities presented by new technologies, the U.S. Army must 
undertake an innovative, ambitious modernization effort.
                       the strategic environment
    Since the end of the Cold War, the U.S. Army as part of the 
integrated Joint Force has deterred conflict and supported allies and 
partners in Europe and Asia, supported civil authorities within the 
United States, and fought two prolonged wars in Iraq and Afghanistan--
both of which remain ongoing. Today, the world is a more dangerous 
place than at any time since the end of the Cold War and the global 
security environment continues to remain volatile, uncertain, and 
complex. With increasingly aggressive actions by several rising and 
resurgent powers and disruptive regional actors, the risk of conflict 
is rising. Revisionist powers, Russia and China, continue their 
attempts to diminish United States influence while Iran and North 
Korea's provocative and bellicose actions increasingly destabilize 
their regions of the world. Violent Extremist Organizations, such as 
ISIS, pose potential threats to U.S. national security interests. 
Combined, those challenges represent a broad range of operations for 
which our Army must be prepared. At home or abroad, our Nation expects 
a ready Army with sufficient capabilities and capacity that is capable 
of defending the homeland or deploying rapidly in the event of 
unforeseen conflicts.
    Russia's attempts to erode our alliances through aggressive, 
militarized competition are increasing the potential for miscalculation 
and the risk of conflict in Europe and beyond. As evidenced by their 
interventions in Ukraine and Syria, to achieve its policy objectives, 
Russia will continue to employ conventional and unconventional military 
forces while operating under the threshold of a decisive U.S. or allied 
response. Russia's conventional capabilities are formidable and, in 
many areas, superior to ours and those of our allies and partners. We 
must be able to penetrate and operate within highly defended 
environments, possibly at the leading edge of a Joint Force to control 
the air, sea, space, and cyberspace domains. In addition, through an 
intensive modernization effort, Moscow is developing a significant 
capability advantage in several specific military areas.
    Rising tensions and the actions of regional actors are increasing 
the risk of conflict in Asia. China's militarization of extralegal 
territorial claims further strains international relations in the South 
China Sea while their modernization programs to develop capabilities 
that project power within the air, maritime, space, and cyberspace 
domains increasingly alarm the nations of the Pacific-Rim. China is 
also developing offensive cyber capabilities and an ability to jam the 
electromagnetic spectrum capabilities that impacts U.S. communications 
and Assured Positioning, Navigation, and Timing, severely limiting what 
was once a significant differential advantage for U.S. forces. Current 
trends in Chinese weapons production will enable the Chinese to conduct 
a range of military operations well beyond its borders.
    Despite increasingly constrained financial resources, the 
Democratic People's Republic of Korea (DPRK) continues to prioritize 
expansion of its nuclear and ballistic missile programs. The DPRK also 
possesses cyber and chemical-biological warfare capabilities while 
maintaining an aging, but large and capable conventional force that has 
the ability to mass long-range fires on targets throughout the region, 
particularly Seoul. As the DPRK continues to threaten attacks on the 
United States and our allies and the DPRK leadership faces mounting 
economic and political pressures, the United States must maintain its 
deterrent force on the peninsula and be prepared to deploy substantial 
ground, air, and maritime forces as part of a coalition alongside 
Republic of Korea forces in defense of the peninsula and region.
    Iran's involvement in the Syrian, Iraqi, and Yemeni conflicts 
continues to deepen while their nuclear aspirations, cybersecurity 
threat, sophisticated ballistic missile program and links to Hezbollah 
threatens regional security and continues to destabilize the Middle 
East. Moreover, with the signing of the Russian-Iranian Military 
Cooperation Agreement, and the lifting of economic sanctions, it is 
likely that Iran will accelerate its military modernization thereby 
posing a greater threat to United States interests and allies in the 
Middle East.
    Threats to national security are also increasing from non-state 
actors. ISIS, AQIM (al Qaeda in the Islamic Maghreb), Boko Haram, and 
other extremist organizations threaten stability throughout the world. 
ISIS inspired, planned, and resourced attacks from Iraq to Lebanon, 
Turkey, Paris, Libya, Brussels, and even the homeland indicate that 
terrorist organizations that control territory, populations, and 
resources must be contained and eliminated.
    As these examples demonstrate state, non-state, and hybrid threats 
are increasingly capable and continue to narrow U.S. competitive 
advantages not only on land, but also in all domains. The complexity of 
future armed conflict requires an Army capable of conducting missions 
at home and in foreign lands. Our Army must maintain readiness for 
today and invest in modernization to ensure readiness for tomorrow in 
order to maintain overmatch against elusive and increasingly capable 
enemies.
    The global security environment, increasingly characterized by 
instability and a growing range of threats, demands an Army that must 
be organized and ready for an expanding diverse and complex range of 
missions. While the threats and missions we face today will endure well 
into the future, they will be overshadowed by emerging peer 
competition. More than ever, this environment will require trained and 
ready Army formations possessing both the capacity and capability to 
meet current and future challenges. We must modernize to ensure that 
our capabilities remain relevant against constantly evolving threats.
                         modernizing the force
    Challenges to Army modernization have been building over the course 
of nearly two decades. Adjusting for inflation, the Army has nearly 
half of the funding for modernization and equipment that it had just 8 
years ago. Declining budgets drive difficult choices; we have faced 
these choices over many budget cycles.
    The budget issue has been further complicated by 15 years of focus 
on counterinsurgency and counterterrorism as the Army addressed current 
needs in Afghanistan and Iraq. This was the right thing to do, but it 
required tradeoffs. The Army, fully aware of these tradeoffs, made the 
right choices to support our soldiers for the missions and threats we 
faced at that time. This kind of approach led to the fielding of Mine 
Resistant Ambush Protected vehicles, increasing the number of UH-60s 
for Air Medical Evacuation, significantly better Personal Protective 
Equipment, and rapid fielding of theater-specific equipment for our 
soldiers.
    In terms of procurement, we are essentially relying on the same 
platforms that we have had since the 1980s--the Big 5, consisting of 
the Abrams Main Battle Tank, Bradley Fighting Vehicle, Apache Attack 
Helicopter, Blackhawk Utility Helicopter, and Patriot Missile System. 
The Army developed these systems to provide a credible deterrent during 
the Cold War. Given the current level of funding, we will continue to 
rely on all five platforms into the 2030s and beyond.
    Meanwhile, our enemies have not been idle. The overmatch your Army 
has enjoyed for the last 70 years is at risk. Our adversaries have 
observed the way we fight and have developed capabilities and tactics 
to counter our strengths and exploit our vulnerabilities. Some of these 
new capabilities and tactics have already been demonstrated in combat.
    Fiscal constraints have forced the Army to accept risk in starting 
new developmental programs in order to prioritize incremental upgrades 
of existing systems that can be in the hands of soldiers quickly. Over 
the last 15 years, the Army has not modernized for full spectrum 
warfare thereby risking the loss of current and future overmatch in 
every domain: land, air, maritime, space, and cyberspace.
    Our soldiers must be able to prevail against the full range of 
potential threats, including near-peers in highly lethal combined arms 
maneuver; hybrid warfare; and determined, unconventional insurgents. 
This has become increasingly difficult, as our adversaries modernize at 
a rapid pace, while reduced funding has reduced the Army's 
modernization to a pace that jeopardizes our overmatch. Stretching 
procurement timelines has allowed us to focus on current readiness and 
keep production lines and key programs active, at the cost of increased 
risk versus our most capable adversaries.
                      prioritizing capability gaps
    This year, the Army conducted the inaugural Strategic Portfolio 
Analysis Review (SPAR), which enables Army senior leaders to make 
informed resource decisions within a larger strategic framework. The 
SPAR prioritizes limited modernization resources, weighed against risks 
and critical capability gaps, in order to balance near-term readiness 
requirements against long-term force development aspirations. As part 
of the SPAR we modeled and tested our 780-plus programs against a 
scenario with a near-peer adversary. This analysis resulted in the 
prioritization Army capabilities into four bins:
    1.  Critical Capability that provides a decisive advantage in which 
we should increase investment
    2.  Critical Capability that we should sustain at current levels of 
investment
    3.  Important Capability, but one from which we can divert 
resources
    4.  Still important, but we should divest in order to free up 
resources for the other categories.
    SPAR has validated a number of critical capability gaps in key 
program areas. These gaps are Army modernization priorities that we 
must pursue in order to maintain and, eventually, regain overmatch to 
credibly deter and defeat near-peer adversaries.
    <bullet>  Air and Missile Defense (AMD). We lack the capability and 
capacity to meet the AMD demands of the combatant commanders to cover 
key fixed sites and provide effective AMD protection of the maneuvering 
forces.
    <bullet>  Long-range Fires. The Army lacks capability and capacity 
to provide immediately responsive, effective surface-to-surface fires 
at ranges beyond 40 kilometers (km) for Cannon Artillery, beyond 84 km 
for Rocket Artillery, and 300 km for missiles; this gap is partially 
due to the aging Army Tactical Missile System (ATACMS) inventory.
    <bullet>  Munitions. The Army anticipates significant increases to 
ammunition requirements based on emerging peer and near-peer threats 
and increased demand in Iraq and Afghanistan. We are evaluating the 
need to both grow capacity in some of our Government-owned and 
Contractor-operated ammunition plants and to broaden commercial 
capacity in order to meet the increased requirements for preferred 
munitions.
    <bullet>  Mobility, Lethality and Protection of Brigade Combat 
Teams. Our Armored, Infantry, and Stryker Brigade Combat Teams are 
deficient in the appropriate combination of mobility, lethality, and 
protection required to achieve overmatch during joint and combined arms 
operations.
    <bullet>  Active Protection Systems (APS) - Air and Ground. The 
proliferation of advanced man portable air defense systems 
significantly threaten Army Aviation in operational environments. On 
the ground, our combat vehicles lack the ability to effectively detect, 
track, divert, disrupt, neutralize, or destroy incoming direct and 
indirect fire munitions.
    <bullet>  Assured Position, Navigation, and Timing (PNT). The 
commercial and Military Global Positioning Systems (GPS) are 
susceptible to threat disruption (jamming) and spoofing (mimicking 
friendly forces).
    <bullet>  Electronic Warfare (EW). The Army is unable to conduct 
Electronic Attack and EW Support against near-peer adversaries.
    <bullet>  Cyber (Offensive and Defensive). We lack sufficient 
tools, platforms, and architectures to conduct Offensive Cyber 
Operations in the constantly changing, complex Cyber Domain. The Army 
also lacks sufficient Defensive Cyber infrastructure and tools to 
support Mission Command in all scenarios.
    <bullet>  Assured Communications. Current communications systems 
are vulnerable to near-peer threat detection, disruption/denial, and 
exploitation.
    <bullet>  Vertical Lift. The Army's increased requirements for 
aircraft survivability, safety, and Mission Command have reduced fleet 
payload and range capacity. This limits mobility and increases risk to 
ground forces.
                        resourcing modernization
    With respect to the budget, the Army has three main categories 
within the topline that it can adjust: Manpower, Readiness, and 
Modernization. Of these three, Readiness is our top priority. We are 
also committed to maintaining force structure. Any adjustments to these 
three categories are zero sum; there must always be a ``bill payer'' 
for every increase. Inflation and increasing to personnel costs put 
increasing pressure on the Modernization portion of the budget.
    Given this set of priorities, the Fiscal Year 2017 (FY17) 
President's Budget request allocated about 60 percent of the Army's 
topline to manpower. This is a must-pay bill. Readiness will consume 
approximately 24 percent of our budget; as the number one priority, the 
Army will not choose to reduce this allocation. This leaves roughly 16 
percent for Modernization.
    Ideally, we would always have the most modern equipment, but this 
would require painful tradeoffs with Manpower and Readiness. We would 
like to do all three, but large Modernization investments at the wrong 
time could lead to a force that is too small or a force that we cannot 
afford to keep ready. Maintaining balance across Manpower, Readiness, 
and Modernization is key to preventing a hollow force. Without 
sustained, long term, and predictable funding, we cannot effectively 
plan and execute a balanced Army program.
    Given the fiscal pressures, the Army has focused constrained 
resources on equipping for the near term at the expense of preparing 
for the future. The Army is accepting risk in starting new programs in 
order to prioritize incremental upgrades of existing systems that can 
be in the hands of soldiers more quickly. Our current equipment 
modernization strategy has been structured to:
    Protect Science and Technology to field capabilities to the force 
in the 2030s. We will prioritize Science and Technology efforts to 
develop new military capabilities to deter and defeat potential 
adversaries in the next fight. We are implementing a strategic approach 
to modernization that includes an awareness of existing and potential 
gaps; an understanding of emerging threats; knowledge of state-of-the-
art commercial, academic, and Government research; and an understanding 
of competing needs for limited resources.
    Sustain Incremental Upgrades. We have prioritized capabilities that 
have the greatest impact against a near-peer threat and can be in 
soldiers' hands in the next 10 years. We are focused on improving the 
M1 Abrams Tank, M2 Bradley Fighting Vehicle, and Stryker Families of 
Vehicles, as well as Paladin, Improved Turbine Engine Program, and the 
Guided Multiple Launch Rocket System. We are also improving the Apache, 
Black Hawk, and Chinook helicopter fleets, as well as our Unmanned 
Aircraft Systems.
    Take Risk in New Development. The Army is making modest 
developmental investments based on critical operational requirements 
and capability shortfalls. Fiscal realities have led to the delay or 
discontinuance of new systems. Key investments that remain in the next 
generation of ground vehicle capabilities include the Armored Multi-
Purpose Vehicle and the Joint Light Tactical Vehicle, a critical 
program for the Army and the U.S. Marine Corps.
    The Army will begin new developmental programs only if required to 
close an extremely high risk gap. We will attempt to accelerate Air and 
Missile Defense, Long Range Fires, Mobile Protected Fire Power, Active 
Protection Systems (Air and Ground), Assured Positioning, Navigation, 
and Timing, Electronic Warfare, and Cyber offensive and defensive 
capabilities.
    Go Slow, Keep Options Open. We have, and will continue to, slow 
down procurement to keep production lines open and warm for when 
funding becomes available.
    Reset and Sustain. The Army is returning equipment to the required 
level of combat capability; it remains central to both regenerating and 
maintaining equipment near-term readiness for ongoing operations and 
potential contingencies.
    Divest. We are identifying equipment and systems that are excess, 
obsolete, or no longer required to reduce and eliminate the associated 
sustainment costs. For example, we are divesting the aging M113 armored 
personnel carriers and legacy radios. Additionally, the Army's Mine 
Resistant Ambush Protected vehicles divestiture will eliminate a large 
portion of the fleet through Foreign Military Sales (FMS), distribution 
to other agencies, and demilitarization of older, battle-worn, excess 
vehicles. The Army also continues to divest its aging TH-67 training 
helicopters, as well as the OH-58A/C Kiowa, OH-58D Kiowa Warrior, and 
UH-60A Black Hawk fleets.
                      the defense industrial base
    The constrained resources in the Army's modernization account 
continue to present significant challenges for the Defense Industrial 
Base (DIB), especially for companies that cannot leverage commercial 
sales and for small companies that must diversify quickly to remain 
viable. When developing our equipment modernization strategy, we 
carefully assess risk across all portfolios to ensure balanced 
development of new capabilities, incremental upgrades to existing 
systems, and protection of critical capabilities in the commercial and 
organic elements of the DIB.
    The Army remains concerned about the preservation of key skills and 
capabilities in the engineering and manufacturing bases for our 
original equipment manufacturers and their key supplier bases. 
Collaboration with our industrial base partners early in the process 
helps to reduce risk. Efforts such as the Army Manufacturing Technology 
Program provide affordable and timely manufacturing solutions that 
assist our industry partners to address manufacturing and producibility 
risks. Also, the Army supports efforts to develop FMS and Direct 
Commercial Sales to ensure sustainment of critical production lines in 
the DIB.
    The Army continually assesses risk in the Industrial Base across 
all Army portfolios. Fragility and Criticality (FaC) assessments 
identify the fragile and critical portions of sectors within the DIB to 
facilitate the identification of risk mitigation strategies. FaC 
assessments provide Army program offices: 1) the ability to identify 
how potential reductions in funding could affect suppliers that provide 
the products, skills, and services needed to maintain readiness, and 2) 
information to support investment decisions to mitigate supplier risk.
    The Army also continually assesses the health of the organic 
industrial base (OIB), including our depots, arsenals, ammunition 
plants, munitions centers, and Government-owned Contractor-operated 
plants. The Army maintains critical skill sets in our OIB by 
identifying workload to preserve capabilities, exploring FMS 
opportunities, and encouraging our OIB facilities to partner with 
commercial firms and other Department of Defense organizations, such as 
the Defense Logistics Agency, to meet future requirements. We continue 
to modernize our OIB infrastructure, as needed, to support readiness.
                    opportunities to `turn the tide'
    Given the complex range of threats, the Army has a very short 
window to improve capability and capacity. By design, the Army drawdown 
was deliberately designed to reverse course and expand if necessary. 
Additionally, Army modernization, during the past several years of 
constrained funding and austerity maintained its resilience by:
    <bullet>  Protecting the defense industrial base by keeping 
production lines warm
    <bullet>  Protecting modernization options by investing in the next 
generation of incremental improvements, emphasizing low risk and cost 
efficient improvements
    We have sustained many programs that could be accelerated if 
needed. The Army is prepared to accelerate delivery of fires 
capability, armor formation upgrades, aviation fleet modernization, 
enhanced air and missile defense, ammunition and missiles for emerging 
wartime requirements, lethality upgrades for Stryker vehicles, assured 
communications, soldier lethality and protection and finally, 
electronic warfare. The Army is at an historical inflection point; we 
are postured to pivot rapidly if directed to do so.
                                capacity
    The modernization priorities described above are critical to 
maintain overmatch against increasingly capable enemies. However, 
modernization alone is not enough. The Army requires ready forces that 
not only possess modern capabilities, but also the capacity to 
translate military objectives into enduring political outcomes. Army 
capacity is critical to deter enemies; reassure allies; surge forces to 
contingencies; control territory; secure populations overseas and in 
the homeland; and regenerate combat power. At current levels of 
readiness, modernization and manning, the Army risks being unable to 
achieve the objectives of the Defense Strategy. Ultimately, a modern 
and ready Army with sufficient capabilities and capacity creates 
synergy that enables the Joint Force to translate military objectives 
into enduring political outcomes.
    The Army continues to meet current demands, but doing so 
significantly degrades our ability to meet the Defense Planning 
Guidance to deter conflict, and if deterrence fails, defeat an 
adversary in one theater and deny the objectives of another, all while 
defending the homeland and conducting counterterrorism operations 
worldwide. Today, the Army is globally engaged with approximately 
185,000 soldiers supporting Combatant Commanders in 140 countries. 
These soldiers conduct combat operations, deter aggression, and assure 
our Allies and partners. In Afghanistan, the Army continues to engage 
the enemy as we work with Allies and partners to train, advise, and 
assist Afghan National Security Forces. In Iraq, we continue to build 
partner capacity to fight ISIS. Throughout Africa and the Americas, we 
partner to prevent conflict and shape the security environment. In the 
Pacific, more than 105,000 soldiers remain committed; approximately 
20,000 stand ready in the Republic of Korea. In Europe and Asia, Army 
forces also reassure our Allies and deter aggression.
    An Active Army which currently stands at just over 467,000 was 
drawing down from a wartime high of 570,000 (1,133,000 Total Force) to 
450,000 personnel (980,000 Total Force) and reducing from 45 to 30 BCTs 
(56 Total Force). A 980,000 Total Force places the Army at risk of 
being unable to execute the defense strategy. The fiscal year 2017
    National Defense Authorization Act (NDAA) authorized an Active Army 
end strength of 476,000, which is 16,000 personnel more than the 2017 
budget request. The NDAA also authorized an Army National Guard end 
strength increase of 8,000 personnel to 343,000 and an increase of 
4,000 to 199,000 for the Army Reserves, for a Total Force of 1,018,000. 
Any authorized personnel increases such as these must come with 
appropriations to be of value. This authorization is a down payment on 
reducing the risk the Army is carrying, particularly in improving 
readiness shortfalls due to personnel fill. However, if sequestration-
level cuts are imposed in fiscal year 2018 and beyond, all components 
of the Army would be immediately impacted, with Active Army end 
strength rapidly falling to 420,000, the Army National Guard drawing 
down to 315,000, and the Army Reserves reducing to 185,000. Those 
reductions would increase the military risk the Army faces. 
Insufficient capacity in ready land forces limits the options the 
President, Secretary of Defense, and combatant commanders have to 
respond to and resolve crises. Moreover, once we are cut it is 
difficult to regenerate Army forces rapidly. Growing the Army is 
difficult, costly and takes time due to a lack of manpower, the 
sophisticated nature of weapons and equipment, the importance of 
training teams on collective tasks, and the need for those teams to 
have experienced leaders.
                             in conclusion
    We sincerely appreciate the opportunity to address the challenges 
the Army faces in maintaining readiness and modernizing its force. We 
are also grateful for Congress's efforts to stem the continued decrease 
in force structure; we are already making progress in regrowing the 
Army in accordance with the NDAA-prescribed end strength. We must also 
ensure the force is equipped and modernized for full spectrum conflict. 
The security challenges of tomorrow will be met with the equipment we 
develop, modernize, and procure today. Resource reductions and 
insufficient force modernization will place the Army's ability to 
overmatch its opponents at risk because our adversaries will continue 
to invest in technology to counter or evade U.S. strengths and exploit 
vulnerabilities.
    We can assure you that the Army's senior leaders are working hard 
to address current challenges and the needs of the Army both now and in 
the future. We are doing so with a commitment to be good stewards of 
our Nation's resources while meeting the readiness, equipping, and 
modernization needs of our soldiers.
    Mr. Chairman and distinguished Members of this Subcommittee, we 
sincerely appreciate your steadfast and strong support of the 
outstanding men and women in uniform, our Army civilians, and their 
families.

    Senator Cotton. General Murray?

  STATEMENT OF LIEUTENANT GENERAL JOHN M. MURRAY, USA, DEPUTY 
            CHIEF OF STAFF, G-8, UNITED STATES ARMY

    Lieutenant General Murray. Chairman Cotton, Ranking Member 
King, distinguished members of the Subcommittee on Airland. On 
behalf of our Acting Secretary, the Honorable Robert Speer, and 
our Chief of Staff, General Mark Milley, I pretty much look 
forward to discussing Army modernization with you today.
    Today the Army has roughly half the funding for 
modernization and equipping the force it had just 8 years ago. 
We have focused our resources on generating and maintaining the 
best trained and equipped forces that resources would allow.
    We now find ourselves in a situation where our most capable 
enemies are closing quickly. Senator, as you mentioned, we are 
losing overmatch in every domain, land, air, maritime, space, 
and cyberspace. In the words of General Allen during his most 
recent testimony, Senator, once again as you mentioned, we find 
ourselves outgunned, outranged, and outdated in some very 
critical war fighting capabilities.
    The Army's current modernization strategy is to upgrade 
today's equipment, focusing limited modernization dollars on 
the equipment that will have the greatest impact against near-
peer threats and can quickly be in the hands of our soldiers. 
For the last 10 years, we have focused on the immediate, 
providing the equipment necessary for our soldiers to fight in 
Iraq and Afghanistan along with incremental upgrades to 
existing combat platforms. That strategy forced us to defer the 
development of new combat capabilities. We have now reached a 
point in time where we can longer afford to do one or the 
other. We must find a way to do both, improve the equipment we 
have and begin investment into next generation capabilities.
    Near-term security challenges will be met with the 
equipment we have today, and it must be improved to ensure our 
current soldiers have the best that we can provide. Tomorrow's 
security challenges will be met with the equipment we develop 
and procure over the next several years, and we owe our future 
soldiers the equipment they will need to fight and win on some 
very complex battlefields.
    We urge Congress to provide fiscal stability, funding that 
is sustained, long-term, and predictable so we can maintain our 
current warfighting readiness while simultaneously beginning to 
build a more modern and capable force for the future.
    I would like to thank you and the entire committee for your 
unwavering support of our soldiers, our Army civilians, and our 
families. Thank you very much, and I look forward to your 
questions.
    Senator Cotton. General Dyess?

 STATEMENT OF MAJOR GENERAL ROBERT W. DYESS, JR., USA, ACTING 
         DIRECTOR, ARMY CAPABILITIES INTEGRATION CENTER

    Major General Dyess. Chairman Cotton, Ranking Member King, 
distinguished members of the subcommittee, thank you for the 
opportunity to speak with you about the urgent need to invest 
in Army modernization.
    To develop the Army, we must think clearly about the future 
of armed conflict. This requires a consideration of threats, 
enemies, and adversaries, our missions, consideration of trends 
in technology development, and historical observations to 
anticipate the changing character of war and how that will 
evolve to affect tomorrow's battlefields.
    Based on these factors, we envision a future environment 
that is characterized by increased competition amongst peer 
states that aim to challenge the post-World War II security 
order. Future forces of the Army will likely confront the 
advanced militaries of peer states with advanced and 
sophisticated capabilities, as well as elusive, yet capable 
non-state actors that employ unconventional and hybrid 
strategies that threaten U.S. security and vital interests.
    There is an urgent need to modernize existing equipment and 
undertake developmental programs to replace the workhorses that 
have provided overmatch and served our Nation so well. We must 
do both.
    To operate in this emerging environment, Army forces must 
innovate and develop new ideas to fight in and across all five 
domains, air, sea, land, space, and cyberspace. To address 
future challenges, the Army and the Marine Corps began the 
development of a multi-domain battle concept. This concept 
involves combined arms, to include not only capability of the 
physical domains, but also cyberspace, the electromagnetic 
spectrum, the information environment, and the cognitive 
dimension of warfare by accounting for the changing character 
of war. When complete, this multi-domain battle will enable 
land forces operating as part of a joint force to create 
windows of opportunity and advantage, restore capability 
balance, and build resilient formations.
    To mitigate mounting military risk and operate as part of 
the joint force in the future, the Army must undertake 
innovative and ambitious modernization efforts. There is an 
urgent need right now. Preparing for war is expensive, but the 
price of losing is far greater. Our Army and our Nation 
requires your continued support. It is time to renew the 
commitment to sustaining the U.S. Army's tactical overmatch.
    Mr. Chairman and distinguished members, thank you for the 
opportunity to speak with you today, and I look forward to your 
questions.
    Senator Cotton. General Marion?

 STATEMENT OF BRIGADIER GENERAL (PROMOTABLE) ROBERT L. MARION, 
 USA, DEPUTY OF ACQUISITION AND SYSTEMS MANAGEMENT, OFFICE OF 
THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS 
                         AND TECHNOLOGY

    Brigadier General Marion. Chairman Cotton, Ranking Member 
King, and distinguished members of the Subcommittee on Airland, 
thank you for the invitation to meet with you today and discuss 
Army equipment modernization.
    Mr. Chairman, Army modernization is the primary means by 
which we provide our soldiers with cutting-edge technologies 
and the latest in systems capabilities to empower, unburden, 
and protect them. In a global security environment that is 
increasingly uncertain and complex, the threats and challenges 
of tomorrow will be overcome with the equipment we develop, 
modernize, and procure today.
    Stable funding and continuity of effort take on increased 
importance in the world of acquisition. Starting and stopping 
programs based on available funding prevents momentum in 
research and lengthens the timelines for discovery and 
innovation. Operating under continuing resolutions and the 
pressures of sequestration increase risk in our procurement 
programs and cause delays in getting necessary equipment into 
the hands of our soldiers. Declining budgets drive difficult 
choices. Sustained, long-term, and predictable funding is 
essential for the Army to build and sustain current readiness 
and a more modern capable force.
    In the current environment, we are focused on five things: 
protecting science and technology investments, selectively 
investing in new capabilities, incrementally modernizing 
existing systems, resetting and sustaining equipment, and 
divesting excess systems.
    Equipping is a critical component to readiness. We cannot 
put our soldiers at risk by not providing them with the right 
equipment at the right time at the right place to accomplish 
their assigned missions.
    Finally, limited resources in the Army's modernization 
account continue to present significant challenges for the 
defense industrial base, especially for companies that cannot 
leverage commercial sales and for small companies that must 
diversify to quickly remain viable. When developing our 
equipment modernization strategy, we carefully assess risk 
across all portfolios to ensure balanced development of new 
capabilities, incremental upgrades to existing systems, and the 
protection of critical capabilities in the commercial and 
organic industrial base.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you for your steadfast and strong support of the 
outstanding men and women of the United States Army, our 
civilians, and their families.
    This concludes my opening remarks, Mr. Chairman. I look 
forward to your questions.
    Senator Cotton. Thank you all, gentlemen.
    I think one consistent theme of all four statements we have 
heard here today from four Generals and two Senators is that 
Congress has done no small part to hamstring the Army over the 
last 5 years due to the Budget Control Act and sequestration 
and the stop and start nature of our appropriations process.
    Just maybe if we can start down the line with General 
Anderson and going down the line. As Senator King said, the 
budget submitted last week focuses primarily on end strength 
and on readiness. Does it cause you concern that the budget 
this time around again seems to skimp on modernization?
    Lieutenant General Anderson. I think, Senator, that 
modernization will keep being the bill payer. So it allows us 
to maintain that $1.018 million baseline that we are trying to 
achieve here based on the NDAA. It does enhance some of the 
readiness capabilities we have and some of that is going to 
fill the hole from the readiness side. Getting formations back 
up to about 100 percent is a good thing, and it buys back some 
of the capabilities that we were about to lose and it buys us a 
couple other capabilities like shore ad and fires battalions. 
But above and beyond that, we are kind of status quo in terms 
of improvement.
    Senator Cotton. Thank you.
    General Murray?
    Lieutenant General Murray. Senator, just for clarification, 
you are talking about the 2018 budget?
    Senator Cotton. Yes.
    Lieutenant General Murray. I agree with General Anderson. 
We make a pretty significant dent in 2017 with the $30 billion 
that OSD asked for the Army. Senator King, you mentioned this. 
It is actually about $4.5 billion goes directly towards 
modernization of equipment and investment in the future. But 
once again, 2018 basically sustains mostly the force structure 
the NDAA gave us.
    Senator Cotton. General Dyess?
    Major General Dyess. Senator Cotton, the organization that 
I am in looks at the future. We are really looking at 2025 to 
2040. We are really close to that. As we developed the 1923 
POM, we will be very close to that, having that force by the 
time that POM comes to fruition. So I am concerned that we are 
moving in a way that takes us to a more modern force in which 
we both modernize existing equipment and develop those 
replacements for those workhorses that were fielded in the 
1980s that Senator King mentioned earlier.
    Senator Cotton. Thank you.
    General Marion?
    Brigadier General Marion. Sir, I concur with my colleagues, 
especially the remark General Murray made about forgoing long-
term development of systems for the incremental upgrades that 
we have to afford today, we have to pay for today, to ensure we 
have near-term readiness. So some of those incremental 
modernization activities that we have continued to carry on 
with those platforms--I think of Blackhawk as an example--we 
are going to be at a point where we cannot continue to 
incrementally modernize them anymore. From an affordability 
standpoint, we have got to get to a point where we can make a 
leap ahead in technology and a leap ahead in the other systems 
just like in Blackhawk.
    Senator Cotton. Thank you.
    As we think about the long term, General Dyess, you said in 
your testimony you cannot modernize effectively without the 
future of armed conflict. You are talking about the window of 
2025 to 2040. As you look ahead to the future of armed 
conflict, what are the main capability gaps in the Army right 
now that concern you for the future?
    Major General Dyess. Thank you, Senator.
    In this way, we are very in line with what the Chief has 
established as his priorities based on both high fidelity 
modeling, as well as what we have seen in our Russian new 
generation warfare study. We have seen primarily that we have a 
need for a mobile, short-range air defense. We have a need for 
long-range precision fires. We have combat vehicles, active 
protection, as you mentioned before, assured communications, 
position navigation and timing. All of those things are 
consistent with what we see that we need to work on now but 
also will take us into the future.
    Senator Cotton. Thank you.
    General Murray, as you think about those capability gaps, 
has the Army published a strategy to address those gaps and how 
we are going to get to the end state that we need?
    Lieutenant General Murray. Before I get to that, Senator, 
the one thing I would add is munitions, which we talked about 
yesterday. There is a critical shortage.
    Your answer specifically is not yet. So we have published 
modernization strategies for the last few years. It has been 
very much resource-constrained. So it talks about incremental 
upgrades to the current systems, investing in new development 
only when we absolutely have to like the AMPV [Armored Multi 
Purpose Vehicle] for the 113 replacement. General Dyess down at 
ARCIC is working on a strategy that gets after a parallel path. 
I am also working on a short piece for the Chief that is in his 
hands right now for him to approve and we hope to have over 
with the 2018 budget if not before.
    Senator Cotton. Thank you all, gentlemen.
    Senator King?
    Senator King. When I was governor, I had an adjutant 
general, and he taught me the term ``after action review.'' I 
am wondering what the Army has done in the way of an after 
action review of the disastrous results of modernization 
efforts prior to today, over $20 billion spent, no new fighting 
capability. What lessons have we learned and how can we take 
advantage of those lessons to not repeat the problems that 
plagued the Army modernization efforts 20 years ago?
    Major General Dyess. Senator, I will start. The last one 
that you mentioned as far as time in the recent was the FCS 
program, which was 2008-2009 time frame. I think that in the 
interim period of time, we have had less money, but we worked 
on the requirements I think very hard in order to have a 
requirements process that develops equipment that we can 
afford. My organization inside of TRADOC [Training and Doctrin 
Command] works with General Murray's organization inside of the 
G-8 requirements and resources, and we work with Bob's 
organization inside the acquisition community in order to not 
reach too far, stabilize our requirements, and then work 
towards achieving them.
    Senator King. Eighty percent solutions instead of 100 
percent.
    Major General Dyess. Sir, absolutely.
    Senator King. General?
    Brigadier General Marion. Sir, one of the very specific 
things--and by the way, that after action term is something 
that we have done just exactly on those programs that you 
mentioned to try to get at the question that you asked. How do 
we get better in the future? That is the key thing.
    So when we look at from an acquisition standpoint, we 
mature technologies to a point, and then we integrate them, 
build them into a system, and then we test them, and then we 
buy them in procurement. Each program is different.
    Senator King. Where did it break down?
    Brigadier General Marion. Exactly, sir. So each program is 
different, but one common theme--there are actually two common 
themes that we have seen. One is we have gotten to that point 
where we believe the technology was mature enough to begin to 
integrate into a final end item and then build it and test it, 
but the technology was not as mature at the component and sub-
component level. It was not as mature as we thought, or in some 
cases we knew the risk of moving, but we wanted to develop that 
capability and deliver it as soon as possible. So we went 
forward into the integration phase, the build phase, and the 
test phase too soon.
    Senator King. Well, that is exactly the experience of the 
Air Force and to some extent the Navy of doing R&D while you 
are building. It makes it more expensive, and you are not sure 
what you are going to get at the end. It sounds like that is a 
common thread.
    Brigadier General Marion. That is exactly correct, sir. I 
will give you an example with JLTV [Joint-Light Tacticle 
Vehicle] on how we learned our lesson.
    So we only went past that phase where we were integrating 
technologies once we knew that those technologies were 
sufficiently mature at the component and sub-component level 
before we integrated them into an entire vehicle and before we 
took it to test and before we made our procurement decision. 
Now we are into a low-rate initial production, an LRIP [Long 
Range Precision Fires], phase on JLTV where we got to an 80 
percent solution and we went forward with a procurement 
decision, and we believe that is the way to focus our 
activities in the future.
    Senator King. Now, has the Army made institutional 
structural changes to deal with these issues? Because I do not 
want this knowledge and memory to retire with you guys and then 
we have to learn the lessons all over again.
    Brigadier General Marion. So, sir, the second point is once 
you get to that point and you are ready to build and integrate 
and test, then the institution has to be very disciplined about 
how we allow changes to occur. We cannot allow design changes 
to occur because of changes in funding, changes in 
requirements, the technology does not mature. We have to be 
very disciplined about that. We have instituted processes that 
originate with the Chief of the Staff of the Army. Once we lock 
a requirement, he is the authority. So we have instituted this 
Army Requirements Oversight Council where once the Chief locks 
a requirement, that is the requirement.
    Senator King. I think that is very important that we do not 
forget those lessons, that they are embedded somehow in the 
formal process and in the structure.
    One of the things that we are talking about in the Air 
Force and in the Navy is--of course, it takes a while to 
procure and develop a new weapon system. It is going to be 
obsolete the day it is launched. We know that. It is just like 
buying a computer. But the key is, it seems to me, building 
these things in a modular way that can be upgraded, 
particularly with software and those kinds of things, so that 
you do not have to build a whole frame all over again. Is that 
something that you are looking at?
    Brigadier General Marion. Yes, sir. That is exactly what we 
are looking at.
    Lieutenant General Murray. I think a lot of the things you 
pointed out, Senator, have driven us almost to the incremental 
upgrade approach because we actually do pretty well in 
incrementally upgrading systems. So the big five you mentioned 
in your opening statement, the tank and the Bradley 
specifically, are not the same tank and Bradley that rolled off 
the production lines in the 1980s.
    Senator King. The frame may be the same.
    Lieutenant General Murray. The frame may be the same, but 
they are significantly more capable. With the next upgrade we 
are looking at, they will be significantly even more capable. 
So we have kind of focused on that with limited new 
developments, as I mentioned.
    One of the new development items that we are looking at--it 
kind of gets to some of your points I think--is mobile 
protected fire power. So for lack of a better term, it is a 
lightweight tank for at least our airborne forces and 
potentially all of our IBCTs [Infantry Brigade Combat Teams]. 
So we are doing this process significantly different. So this 
is not something the Army is trying to start from a clean sheet 
of paper with the build. So we have gone to industry, looking 
for non-developmental systems, in other words something that 
currently exists or a chasse and a turret that can be put 
together so it is all in existence. So it is not brand new 
technology. It gets back to your what is good enough quickly 
comment.
    The Chief has been involved with that, along with the other 
four-stars, in personally approving every requirement we put 
against that vehicle. He sat down with industry for 6 hours, 
and the Vice followed up with another 4 hours in 1 day for 
industry to come back and talk to him about what was tough 
about the requirements that we laid out, what were the trades 
he would need to consider. Then we will lock the requirements 
within 8 months of actually saying this was an Army 
requirement. Then as General Marion said, anything that changes 
will have to go back to the Chief for changes. We are after a 
good enough quickly to get capability in the hands of our 
soldiers.
    Senator King. The first requirement would be that the 
requirements be expressed in no more than 10 pages. Just pick a 
number.
    In any case, thank you, Mr. Chairman. We will have more 
questions.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Generals, I would like to commend all of you and your staff 
for the time, the energy, and effort you have put into two 
important Army fleet readiness programs: the Army National 
Guard HUMVEE modernization program and the HUMVEE ambulance 
modernization program. Even after JLTV is fully fielded, 
HUMVEEs are going to make up the majority of the Army's 
tactical wheeled fleet until at least 2030.
    Meanwhile, with each passing day, the HUMVEE fleet is 
aging. The average age of HUMVEE ambulances is now 28 years, 
more than a decade beyond the expected useful life. According 
to the Army's own assessment, these vehicles are in urgent need 
of either recapitalization or replacement. This is a perfect 
example of an area where modernization and readiness needs 
converge.
    Congress has provided significant support to HUMVEE 
modernization efforts and the model public-private partnerships 
between Army depots and industry that do the work.
    I know we are mostly talking about the fiscal year 2017 and 
2018 budgets today, but I want to jump ahead 1 year. This 
committee has urged the Army to expedite planning and funding 
in fiscal year 2019 for a long-term program of record on HUMVEE 
modernization. This is for whoever wants to take a shot at it. 
When do you think we can expect to see a comprehensive 
modernization plan with an associated program of record?
    Lieutenant General Murray. I will start with that, Senator, 
and thank you. You mentioned this. So the help that this 
committee and really the Congress as a whole has given 
specifically to the Guard and Reserve in terms of HUMVEE 
recapitalization, specifically the ambulance piece, has been 
exceptionally helpful.
    We believe we have a decision point on HUMVEEs at large in 
2018 and it really comes down to what you said in your 
comments, that we are going to have to make a decision on 
either we are going to have to buy more JLTVs to replace 
HUMVEEs or we are going to have to start recapping the HUMVEE 
fleet we have. It is about a 50/50 mix, as you know, between 
the total requirement between JLTV and the HUMVEE.
    So the average age of the HUMVEE fleet right now is about 9 
and a half years. We try to maintain less than 15 years. So we 
are in good shape for another couple years in terms of the age 
of the HUMVEE fleet. But we think the decision point is in 2018 
whether or not we have to fund a HUMVEE recapitalization or we 
have to purchase more JLTVs to replace the HUMVEE fleet.
    Then the ambulances. I mean, we are looking very hard at 
the purchase of the A-3 vehicle to get after some of the issues 
you are talking about.
    Senator Donnelly. Can one of you elaborate on the Army's 
stated desire to not only grow and modernize its armored force 
but also to accelerate modernization of the Army's combat 
vehicles? What combat vehicle programs are you talking about 
modernizing?
    Lieutenant General Anderson. Senator, I will start with the 
armored capability. So against the war plans we are planning 
against we are short. So the Chief made a decision here about 6 
months ago to convert 15. There are nine ABCTs [Armored Brigade 
Combat Teams] in the active component. There are five in the 
Guard. He had a decision to convert one IBCT, a light brigade, 
to an armored brigade. He has just decided to go with another 
one. That is trying to enhance the capability so we can support 
the war plans to meet the requirements.
    Lieutenant General Murray. In terms of the modernization 
piece you asked about, so it is really across the entire fleet. 
So Abrams tank--we start this September in terms of an upgrade 
from the B-2 to the B-3, the latest generation Abrams tank. On 
the Bradley, we start this year on an upgrade from the A-3 to 
an A-4. The Stryker you are familiar with. With a lot of help 
from Congress, the lethality package that we will field to the 
second SER is actually ahead of schedule in 2018, and then the 
Paladin PIM [Paladin Integrated Management] program when we go 
from the A-6 version of the Paladin to the A-7 version.
    Senator Donnelly. That ties in a little bit to my next 
question which is how do your current plans for incremental 
modernization of vehicles like the Abrams tank and the Bradley 
fighting vehicle that date back to the Cold War--how does that 
mesh with your projected requirements, particularly given the 
changing dynamics we are seeing almost on a daily basis in 
Europe?
    Lieutenant General Murray. So it really gets down to--and 
General Dyess can talk more about this--is the Chief is firmly 
convinced that there is a very real chance we will see a change 
in the character of war in the next 10 or 15 years. What you 
have kind of highlighted is the fundamental issue that we have 
is maintaining readiness for today so our soldiers have the 
best capability we can provide them, and we have programs to do 
that today, and finding the money to invest for 2025, 2030, for 
instance.
    Right now, if you look at how we invest in next generation 
vehicles, given the resources we have for modernization, is I 
have got to finish upgrading a vehicle. Let us just take the 
tank, for instance. So I got to finish upgrading the tank 
before I can free up enough resources to start procuring next 
generation--I can do some of the development--before I can 
really starting buying in a big way.
    Based upon the resources we have got, we have stretched out 
procurement and modernization production lines to a point of 
almost being silly. So to upgrade an ABCT with what I just laid 
out, it takes 3 years. One ABCT, 3 years. So to do five of 
them, that is 15 years. So what you find is, given the 
resources we have, we never finish the upgrade because in 15 
years, there will be another upgrade available that we are 
going to have to invest money it.
    So that is why I say we have got to start looking at the 
development, and we have. I mean, there is work going on at 
Fort Benning right now on the next generation combat vehicle. 
So the limited money it takes to start developing requirements 
and do some early prototyping--we can do that.
    Where we run into problems is I can never afford to buy it 
until we finish the upgrade we got. That is where predictable 
funding, even if it is less than ideal, predictable, so I can 
kind of look year to year to year to figure out when we can do 
that would be very helpful.
    Major General Dyess. Senator, in a couple weeks, we are 
going to commemorate the 100th anniversary of the U.S. entry 
into the war to end all wars. We did not seek that war. It 
sought us. The Army ordered 4,400 tanks on the entry of war for 
delivery a year later in 1918. Now, production did not start on 
those tanks until June of 1918, and they delivered 300 tanks to 
the United States forces in Europe.
    We have had tanks in development since that time, since 
1917. We have no future tank in development at this time. We 
are working to start, as General Murray mentioned, a next 
generation combat vehicle, which will be a Bradley replacement, 
starting at Benning, just a nascent program with small amounts 
of money. But this is the part about the big five, and then 
what is the next generation and how are we going to replace 
them? Modernizing existing, keeping readiness, but also moving 
into modernization of all those programs that we counted on so 
much across the years.
    Senator Donnelly. Thank you.
    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony and your service.
    A number of us worked on the NDAA last year to increase the 
Army's end strength. What are the numbers that you are looking 
at right now in terms of your assumptions on planning going 
forward, and what do you think the optimal number would be from 
an end strength standpoint?
    Lieutenant General Anderson. Hi, Senator. Good to see you.
    Senator Sullivan. You too, General.
    Lieutenant General Anderson. Growing that 1.013 is the 
sweet spot, Senator Sullivan. What did I say? $1.018 million is 
the sweet spot. That is the 476 in the active to 343 in the 
Guard and the 199 in the Reserves. The priorities are to get to 
those numbers. It is then to fill--I spoke earlier about trying 
get our units back manned up to 100 percent, sir. So we are 
hovering about 95 and the non-available is down in the 80s. 
Then we are trying to buy back some more combat capabilities 
that were scheduled to go away. Then we are trying to buy some 
other capabilities, light fires and air defense, shore enablers 
that we need from the European plan.
    Senator Sullivan. Just following up on the previous 
testimony, when you look at the Air Force, they are always 
talking about fifth gen in terms of fighters. Right? So F-35's, 
F-22's, and obviously those have been developed to take on a 
fifth gen adversary, China or Russia, in their development.
    So are you saying that in terms of the main weapon system 
for the Army, the Abrams tank--we do not have any kind of next 
gen battle tank that we have envisioned or planning or working 
on? What is the Army's equivalent of the F-35? Maybe that is 
not a great analogy because that did not come off so well. But 
I think now the capability in terms of what that aircraft and 
the F-22's are able to do is pretty darned impressive. Is there 
an Army analog in terms of a big, kind of a next gen platform 
that we need and that we know the Russians and the Chinese are 
developing similar advances in technology in main battle 
systems?
    Lieutenant General Murray. There are those out there that 
will disagree with me. I think for the very near term I think 
the Abrams is still towards the top of its class in terms of 
combat systems, in terms of tanks.
    Senator Sullivan. Towards the top, General?
    Lieutenant General Murray. I think we have parity. I think 
there is parity out there. I do not think we have overmatch.
    Senator Sullivan. We do not want a fair fight.
    Lieutenant General Murray. I would agree with you, Senator.
    Now, General Dyess mentioned next generation combat vehicle 
development going on at Benning. That is the start of it. But 
the problem we have is it is just not the tank. So the infantry 
carrier, the next generation combat vehicle. We have got to 
figure out what comes after Patriot, Avenger, THAAD [Terminal 
High Altitude Air Defense] in terms of layered air defense 
systems. We have begun some work on FVLs. As you know, that is 
a program that is progressing for our aviation fleet. The 
replacement for the 113 is starting to go into low-rate 
production. That is AMPV. You mentioned this--and the F-35 is 
no exception--it is time. So it is time. So it is really a 
balancing of resources, risk, and time so you deliver the right 
solution.
    One of the problems we have with heavy armor right now is 
this next upgrade of the Abrams will, once again, increase the 
weight. We are just about reaching the limits of what we can do 
with the Abrams. So it is time for us to start looking at next 
generation tech.
    What I worry about is there is nothing on the near horizon 
that indicates a fundamental breakthrough in technology where 
we can come up with a lighter tank. I think we would be 
mistaken to build another 75-ton tank as long as protection 
requirements are where they are. So we are not waiting on that 
technology. Let us go back to your point, Senator, we need to 
be very careful about what technologies we count on when we go 
down this path so we do not end up with another program that 
cannot deliver.
    Senator Sullivan. Thank you.
    I have two more quick questions. Now that we have deployed 
with the European Reassurance Initiative, it is a very kind of 
different kind of deployment than we have been doing, say, in 
Iraq and Afghanistan. Are we seeing capabilities, now that we 
are on the ground there, that we need to kind of refine or get 
back the muscle memory? That is kind of big Army deployments, 
looking across the plains of Europe, serious potential 
adversary. How are we thinking about that?
    Lieutenant General Anderson. I will start and Mike can 
follow up, sir.
    That is what we kind of knew before we got there. So with 
the brigade brought, obviously, enhanced armor, but the issue 
has become again the long-range precision fires and that gap 
that we have been trying to fill here for quite a while in all 
things air missile defense. The way we are getting around that 
is with our NATO partners just like the Romanians that are 
going to send a battery to join our EFP formations starting 
here next month. So through the synergy of NATO, we will build 
some of those capabilities, but again, the issue becomes the 
longer-term plans to enhance those capabilities.
    Major General Dyess. I would like to add on that probably 
training and leader development may be the thing that is the 
best investment at least in the short term because we have not 
exercised the muscle memory of full spectrum operations. We are 
starting that in our combat training centers. What we are 
seeing is that the colonels and higher have exercised that 
before, but below that, lieutenant colonels and below have not 
exercised in that and have, rightfully so, spent their 
resources to protect soldiers? lives, take soldiers to combat, 
bring them back in the last 15 years.
    Senator Sullivan. Well, I am out of time. General Anderson, 
I would not end a hearing without mentioning the 425 and the 
appreciation we have had for you guys reevaluating that. I want 
to make sure you do keep in your training continued focus on 
the cold weather ops in the Arctic. I mean, if the North 
Korea--the balloon goes up there, we are going to need soldiers 
who know how to operate in extreme temperatures in a 
mountainous terrain. That unit is doing a great job in those 
kind of environments. Thank you.
    Senator Cotton. Cold weather mountainous training in the 
Ozark Mountains of Arkansas, which I strongly support.
    [Laughter.]
    Senator Cotton. General Murray, you said that the Abrams is 
near the top and at parity. Whose tracked vehicles are near the 
top with the Abrams?
    Lieutenant General Murray. I think the Israelis, the 
Merkava, would be one. I would say that the T-90 is probably 
pretty close. I mean, people talk about the Armada tank, and it 
is still in my mind not completely fielded. Probably the 
British tank is pretty close. I would not say that we have the 
world class tank that we had for many, many years. I will be 
the optimist and say that we are at parity with a lot of 
different nations.
    Senator Cotton. Thank you.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and your testimony. 
Thank you for your service.
    As we are talking about kind of the future of warfare and 
new systems that are being developed, I am from Michigan and we 
are in the process right now of a transformation of the auto 
industry in ways as every bit as big as when the first car came 
off of the assembly line with Henry Ford, and that is in self-
driving autonomous vehicles, which is happening much quicker 
than I think anyone anticipated, especially with Ford Motors 
announcement of having a production self-driving car by 2021, 
just a few short years from now, but certainly many vehicles 
before that.
    At the President's address, my guest was Dr. Paul Rogers 
who is Director of TARDAC [Tank Automotive Research Development 
and Engineering Center], the Army's tank automotive research 
and development facility, which I know you know very well. They 
are doing some incredibly innovative work in autonomy and 
looking at how that might change how we fight wars. Certainly 
from a logistics standpoint, given the fact--my understanding 
is--we had more casualties in logistics in Iraq than in combat 
because it is pretty dangerous to drive a fuel truck and other 
types of vehicles with mines and attacks along that route.
    I just want to kind of get a sense from you as to where do 
you see autonomy self-driving in either combat vehicles, 
logistics vehicles. Are we able to build some partnerships with 
the auto industry and work with some of the incredible 
engineering talent we have in the greater Detroit area where I 
see both the Department of Defense and the private sector 
working in ways that could be very transformative, kind of get 
your vision of where you see autonomy when it comes to land 
combat vehicles and logistics vehicles.
    Lieutenant General Murray. Thank you, Senator.
    As you know, we already do this in the air, so the man-to-
man teaming concept. We are looking at something very similar. 
So in terms of concepts, robotic wingmen for ground systems. 
You have potentially a manned combat system paired with one or 
more unmanned system in the future. We fundamentally think that 
at some point in time as we progress, that we should never send 
a soldier into the most dangerous thing that soldiers do, for 
instance, breaching obstacles, first man into a room, you know, 
if you are clearing a building, et cetera, et cetera.
    There are two specific programs I am sure Dr. Rogers has 
talked to you about. The one TARDAC is working on right now is 
called leader-follower technology. That is one leader vehicle 
up to seven follower vehicles. It is a little bit more 
complicated than what is going on in the civilian industry 
right now because we are talking off-road, cross-terrain. So it 
is a little bit more difficult than I-75 in Michigan, in my 
home State.
    Then the other piece we are working on is ESMAT. It is a 
mule which we have had forever. It is an equipment carrier that 
is fully automated to follow an infantry squad. It can carry up 
to 1,000 pounds of ammunition, water, their rucksacks, their 
batteries. It recharges batteries. So we working that. We have 
take both of these to AROC.
    The problem I have got right now is the cost. You tied in 
the auto industry. So when we looked at the ESMAT going online 
and found that for what we think we need to pay for, what we 
are being told it is going to cost us to develop, et cetera, et 
cetera, I could buy a brand new Mercedes for a lot cheaper than 
I could buy basically just a four-wheel cart that is going to 
carry 1,000 pounds of equipment, which does not seem reasonable 
to me.
    So we are going back and we are working more closely with 
industry. We are working with some partners, DIUx [Defense 
Innovation Unit experimental]. We are working with some other 
partners to find out how we can do this faster and how we can 
do this cheaper because if it is just one, I can afford it. If 
I am going to put one of these in every infantry squad across 
the entire regular Army, the National Guard, it is going to be 
billions of dollars we would end up spending on this. So I have 
got to figure out how to get the price point down.
    Major General Dyess. Senator, I sponsored a RAND study 
about 4 years ago, and one of the biggest obstacles to fielding 
robotic capability in formations is trust and culture. I think 
the tipping point is going to be the sergeant 1st class, the E-
7. As soon as he can adopt that in, I think that will be the 
tipping point for us.
    Now, that does not mean that we will back away from ground 
robots. I think it is going to be part of our future. We just 
got the approved robotics autonomous systems strategy from the 
Vice Chief of Staff, and we are starting to work that and 
publicize that now. So I think robotics are going to be part of 
our future. Obviously, air is already there. Ground I think 
will be in the future as well. But I think we have to overcome 
a trust and culture.
    Senator Peters. Yes, certainly. I think that is in the 
civilian sector as well. Folks who like to drive automobiles to 
be able to sit back and let that automobile drive you and your 
family down the highway will take some time to get to that 
point. So certainly it is the same in a combat situation.
    But actually, General Murray, I was up in Michigan Tech who 
I know is working with TARDAC and with others to take these 
vehicles through a forest situation which is much more 
complicated than the I-75 drive with gulleys and the like. But 
I am pretty impressed with the work that is being done. It has 
happening very quickly. As far as the cost element, obviously, 
the civilian world has to worry about that too to make these 
production ready and probably initially will be in fleets like 
the Ubers and Lyfts and others. But as they produce more, those 
costs will go down and I am sure will be working hand in glove 
with you as well to make sure that happens with your vehicles.
    But thank you. Thank you for the comment.
    Senator Cotton. Senator Warren?
    Senator Warren. Thank you, Mr. Chair.
    So for thousands of years, human beings have been fighting 
wars, and for thousands of years, there has been one constant 
and that is how much stuff can a person carry. That just has 
not changed. Today we can put gear in the hands of a soldier 
that would have been undreamed of even a decade ago. But every 
time we do that, we load that soldier down, and that means less 
mobility, getting tired faster.
    I want to focus on that part when we are talking about 
equipment, and that is I am really interested in the research 
that is going on now that makes what a soldier does both more 
effective but also lighter, more manageable, how much stuff 
they are carrying around.
    I am interested in this because I have had a chance to go 
multiple times now to the Natick Soldier Systems Center in 
Natick, Massachusetts. It is this incredible facility that is 
doing this cutting-edge work on fabrics, for example. It is 
amazing stuff. Lightweight fabrics now that can monitor a 
soldier's vital signs, batteries that can generate power from 
soldier's own movements, lightweight helmets that are both more 
comfortable and more bulletproof than in the past.
    So I just wanted to ask a question--I thought I would start 
with you, General Marion, but I want anybody to weigh in on 
this that has some ideas--about speaking to one or two areas in 
personnel equipment that you think right now show the most 
promise or areas where you think the greatest need is in terms 
of development and testing.
    Brigadier General Marion. Well, thank you, ma'am.
    I think the single area that I would talk to most is 
lightweight body armor. The research, development, and 
engineering was done at Natick labs. So what we have been able 
to find through testing recently is that we had the same level 
or greater protection for up to 26 percent less weight. That is 
weight that we cannot off board to a mule or something else. 
That is protecting a soldier. So water, food, things like that, 
we can, but we do not want to do that with body armor.
    So some other things that we have done----
    Senator Warren. Can I say before you leave body armor--I 
just want to get a little pitch in here too because for the 
first time I have seen a body armor that is different for women 
than for men and how much more comfortable that is and how much 
more effective that is.
    Brigadier General Marion. Yes, ma'am. The vest that the 
soldier wears that these armored plates go into--those vests 
are now being designed from the smallest stature soldier we 
have, the 5th percentile female, up to the largest stature 
soldier we have, the 95th percentile male. So we have a variety 
of sizes of vests. Because of that, we can size the plates 
appropriately so a soldier does not have to carry a larger 
plate than they should be. So I think we are making all the 
movements in the right directions, and the testing is going 
well for those specific lightweight body armor components.
    By the way, we just awarded yesterday a contract for that 
lightweight Army combat helmet that you just referenced. So we 
are on the right track there too.
    Senator Warren. Good. Anything more? I think I may have 
distracted you. Were you about to go to another one? So we are 
on body armor. Right? Good.
    Anybody else want to add anything? General Anderson?
    Lieutenant General Anderson. Ma'am, it has been a problem 
since I was a lieutenant. So the issue becomes again--and it 
goes back to what Bob is talking about. There are certain 
things besides PPE [Personal Protective Equipment]. So as we 
watched over all these years when we went to Iraq back in 2003 
as all this stuff kept getting added to us like a Christmas 
tree, side plates, groin plates, neck plates. All of a sudden, 
you are becoming a robot.
    So we will keep working what Bob just described. I think 
all of us as we keep working--your basic combat level. Like you 
said, yes, you have to have the PPE because it protects you, 
but when it comes to your life support, obviously, your weapon, 
your night vision devices, your communications equipment, all 
the efforts we have done in terms of power, you talk about 
things that can take vital statistics, but batteries, 
munitions, all those types of things over the years have all 
come down.
    But the bottom line is, you know, just being the corps 
commander at Bragg, we are still throwing guys out of airplanes 
with 135-140-pound rucksacks coming out of an airplane. So that 
is not good. That is too bulky. That is too onerous. When they 
try to get out of that airplane, they cannot get out of the 
airplane when you throw on things like a parachute.
    So we have got to keep working all the parts of your 
fighting load above and beyond your personal protective 
equipment, and that is just going to have to be--you know, 
Natick has been doing that for a long time, but that is 
everything from aluminum type magazines to now the new plastic 
type. So many different examples, but we have to keep working 
on that effort.
    Senator Warren. Anything more anybody want to add?
    Lieutenant General Murray. I would just say the integrated 
head, neck, face protection--I think you asked for probably the 
most promising, the ability to really monitor the vital signs 
of a soldier, because we cannot do that right now. So a soldier 
goes out for heat injury. The first time you find out he is 
going out for heat injury is when he falls flat on his face. So 
the ability to monitor vital signs so you can get a little of a 
warning. I think those would be the two most promising.
    Senator Warren. I have seen some of this stuff in 
development. Just amazing what it looks like they are going to 
be able to do on this.
    Anything more that you want to add?
    It is very helpful because I realize what we are trying to 
do here is we are trying to solve for two variables at the same 
time. We want greater effectiveness, but we also want greater 
safety. We want to maximize both of them, and I realize 
sometimes there are tradeoffs.
    Lieutenant General Anderson. Soldier effectiveness is what 
you are talking about. At the end of the day, that soldier has 
to be able to walk quite a few kilometers with that load and be 
able to get the job done when he gets there. If we do not give 
him the kit to be effective--but he has got to be able to get 
there.
    Senator Warren. I have one other question I want to ask you 
about. Last week, we had a panel of experts who told this 
subcommittee that our adversaries are improving their cyber and 
electronic warfare capabilities. They are developing the 
ability to disrupt our communications systems. So that is the 
other part I want to ask about, about what plans the Army 
currently has to make sure that communications networks are 
resilient and they will be able to remain both operational and 
secure in adverse conditions. Could you say something about 
that?
    Major General Dyess. I will just start, ma'am.
    Senator Warren. Please.
    Major General Dyess. So as we look at the future of a 
multi-domain battle, we think that we are going to be contested 
in all those domains, space, cyber space, for example, 
electromagnetic spectrum, et cetera. That is going to be 
increasingly lethal. It will be increasingly complex with the 
urban environment. But we are going to have to operate 
degraded. So I think we are putting that in our concept work so 
that will help give us a point of direction to travel in. So it 
is going to inform the people who make requirements and inform 
the people who do the doctrine and organization and training 
and leader development building for requirements. So that is 
one thing we are putting in to define the operational 
requirement. That is going to be a tenet of a future 
battlefield for sure.
    Lieutenant General Murray. So that near term, in the 
future, ma'am, so it will not come as a surprise to anybody 
that our adversaries have the ability to do cyber attacks. The 
EW [Electronic Warfare System] piece, the ability to affect our 
system right now, that is not a future capability. They have 
that right now. So we are getting after that several ways.
    So in terms of a defensive standpoint, so assured P&T, the 
ability to use GPS [Global Positioning System] signals is very, 
very important to us. We are working about five different lines 
of effort to make sure we can guarantee that our systems can 
continue to rely upon----
    Senator Warren. So this is about resilience and about----
    Lieutenant General Murray. It is resilience.
    Senator Warren.--duplication in effect. So if they knock 
out one way to do it, we are right back on line with a second 
or a third or a fourth.
    Lieutenant General Murray. We are looking at little things 
like the atomic clock. So if we lose GPS, the atomic clock has 
the ability to provide the same type of timing that GPS does.
    We are also looking at in terms of--so a COMSEC 
[Communications Security] modernization piece of it so to make 
sure we can have the secure communications.
    There is also a big training piece of this that we have not 
really worried about this for the last 15 years. So how do you 
operate in that type of environment?
    We are also looking at offensive capabilities so we do not 
have a radiation-seeking warhead right now. So we are looking 
at development of a radiation-seeking warhead and the ability 
to identify where that jamming is coming from in terms of EW 
and be able to address that through an offensive role too.
    Senator Warren. Good.
    Major General Dyess. One other thing is experimentation. We 
need to be able to experiment with these things. At Fort Bliss, 
White Sands, we own the entire electromagnetic spectrum. So 
there are some capabilities that we are going to find on the 
future battlefield that we are not going to be able to 
replicate at home stations or even at our CTCs [Combat Training 
Centers] because it is on the flight path into LAX. We cannot 
turn it on.
    Senator Warren. You cannot do that in Boston.
    Major General Dyess. Exactly. So simulations I think is 
going to be important. So brigade commanders and division 
commanders understand the capability. But to be able to now 
experiment--I always thought it was not right to attack a 
brigade combat team with cyber at a national level and not have 
a national defense capability out there. So the last year, we 
sent out a defense capability. They identified a machine that 
was attacking the network, isolated it. The brigade commander 
wanted that machine back in the fight because that is part of 
his combat power. We were not able to do that 2 years ago, but 
last year we were able to do it. You have to be able to 
experiment with this.
    Senator Warren. I appreciate the point you make about 
hardware and about training and just how people conceive of the 
problem. Good.
    Anything more?
    Lieutenant General Anderson. So you know, ma'am, we do do 
two EW cyber rotations at the National Training Center per 
year. The goal is to be able to do that every rotation. But 
those are massive focused. It takes a lot of enablers to come 
out there and do that. But how you try to operationalize cyber, 
EW because most commanders do not understand it and do not have 
the capabilities like Bo is talking about. So those are 
phenomenal opportunities to have them perform in a degraded 
environment.
    But the bottom line boils down to how are you able to go 
from digital to analog. Mike is talking about GPS. You have got 
to be able to land nav the old-fashioned way, read a map. You 
got to be able to track a battle the old-fashioned way on an 
acetate map. That is the way we move forward. Places like 
Muscatatuck in southern Indiana have actual cyber. It is 
actually cyber facility where you can shut off power grids and 
you can shut off water. You can pick locks inside of a prison, 
et cetera. That is the way commanders can learn.
    But, Senator King, the sad thing about your AAR comment is 
what Bo was talking about. We do have the facilities at White 
Sands but the problem we have at NIE, our network integration 
exercise, and our experimentation stuff--the problem was 
because of the demand on forces. We did learn back around 2009-
2010 it was worth having a direct dedicated unit to do testing. 
Well, the reality of the demand I was explaining to you 
earlier--we cannot afford to keep that armored brigade team at 
Fort Bliss to do that anymore. So we have to train rotational 
units to come back to do the testing. But we did learn how to 
fix it. But the reality of the world, based on particularly 
Russia, caused us to have to go heel to toe in Europe, and 
there goes that test brigade.
    Senator Warren. Thank you very much. I recognize we cannot 
be effective, we cannot be safe if we cannot communicate when 
we have got people out in the field and the importance of the 
R&D [Research & Development] on resilience but also the 
importance of training. I appreciate the work you are doing. 
Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. I would like to return to some of the 
questions I raised in my opening statement.
    Does the Army need a modernization command, unity of 
effort, agility to stay ahead of the threat and innovation? 
General Anderson, do you want to take swipe at that?
    Lieutenant General Anderson. Sir, it is something we talk 
about all the time. It is what TRADOC is all about, Senator. I 
think that is why it exists. When you look at what the centers 
of excellence are doing as subsets of TRADOC, I think the 
problem has become--a lot of those have become stovepiped 
entities. I think the issue becomes the integration--and Bo and 
I were just talking about that today about how you have the 
operators. You have the TCMs and the operators. Who is figuring 
out what the requirement is? But I do not think a modernization 
command is the answer. I think within TRADOC we have between 
what CAC [Combined Arms Center] does, what ARCIC does, and the 
center of excellence does. I think the issue is how do you get 
better collaboration between them and then between the 
operational force.
    Senator Cotton. General Murray?
    Lieutenant General Murray. Sir, I am with General Anderson 
on this primarily. When we have looked at this in the past--and 
I have thought about it extensively--I would be fearful that 
you would lose focus on what soldiers need right now and you 
would become almost solely focused. So it would be almost a 
change 100 percent of the problem we have right now. We would 
be worried about 2035, 2040, and then we would find ourselves 
short in the near term because that was always my dilemma is if 
you got requirements being built in this modernization command, 
who is doing the work that ARCIC [Army Capabilities Integration 
Center] is doing right now in terms of looking at right now. I 
am not saying it could not work. I am not convinced of what the 
problem is we would actually fix with standing up a new 
command.
    Senator Cotton. General Dyess?
    Major General Dyess. I think what General Murray said is on 
problem statement and problem identification is important. We 
have identified 20 first-order problems, the solutions to which 
would make the Army better. Those are the Army warfighting 
challenge. You keep it out of the stovepipes. You put the Army 
warfighting challenge--number one is develop situational 
understanding. Now, that is not a Huachuca intel problem and 
that is not a Fort Benning maneuver problem. It is not a Fort 
Sill fires problem. It is everybody's piece of the solution. So 
that is how we are trying to address it, Senator, is put the 
warfighting challenge on the table and then develop cross-
cutting solutions to answer that.
    Senator Cotton. General Marion, I think I would like turn 
to you to DCGS-A as I raised in my opening statement, billions 
of dollars. The NDAA in fiscal year 2017 directed the Army to 
start seeking a commercial solution, and that was the 
compromise softer, weaker version of the provision. Where do we 
stand on DCGS-A?
    Brigadier General Marion. Yes, sir. In the Army, we are 
clear on the path ahead on DCGS-A. In the fiscal year 2017 
NDAA, section 113 referenced using commercial, off-the-shelf 
products, the prescription for firm fixed-price contracts, and 
timelines directly to initial operational capabilities and full 
operational capabilities. So we are exactly tracking the intent 
of section 113 and also section 220, the specific reference to 
post-increment one activities and the requirement to 
restructure the program and also use of COTS as well.
    So our Chief of Staff is intimately involved in what we are 
doing to restructure the program. We are clear on the 
requirements from both sections of the NDAA, and the Chief has 
taken several briefings and is coming to a decision point on 
how we are going to move forward on restructuring DCGS-A to 
meet the requirements and also the provisions of the NDAA.
    Senator Cotton. Is that at every echelon level?
    Brigadier General Marion. Yes, sir. That is battalion and 
below at the tactical echelons. Section 220 says everything 
beyond increment one.
    Lieutenant General Murray. Senator, I think you are 
tracking what we are doing at battalion and below almost right 
now. So we have gone out to industry with basically just a list 
of requirements--they are not the approved requirements for the 
solution--and invited industry to come in with what they have 
commercial, off-the-shelf that they think can meet the 
requirements.
    Very soon here then this month, beginning of next month, 
they will show up. About nine, I think, vendors will show up at 
Fort Huachuca, and we will take them through a series of tests 
using real soldiers, both officers, warrant officers, and 
enlisted, each vendor individually just to prove out what they 
said they can meet in terms of the requirements. Then we will 
kind of figure out really what I think is--the real intent of 
prototyping is what the exact requirements are we need in the 
future and whether or not there are civilian solutions or off-
the-shelf solutions out there that can meet the requirements. 
If there are not, do we need to change the requirements before 
we go after a developmental program.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. I am a great believer that structure is 
policy. If you have a messy structure, you end up with a messy 
policy. I keep coming back to how is the procurement process 
structured. Just a few thoughts.
    One question. When you are setting requirements, are 
construction engineers or representatives of the industrial 
base involved in defining the requirements?
    Lieutenant General Murray. Well, industry is involved, yes, 
sir. So what we are trying to do right now----
    Senator King. I am just wondering if there is somebody at 
the table who says that is impossible or----
    Lieutenant General Murray. In the past, the answer would be 
no. So what we are driving right now is when a requirement gets 
written at Fort Benning, Georgia, it is more than just somebody 
understands--so it is our S&T folks. They understand TRL 
levels, the technology readiness levels, associated with what 
we are talking about. It is the acquisition people. So they 
understand the acquisition process. As we write the 
requirements, it is the testers. So they understand as you 
write requirements, the testing requirements, so we do write a 
requirement that is going to take 2 years to test----
    Senator King. So the answer to my question is yes. 
Practicality and buildability is part of the requirements 
process.
    Lieutenant General Murray. Yes, sir.
    Senator King. You mentioned several times off-the-shelf. 
You also mentioned or one of you mentioned in your testimony 
other good tanks. The Israelis I think you mentioned, the 
British. I understand there is not necessarily a tank but a 
fighting vehicle the Germans make called the PUMA. What about 
buying the design and building them here? I mean, why do we 
have to reinvent and do all of our own if there is a really 
good top-range vehicle out there that meets our needs? That 
would be another way to accelerate this process instead of 
going through 5 years of design and requirements. If the 
Israeli tank or the German tank is 80 or 90 percent of what we 
want--I do think it should be built here, but it could be 
licensed and built here. What about that as an option?
    Lieutenant General Murray. We have looked at it not 
necessarily in the tank. I will talk about the PUMA. So, for 
instance, we have got some munitions gaps, and we went to the 
Germans in this case and looked at specifically their 
munitions. It came down to a capacity issue, and it came down 
to the cost was exorbitant in terms of what the munition would 
cost primarily because of the capacity. It was a cold 
production line. Then applied it to the PUMA.
    Specifically the PUMA, I think we do not understand yet, 
sir, what the requirement is for the combat vehicle. So as you 
move to this fundamental change in the character of the war, 
one thing that General Milley is convinced is that we will 
absolutely be fighting in dense urban areas. So as we looked at 
the mobile protected fire power platform, one of the key things 
that is driving him is how wide is it, how tall is it, how long 
is it. If you look at the PUMA, specifically the PUMA is wider, 
taller, and longer than our current infantry fighting vehicle. 
We are trying to go the other direction. That is just one 
example.
    For the MPF [Mobile Protected Firepower], we did have 
foreign competitors, foreign manufacturers come in and bid--or 
not bid yet, but present proposals for MPF.
    If we go through the requirements process and there is a 
foreign manufacturer that can produce inside the United States, 
we will be absolutely thrilled to get them into the 
competition.
    Senator King. A couple of other points. At our hearing last 
week, we had testimony that Silicon Valley basically will not 
deal with the Pentagon, too cumbersome, too long, too 
aggravating. That is a real problem. I mean, if our most 
creative, innovative sector of our whole economy says I just do 
not want to deal with this procurement system, it seems to me 
that in itself is something that should make us rethink it or 
meet with them. What is the problem so we can try to try to 
improve it? We cannot afford to lose that level of creativity 
and inventiveness because our systems are so slow and 
cumbersome and burdensome. I just commend that to you. I would 
suggest a summit meeting in San Jose about what are the issues 
and how do we improve this program.
    I am worried about the industrial base and the length of 
time these things take. There is a danger to the industrial 
base. This one is partially on us because of this herky-jerky 
budget process that we have. You cannot predict. It seems to me 
the budget process that we have hurts modernization probably 
more than any other area because you cannot----
    Lieutenant General Anderson. Installations too, sir.
    Senator King. Is that true?
    Lieutenant General Anderson. Installations too. So if 
installations are going to be a power projection base, which 
they are, but you are going to have crumbling taxiways, 
runways, ranges, simulators, et cetera, it is pretty 
comparable.
    But on DIUx, we did order a team out there in 2015. We went 
to them, sir. So, obviously, you are right. Tough coming to us, 
but we are just one subset of the Pentagon. So we did establish 
a liaison team there, started with three with a goal to grow to 
about 10. The issue is again how do they help us sort through 
and see things through on software, cyber, autonomous systems, 
artificial intelligence, et cetera.
    Senator King. But I would also add to that list of items 
the process itself as it relates to their ability to interact 
with the Pentagon.
    Lieutenant General Anderson. No argument. We need to figure 
that out. But a bridge to that solution was to at least get 
embedded with them so we did not lose the opportunity.
    Senator King. Another opportunity--and I hate to raise the 
word ``joint'' because it does not have a very good history in 
military procurement. But if you are doing body armor, for 
example, should you not be working with the Marines on that 
project? The same thing with the fighting vehicle. I know there 
were efforts on a joint fighting vehicle. But to the extent 
that that can be done without it ballooning the requirements 
and ending up with a vehicle that will not work, I hope that 
that is still part of the picture.
    Lieutenant General Murray. It is, Senator. So we do have a 
quarterly Army-Marine Corps board to focus. That is when we 
talk mostly about multi-domain battle, so you know, a concept. 
But most of those boards are joint development. So JLTV is a 
joint program. In terms of small arms ammunition, we are 
working with the Marine Corps. In terms of future vertical 
lift, Cape Set 3, we are working with the Marine Corps. So we 
work very, very closely. Body armor is another one. We 
discussed about specifically the female body armor about 6 
months ago. So we do, about every 3 months, get together, and 
those types of conversations normally drive the agenda.
    Senator King. Good. Well, we are really just beginning the 
discussion here. But my time has expired. But I want to thank 
you and urge you to maintain contact with the committee and 
with us as we work toward the new National Defense 
Authorization Act to try to capture what you need, other than 
regular funding. I understand that is important, but other 
areas of reform, structural reform, whatever we can do to try 
to accelerate this process because I do not want to face an 
adversary and have somebody say, well, we would have been ready 
but we could not work together or whatever the barriers were. 
We have got to get this right. Thank you very much, gentlemen.
    Senator Cotton. Thank you all, gentlemen, for your 
testimony today and your many years of service to the country.
    The hearing is adjourned.
    [Whereupon, at 4:48 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Tom Cotton
                       active protection systems
    1. Senator Cotton. Lieutenant General Anderson, Lieutenant General 
Murray, and Major General Dyess, last year, Congress approved a 
reprogramming request ``to rapidly acquire Active Protection Systems 
(APS) for the Stryker and Bradley systems to defeat or mitigate threats 
to survivability.''
    You highlighted the importance of APS in your testimony last week 
to the House Armed Services Committee, and I agree that we need to move 
with a sense of urgency to field technologically mature APS 
technologies, including solutions that are available today from our 
international partners. Please provide an update on the expedited Non-
Developmental Item (``NDI'') effort for APS, including the results of 
recent tests of various systems. What is the timeline for the Army's 
plan for the rest of this year with respect to the NDI? What can we 
expect in the fiscal year 2018 budget regarding plans following the 
completion of the NDI, in terms of timing, budgetary requirements, and 
number of systems? Is there an urgent operational need for APS? What is 
the Army doing to ease integration of the systems onto each of the 
combat vehicle platforms; especially given the constraints of size, 
weight, power, and cooling (``SWaP-C''), for lighter-weight vehicles?
    Lieutenant General Anderson, Lieutenant General Murray, and Major 
General Dyess. The APS NDI efforts for Abrams, Bradley and Stryker are 
on independent timelines for installation and characterization. Abrams 
installation is complete and began automotive characterization and 
ballistic testing in March 2017. Automotive characterization assesses 
operational impacts to the vehicle platform with the APS installed. 
This assessment includes determining impacts of conducting daily crew 
level tasks, degradation of fire control performance and general 
interoperability. There have been no issues identified during the 
automotive characterization. Ballistic testing assesses the vendor 
claims for ability to defeat specific threats. Of the 18 scenarios 
executed as of May 11, 2017, there were no issues directly related to 
the APS system. Abrams characterization is scheduled to complete 
September 2017. Bradley and Stryker platforms are currently completing 
APS installation efforts with automotive and ballistic characterization 
scheduled to begin for both platforms in July 2017 and completing in 
December 2017. At the completion of characterization for each platform, 
the Army will make a decision whether or not to proceed with 
procurement/urgent fielding. A decision to proceed would require 
additional testing to assess safety, suitability and effectiveness to 
support urgent fielding. The Army has requested $83.8 million 
(Research, Development, Test and Evaluation) to support this testing. 
Depending on the extent of additional testing, procurement of APS 
systems for Abrams could begin late fiscal year 2018 (FY18). The Army 
has requested $168.7 million (Weapons and Track and Combat Vehicles) in 
the fiscal year 2018 budget to procure up to 87 APS sets for Abrams, 
with countermeasures and spares, and approximately 35 APS sets and 
countermeasures for Bradley. Procurement of APS systems for Stryker and 
the remainder for Bradley is anticipated in fiscal year 2019. The Army 
approved a Directed Requirement in October 2016 that ``validates the 
operational need and serves as the directed requirement to field an 
initial NDI APS capability rapidly to the United States Army Europe,'' 
contingent upon success of the installation and characterization 
efforts and guidance from the Army Requirements Oversight Council 
(AROC). Vehicle Protection Suite is the planned Army program of record 
that will address ease of APS integration and size, weight, power, and 
cooling constraints relative to combat vehicle platforms and lighter 
weight vehicles.
               munitions 155mm in fiscal year 2018 budget
    2. Senator Cotton. Lieutenant General Murray, in your testimony you 
flagged the Army's anticipated need for ``significant increases to 
ammunition requirements based on emerging peer and near-peer threats.'' 
The Committee also heard testimony from Combatant Commanders last year 
about the operational challenges they will face with the implementation 
of the policy restricting the use of cluster munitions, and the 
resulting shortfall in availability of critical weapon systems. The 
President's fiscal year 2018 budget blueprint describes the need to 
address ``pressing shortfalls, such as insufficient stocks of critical 
munitions.'' The DOD fiscal year 2017 supplemental also requests a 
total of $1.1 billion for ammunition needs, across multiple theaters. 
For example the request adds $2.2 million for 155-mm rounds and $135 
million for extended-range M982 Excalibur rounds. Are those amounts 
sufficient to meet the ``significant increases'' in requirements? What 
legislative resources do you need, if any, to acquire capabilities 
that: (a) meet commanders' operational requirements; (b) keep 
unexploded ordnance to a minimum; and (c) do so in a rapid, cost-
effective manner?
    Lieutenant General Murray. No, those amounts are not sufficient. We 
project significant increases to ammunition requirements based on 
emerging peer and near-peer threats and increased demand in Iraq and 
Afghanistan--of which projected resources fall short. There are two 
primary issues we must address in order to meet commanders' current and 
future operational requirements. First, the Army is at risk if we 
should enter into sustained combat operations. While suitable 
substitutes exist to fill some shortages, there are no substitutes for 
ballistic missile defense or air to ground missiles. The munitions 
industrial base can sustain what the Army has requested up to this 
point. However in the event of a surge, it could take over two years to 
activate a production line for a ``new start''. We need to grow 
capacity in some of our Government-owned and Contractor-operated 
ammunition plants and to broaden commercial capacity in order to meet 
the increased requirements for preferred munitions. The second area of 
concern is the implementation of DOD cluster munitions policy which 
will go into effect January 1, 2019. The policy will limit the use of 
some of the Army's most effective weapons to support commanders' 
operational requirements. Denying essential terrain to our enemies will 
always be essential to ground combat, so reconsidering the cluster 
munitions policy has merit. If the policy remains in effect, the Army 
must continue to pursue advanced technology that is not currently ready 
and extremely expensive.
                               __________
             Questions Submitted by Senator Roger F. Wicker
              army pilot training and fleet modernization:
    3. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, and Major General Dyess, under the Aviation Restructure 
Initiative (ARI), the Army has leveraged its fleet of UH-72A Lakotas to 
modernize and enhance its pilot training capability at Ft. Rucker, AL, 
to create a safer, efficient and more relevant training environment. To 
date, over 140 Lakotas trainers have been delivered to Ft. Rucker, AL, 
with a current fielding objective of 8204 aircraft. Could you provide a 
general update on the status of the Army's pilot training capability 
modernization, to include observations from the initial pilot training 
classes on your new platform and curriculum?
    Lieutenant General Anderson, Lieutenant General Murray, and Major 
General Dyess. The initial assessment of the Lakota helicopter's 
performance in support of pilot training at Fort Rucker has been good 
in terms of positive skill transfer for trainees in preparation for 
follow-on training in the Army's advanced airframes. With fielding 
underway, we are still evaluating impacts in terms of durability and 
other performance aspects. Students are adapting well to the Lakota. 
Based on evaluation of five student classes utilizing the Lakota for 
Initial Entry Rotary Wing (IERW) training in fiscal year 2016, and six 
student classes to date in fiscal year 2017, we assess positive 
outcomes in the form of increased trainee proficiency earlier in the 
training curriculum, which enables greater focus on tactical navigation 
and night vision goggle training previously withheld until students 
progressed to advanced track airframes. Additionally, we assess that 
the positive skill transfer from digital modern cockpit instrumentation 
and dual-engine performance contributes to reductions in training time 
required for students to demonstrate basic proficiency in the Army's 
advanced track airframes after transitioning from Lakota-supported 
IERW.

    4. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, I am 
concerned that Army leadership does not recognize the urgency of the 
situation surrounding the inability for the Army to execute a contract 
for additional UH-72A Lakota helicopters, given a contract has not been 
executed for the UH-72A Lakota helicopters funded in fiscal year 2016 
appropriations. The failure to contract for additional Lakota 
helicopters will delay the transformation of the Army's pilot training 
capability and force the Army to continue flying its antiquated 
training aircraft. In addition, further delay in contracting for 
additional Lakotas will cause significant industrial impacts, to 
include a projected production gap at the manufacturer that threatens 
the stability of the UH-72A industrial capability. Additionally, delays 
in contracting is impacting the high performing production workforce 
and threatens to break a program that has sustained an on-time, on-
budget and on-quality record for the entirety of the program.
    The fiscal year 2017 appropriations bill that passed the House and 
will be passed by the Senate in the coming weeks includes funding for 
additional Lakota helicopters for other missions, as well as for the 
training fleet at Ft. Rucker, with explicit guidance as to how the 
funding is to be directed so that there is no confusion regarding 
Congressional intent.
    Provide this committee with your plan for executing the projected 
fiscal year 2017 funding and the existing fiscal year 2016 funding for 
the Lakota program.
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. Army leadership is 
actively tracking the status of the UH-72A Lakota Lawsuit and potential 
implications to the industrial base and the Army Training Aircraft. The 
Army is fully aware of the Congressional Language that designated $187 
million for 28 UH-72A Lakota aircraft in fiscal year 2017 (FY17) 
Appropriations Bill. The Army is prepared to obligate the fiscal year 
2017 appropriation as quickly as possible following a favorable court 
ruling.

    5. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, describe the 
impacts to your ARI schedule, pilot training, fleet modernization and 
production delays that will result from the Army's inability to procure 
additional UH-72A helicopters for the training fleet at Ft. Rucker.
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. If the Army is unable to 
procure additional UH-72As for the training fleet, The U.S. Army 
Aviation Center of Excellence (USAACE) will sustain a split fleet (UH-
72A and TH-67s) for Initial Entry Rotary Wing (IERW) Common Core 
(flight school) for longer than originally scheduled. This will result 
in USAACE having to resource personnel, facilities, simulation, and 
training plans for multiple tracks that were not planned nor 
programmed. Currently, there is insufficient room to sustain two 
different IERW simulators under the Contractor Owned/Contractor 
Operated (COCO) Flight School Simulation contract. USAACE would also 
have to execute a course redesign which would affect common core and 
advanced track (AH-64, UH-60, CH-47) hours and instruction.

    6. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, are you 
considering a harvest of Army National Guard Lakotas to meet your 
training requirement should you be unable to procure additional 
aircraft for this requirement from the manufacturer?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. The Army has not 
considered any options that harvest UH-72A Lakota helicopters from the 
Army National Guard.

    7. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, will you 
commit to making the UH-72A Lakota contracting problem and production 
stabilization a high priority for the Army, and do all in your power to 
expedite the contracting actions required to obligate the fiscal year 
2017 appropriation?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. Yes, the Army considers 
procurement of UH-72A Lakota a high priority. The Army is prepared to 
obligate the fiscal year 2017 appropriation as quickly as possible 
following a favorable court ruling.
           tupelo, mississippi apache company consolidation:
    8. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, I am deeply 
concerned that the Commission on the Future of the Army and the Army's 
Aviation Restructure Initiative (ARI) have proposed moving the Tupelo, 
Mississippi Apache Company to Texas. This consolidation would seem to 
indicate an overall reduction in readiness of this Apache Battallion, 
and the retraining of pilots and support elements along with the move 
itself would increase overall costs.
    Can you explain how this portion of the ARI yields fiscal savings?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. The National Commission on 
the Future of the Army (NCFA) recommended that 4 AH-64 Apache 
helicopter battalions remain in the Army National Guard (ARNG) 
outfitted with 18 aircraft each. The Army, along with the National 
Guard Bureau (NGB) and Adjutants General (TAG) from the individual 
States, is conducting a collaborative and inclusive process to examine 
the merits of the NCFA's recommendation and how best to implement it. 
The Army will determine the locations of the remaining 72 ARNG AH-64s 
in a manner that maximizes readiness in order to provide the best 
possible capability to our combatant commanders while incorporating the 
recommendation of the National Guard on how best to achieve those aims.

    9. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, what are 
your plans for the Mississippi Guardsmen that cannot relocate?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. No decision on Army 
National Guard (ARNG) AH-64 stationing has been made. Should the AH-64s 
currently located in Tupelo, MS, be relocated then the ARNG would 
implement an aviation rebalancing effort for the loss of AH-64 
capability, supplemental to force structure actions related to the 
Aviation Restructure Initiative. The extent to which a State that loses 
AH-64 capability and in turn gains off-setting capability is dependent 
on the final AH-64 stationing decision and aircraft allocation. Any 
Guardsmen assigned to a lost AH-64 unit will likely have potential 
reassignment options to other aviation units in the State, which may or 
may not require retraining.

    10. Senator Wicker. Lieutenant General Anderson, Lieutenant General 
Murray, Major General Dyess, and Brigadier General Marion, what are the 
Army's short and long term strategies for ANG force laydown?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. The Army National Guard 
(ARNG) has completed most of the force structure changes implemented by 
the Army's end-to-end Aviation Restructure Initiative (ARI). The 
National Commission on the Future of the Army (NCFA) February 2016 
report to Congress recommended the Army modify ARI by retaining AH-64 
Apaches in the ARNG. The Army is reviewing the recommendations of the 
National Commission on the Future of the Army in conjunction with the 
National Guard Bureau (NGB) and Adjutants General (TAG) from the 
individual States. NCFA recommendation #57 calls for retaining four 
Attack Battalions and resourcing two fewer UH-60 Assault Battalions 
than programmed in the ARNG under ARI. This modification of ARI will 
result in 24 total Apache Battalions with 20 in the Regular Army (same 
as under ARI) and 4 in the ARNG (compared to zero under ARI). The ARNG 
battalions would be equipped with 18 aircraft each.
                               __________
             Questions Submitted by Senator James M. Inhofe
                          budgetary priorities
    11. Senator Inhofe. Lieutenant General Anderson and Lieutenant 
General Murray, your joint statement highlights that the clear priority 
for limited Army budgetary resources has been for immediate readiness 
to meet current requirements. With ongoing operations showing no real 
signs of slowing down, how do we change direction to modernize to face 
future threats?
    Lieutenant General Anderson and Lieutenant General Murray. Today's 
fiscal environment impedes the Army's ability to achieve both a high 
state of readiness and modernize the force to a level that would allow 
a technological over-match against potential adversaries in the 
quantities required to meet war plan demands. The effects of the Budget 
Control Act (BCA) and continuing resolutions hamper and delay critical 
programs; prevent us from reprogramming money to make smart choices 
with limited funds; and stop new starts to fill current and emerging 
requirements. Most significantly, the Army cannot meet the 2012 Defense 
Strategy at projected BCA funding levels. Moreover, it will take 5-8 
years to recover from a fiscal year 2018 imposed sequestration funding 
level which further reduces buying power, disrupts modernization plans, 
and reduces the Army's capability advantage over near-peer, high end 
competitors. A return to sequestration in fiscal year 2018 will reduce 
modernization another 20 percent. At that funding level the Army would 
need to stop Abrams and Bradley modernization, stop Stryker Lethality 
upgrades, stop Active Protection Systems development, and slow down 
aircraft survivability programs. The industrial base is postured to 
ramp up in many cases to help the Army modernize its existing 
equipment. We have sustained many programs that can easily be 
accelerated if resources become available. The Army is prepared to 
accelerate delivery of enhanced air and missile defense, long range 
fires, armor formation upgrades, aviation fleet modernization, 
ammunition and missiles for emerging wartime requirements, lethality 
upgrades for Stryker vehicles, assured communications, Soldier 
lethality and protection and finally, electronic warfare.

    12. Senator Inhofe. Major General Dyess and Brigadier General (P) 
Marion, unfortunately, several high-profile recent Army modernization 
programs like Crusader and Future Combat System have wasted billions 
and produced little of value. What have we learned from those failures 
and how are we working to ensure we do not repeat past mistakes?
    Major General Dyess and Brigadier General Marion. The Army is 
committed to successful execution of our modernization efforts and 
learning from cancelled programs. Stable requirements, adequate 
resources, and realistic acquisition strategies and timelines are key 
to program success. New programs such as the Armored Multi-Purpose 
Vehicle and the Joint Light Tactical Vehicle have conducted trade 
studies, tiering and prioritization early in the acquisition process to 
ensure affordable, achievable, and realistic programs. Additionally, a 
key tenet to successful modernization programs is developing and 
qualifying component-level technologies before integrating them at the 
system-level. A robust Technology Maturation phase prior to 
Manufacturing Development, Integration and Test is critical to success 
in production, and ultimately fielding to our Army formations. The Army 
will continue to assess requirement feasibility and stability, current 
and emerging threats, available resources, and technology capability 
and maturity beginning early and throughout program lifecycles in order 
to deliver needed capability to our warfighters while being efficient 
stewards of taxpayer dollars.
                   current state of army procurement
    13. Senator Inhofe. Lieutenant General Anderson and Lieutenant 
General Murray, in your joint statement you mentioned that the Army is 
``essentially relying on the same platforms that we have had since the 
1980s--the Big 5.'' Are these platforms--even when heavily modified--
capable of giving us the kind of technological overmatch to which we 
are accustomed?
    Lieutenant General Anderson and Lieutenant General Murray. Yes, for 
now. However, we face the very real possibility of losing our 
qualitative overmatch. Our priority has been to focus limited 
modernization funding on capabilities that have the greatest effect 
against near-peer threats and can be in the hands of Soldiers in the 
next 10 years. We are challenged in that those upgrades will only go so 
far. We must have sufficient funding to improve today's equipment while 
at the same time invest in the development of future capabilities.

    14. Senator Inhofe. Lieutenant General Anderson and Lieutenant 
General Murray, is our reliance on these five platforms impacting our 
modernization efforts and future national security?
    Lieutenant General Anderson and Lieutenant General Murray. The 
reality is that these proven and capable platforms will be with the 
Army for the foreseeable future. Limits in funding for modernization of 
future systems and the speed of technological advances will cause us to 
continue to rely on all five platforms into the 2030s and beyond. The 
overmatch the Army has possessed for the last 70 years is at risk. Our 
adversaries have observed the way we fight and have developed 
capabilities and tactics to counter our strengths and exploit our 
vulnerabilities. Some of these new capabilities and tactics have 
already been demonstrated in combat. Our soldiers must be able to 
prevail against the full range of potential threats, including near-
peers in highly lethal combined arms maneuver; hybrid warfare; and 
determined, unconventional insurgents. This has become increasingly 
difficult, as our adversaries modernize at a rapid pace, while reduced 
funding has reduced the Army's modernization to a pace that jeopardizes 
our overmatch.

    15. Senator Inhofe. Major General Dyess and Brigadier General (P) 
Marion, do we currently have the budget, flexibility and procurement 
processes in place to expand beyond these five platforms?
    Major General Dyess and Brigadier General Marion. The constrained 
fiscal environment is the primary factor that limits our ability to 
expand beyond the Big 5. Within limited modernization funding, our 
priority is closing the greatest near-term capability gaps first. We 
need to improve capacity and capability shortfalls in air and missile 
defense; long range fires; munitions; lethality, protection, and 
tactical mobility of our Brigade Combat Teams; and active protection 
systems. We also need to address capability gaps in assured 
positioning, navigation, and timing; electronic warfare; cyber; assured 
comminutions and aviation protection. If resources were available we 
would simultaneously begin to invest in the development of the combat 
systems we will need in the future - 2030 and beyond. We would also 
work to increase our capacity to leverage commercial technologies for 
rapid integration into our formations.

    16. Senator Inhofe. Major General Dyess and Brigadier General (P) 
Marion, you also wrote, ``Stretching procurement timelines has allowed 
us to focus on current readiness and keep production lines and key 
programs active, at the cost of increased risk versus our most capable 
adversaries.'' By stretching procurement timelines to procure the 
minimum number of weapon systems to keep a production line open, are we 
decreasing efficiency and increasing procurement cost--essentially 
buying less for more money?
    Major General Dyess and Brigadier General Marion. To support the 
Army's focus on current readiness in a constrained fiscal environment, 
the Army is stretching procurement timelines and keeping production 
lines and key programs active. In some circumstances, production output 
has been reduced to the minimum sustaining rate. However, at levels 
above the minimum sustaining rate, the Army cannot fully realize the 
economies of scale necessary to maximize potential buying power at 
current funding levels. Inefficiencies arise when the Army cannot 
synchronize production rates across multiple programs to support 
fieldings. For example, the Chief of Staff of the Army's goal is to 
modernize one Armored Brigade Combat Team per year. With multiple 
systems on different production time lines, the Army is challenged to 
synchronize schedules if additional funds are not available to adjust 
production rates. Additional funding does increase efficiencies and can 
reduce procurement costs when economies of scales are available.
                   threats to our army's superiority:
    17. Senator Inhofe. Lieutenant General Anderson and Lieutenant 
General Murray, in your joint statement for the record, you warned 
that, ``The overmatch your Army has enjoyed for the last 70 years is at 
risk.'' You further cautioned that, ``Given the complex range of 
threats, the Army has a very short window to improve capability and 
capacity.'' If we continue with our current modernization trajectory, 
how soon do we risk losing our overmatch?
    Lieutenant General Anderson and Lieutenant General Murray. The Army 
is already overmatched in several key areas. We have current, critical 
capability gaps in long-range precision fires; air, missile, rocket, 
and unmanned aerial systems defense; combat vehicle protection; and 
electronic warfare. Combined, these gaps threaten the Army's ability to 
fight into and win inside complex, contested environments against peer 
adversaries. Technologies to fill these gaps have already been 
demonstrated. With additional funding, the Army can quickly field them, 
making a meaningful down payment on the capabilities needed to deter 
potential militarily peer adversaries and, if necessary, defeat them. 
At the same time, our adversaries are continuing to modernize beyond 
what these minimum measures can address. The Army needs sustained 
research and development funding to not only stay ahead of our 
adversaries but to regain the dominance demonstrated in 1990 during 
Desert Storm. With sustained science and technology funding, the Army 
will transition emerging, cutting-edge technologies to fielded 
capabilities over the next ten years-- five years to demonstrate the 
technologies, and five more to produce them at scale. If we do not 
begin investing in emerging science and technology now, we will be 
unprepared for our next war, one that will likely be fundamentally 
different from previous conflicts. The early battles of World Wars I 
and II show the tragic consequences of such a failure-- the loss of 
countless American lives and the potential displacement of the United 
States by a rising power.

    18. Senator Inhofe. Lieutenant General Anderson, what is the single 
most important thing we can do to improve our capability and capacity 
to address our current range of threats?
    Lieutenant General Anderson. The most important measure the nation 
could take to reduce risk and allow the Army to accumulate readiness, 
capacity, and modernization improvements is to provide sustained, 
predictable funding in the base budget.

    19. Senator Inhofe. Lieutenant General Anderson, your written 
statement note that some of our adversaries have developed capabilities 
and tactics to counter our strengths and exploit our weaknesses. You 
said some of these have been demonstrated in combat. Can you elaborate 
on specific tactics and capabilities to which you refer?
    Lieutenant General Anderson. The Army's dominance in Desert Storm 
was underpinned by decades of sustained modernization, leading to 
decisive technological advantages in precision fires; major combat 
systems; position, navigation, and timing via the Global Positioning 
System; and networking. Unfortunately, our potential adversaries took 
note of our success. Since, they have made investments to undermine 
these strengths and exploit our perceived dependencies on them. The 
investments these potential adversaries have made include anti-access, 
area-denial technologies that challenge the Army's ability to project 
forces into a theater. Once in theater, we are outranged and outgunned, 
facing fires, air defense, and electronic warfare systems that 
overmatch our own. At the same time, the Army can no longer count on 
our previous advantages in position, navigation, and timing and 
networking, as our adversaries can now threaten the domains these 
capabilities require.

    20. Senator Inhofe. Lieutenant General Anderson, continuing from 
Question 9 above, which such tactic or capability worries you the most?
    Lieutenant General Anderson. Our potential adversaries' anti-
access, area-denial; fires; air defense; electronic warfare; cyber; and 
space capabilities are all concerning. Combined with capacity and 
modernization shortfalls, they place the Army at high military risk. 
Though the Army's most critical capability gaps are in fires and air 
defense, we must tackle these issues holistically to reduce risk.
                               __________
                Questions Submitted by Senator Ted Cruz
   cancelled army programs reportedly wasted $30 billion in the last 
                                 decade
    21. Senator Cruz. Lieutenant General Anderson and Lieutenant 
General Murray, citing your prepared remarks, you stated, ``the budget 
issue has been further complicated by 15 years of focus on 
counterinsurgency and counterterrorism as the Army addressed current 
needs in Afghanistan and Iraq.'' I would undoubtedly agree that there 
have been tough choices within the Armed Services and that budget 
restrictions are negatively affecting the Defense Department. However, 
I would also like to reference a 2016 report from the Center for 
Strategic and International Studies that lists almost $30 billion in 
Army Programs that were cancelled or diverted after a Program of Record 
was established. Trying to strike the balance between modernization and 
readiness of the force has been an unfortunate burden that senior 
Service leaders have been forced to carry for a number of years. 
However, as Congress considers a nearly $30 billion fiscal year 2017 
supplemental defense amendment in the coming months, how are we assured 
that this funding will support Army Modernization Programs that will 
achieve their required deliverable?
    Lieutenant General Anderson and Lieutenant General Murray. The 
acquisition reforms included in recent National Defense Authorization 
Acts (NDAA) are a good start towards improving the acquisition process. 
As the Army's principal customer who represents the Soldier, the Army 
Chief of Staff (CSA) has greater involvement in `Big A' acquisition--a 
combination of resourcing, requirements and acquisition. In the CSA's 
response to Section 808 of the fiscal year 2016 NDAA, he addressed 
actions being taken or will be taken to streamline `Big A' acquisition. 
These include a reorganization of Army Staff functions to improve 
requirement generation; workforce professional development initiatives; 
process changes focused on delivering responsive materiel solutions; 
budget actions to improve long range programming; efforts to introduce 
prototyping earlier to reduce programmatic risk; and actions designed 
to lower life cycle sustainment costs. For instance, over the last 
year, the CSA has improved the responsiveness of the requirements 
process by reinvigorating the Army Requirement Oversight Council 
(AROC)--he now approves all requirements and has earlier visibility on 
``cost/schedule/performance'' trades required to define feasible, 
affordable requirements. He has also consolidated and streamlined the 
requirements and resourcing processes under a single authority. He has 
expanded AROC advisors to include key stakeholders such as the 
Commanders of Forces Command, Army Materiel Command, Training and 
Doctrine Command, Army Cyber Command, Research Development and 
Engineering Command and Army Test and Evaluation Command. This action 
ensures the operational environment informs the AROC. In the 12 months 
prior to re-energizing the AROC we approved 19 requirements documents. 
In the last 12 months since re-energizing the AROC, we approved 47 
requirements documents. This last year, the Army has also conducted the 
inaugural Strategic Portfolio Analysis Review (SPAR). The SPAR combined 
the previous Long-Range Investment Review and the Capabilities 
Portfolio Review into a fiscally informed construct. The SPAR reviews 
capabilities over a 30-year period, evaluates each program's relative 
worth, assesses our strategic priorities, and identifies investment and 
divestment opportunities. The assessment has had far-reaching 
implications to the Army's overall resourcing strategy and provides in-
depth analysis the Army leadership needs to make difficult requirements 
decisions within a constrained resource environment. Beyond new NDAA 
authorities, we also use industry days, the Association of the United 
States Army, vendor engagements with Program Executives and Managers, 
and Science and Technology basic research funded proposals as venues 
that keep the Army `Big A' acquisition community abreast of what 
industry can provide and where it is with technology and new products. 
Based on what is in the realm of possible, the opportunity to 
incorporate the state-of-the-art into individual equipment is assessed 
annually by Army Headquarters during the SPAR and Program Objective 
Memorandum processes. The variance between a threshold and objective 
requirement is such that we spin in the technology when required and 
ready based on available funding. To accelerate the testing and user 
evaluation, if required, we leverage the Soldier Enhancement Program 
and Rapid Equipping Force authorities. Requirements and solution 
developers also work closely with the Headquarters staff to integrate 
warfighter inputs throughout a programs development and we insert 
spiral developments as available.
        south korean rotational units and armored modernization
    22. Senator Cruz. Lieutenant General Anderson and Lieutenant 
General Murray, this week my staff received a briefing on the Army's 
fiscal year 2017 Budget Amendment request. During that briefing, a 
member of your staff discussed the Army's Infantry BCT that will soon 
begin its transition to an Armored BCT. It appears that the new ABCT 
will be equipped using prepositioned stocks that are currently 
stationed in South Korea and utilized by rotational units. Can you 
further expand upon the reasons why the pre-positioned stock must be 
relocated from a forward-deployed location supporting rotational units 
to outfit an ABCT that will be stationed in the U.S.?
    Lieutenant General Anderson and Lieutenant General Murray. The Army 
maintains two Armored Brigade Combat Team (ABCT) equipment sets in 
South Korea. One set is part of the Army's Prepositioned Stocks (APS)-4 
and is reserved for war time use only. The second set is part of the 
Korea Enduring Equipment Set (KEES), which the Army maintains in Korea 
for use by rotational forces, as a convenience. When they deploy to 
Korea for nine-month tours, rotational forces train hard on this 
equipment. Due to their ``fight tonight'' posture, we have been unable 
to take this equipment offline for depot-level maintenance. Over the 
last few years, the Army's maintenance costs have risen to over $25 
million per year, which is well above average, to maintain the 
rotational brigade's operational readiness. As the Army seeks to 
rebalance its force structure to better meet the demands of the Defense 
Strategy, we need to increase our ABCT capacity. Unfortunately, we do 
not have sufficient, excess combat equipment to convert an Infantry BCT 
into an ABCT, and purchasing new equipment is both cost and time 
prohibitive ($4 billion and five years). Our most cost-effective option 
was to remove the armor equipment from the KEES, fielding it to what 
will become the Army's 16th ABCT by fiscal year 2019, while leaving the 
set in APS-4 intact. In order to maintain our ABCT presence in Korea 
and meet the Joint Force commander's requirements, the Army will 
continue ABCT deployments to the peninsula. Beginning in 2018, 
rotational ABCTs will deploy with their organic equipment. This will 
maintain our ``fight tonight'' capability in Korea while also helping 
the Army rebuild its force projection and deployment skills. Loading 
and moving an ABCT around the world is a challenging task, which we 
need more training, and these upcoming rotations will help improve our 
Army's ability to project force and increase the overall readiness of 
our Army.
    23. Senator Cruz. Lieutenant General Anderson and Lieutenant 
General Murray, 1st Cavalry's 1st ABCT from Fort Hood just returned 
home from a highly successful deployment to South Korea under the 
existing rotation model. What are the operational and readiness impacts 
for future units that rotate through South Korea if the pre-positioned 
equipment returns stateside?
    Lieutenant General Anderson and Lieutenant General Murray. From the 
operational perspective of United States Forces Korea (USFK), United 
States Pacific Command and our South Korea allies, the Army will 
continue providing a trained and ready ABCT on nine-month rotations to 
South Korea. The Army will also continue to maintain a complete ABCT 
set in APS-4, for war time use only. From a readiness perspective, the 
Army will deploy ABCTs with their organic equipment, which will enable 
us to exercise the entire force projection infrastructure, from the 
unit's installation in the United States through the rail and sealift 
movement to Korea. This process will also allow us and our South Korean 
allies to exercise the transportation and force flow infrastructure in 
Korea, rather than waiting until a crisis erupts. Combined, these 
activities will improve our Army's ability to project force and 
increase our overall readiness.

    24. Senator Cruz. Lieutenant General Anderson and Lieutenant 
General Murray, furthermore, does this serve as an example of where 
sacrificing armored modernization programs, as a result of either 
budget caps or a failure of the program of record to meet the Army's 
needs, has directly impacted future Army readiness and, as a result, 
our ability to project power?
    Lieutenant General Anderson and Lieutenant General Murray. Use of 
the Korea Enduring Equipment Set (KEES) has not harmed future Army 
readiness or power projection. With congressional support, the Army is 
increasing the number of Armored Brigade Combat Teams (ABCTs) through 
converting two Infantry Brigade Combat Teams (IBCTs) to ABCTs in order 
to better meet the needs of the defense strategy. Future increases in 
ABCT capacity beyond the current conversions will require combat 
equipment that demands additional funding and time ($4 billion and five 
years). Continual use of KEES by rotational ABCTs has made maintaining 
equipment readiness of the set challenging and expensive. Due to the 
continuous demand for forces on station, the equipment is not taken 
off-line for depot-level maintenance. Once the ABCT conversion is 
complete, the former KEES will receive the same cyclic care as other 
ABCT sets increasing the average equipment readiness of the Army. ABCT 
rotations using organic equipment will build readiness and exercise 
power projection. These rotations mimic the requirements of a wartime 
deployment. They fully exercise force projection nodes from home 
station to the location required by the combatant commander. This 
improves the unit's speed of assembly and develops ``muscle memory'' 
for future deployments as well as for the supporting units and 
infrastructure necessary to facilitate force flow in an emergency.
                               __________
              Questions Submitted by Senator Dan Sullivan
plans for small unit support vehicle (sus-v) and joint all-terrain all-
                    weather support vehicle (jaasv)
    25. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, Major General Dyess, and Brigadier General Marion, in 
order to maneuver in cold weather, austere environments, Army forces 
rely on the Small Unit Support Vehicle (SUS-V)--a system that was built 
in the early 1980s. What is the Army's plan to keep these vehicles 
maintained, which is becoming increasingly difficult due to the SUS-V 
no longer being a program of record?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. In 2012, the Army 
determined there is no short or long-term operational warfighting 
requirement to continue ownership and sustainment of the Small Unit 
Support Vehicle. The U.S. Army has divested all SUS-Vs; however, the 
U.S. Army Alaska and Army National Guard are using unit funds to 
sustain the remaining SUS-Vs locally.

    26. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, Major General Dyess, Brigadier General Marion, what is 
the plan to support the much-needed replacement to the SUS-V, the Joint 
All-terrain All-Weather Support Vehicle (JAASV)? This newly-listed 
requirement is a critical capability needed by both the Army and 
Marines to navigate the austere environments in which our other 
vehicles are unable.
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. The Army does not have a 
validated requirement for a Joint All-terrain All-Weather Support 
vehicle. The JAASV is not an official/enduring Army requirement and 
there is no capability document. The U. S. Army has divested all SUS-
Vs; however, the U.S. Army Alaska and Army National Guard are using 
funds to sustain the remaining SUS-Vs locally.
              advanced integrated air-land battle training
    27. Senator Sullivan. Lieutenant General Anderson and Major General 
Dyess, to properly prepare for a near-peer conflict, joint training is 
a key part of readiness. The DOD has several joint integrated exercises 
that stress contested Air and Naval scenarios, such as Valiant Shield 
and Northern Edge. However, there are no, or very few such large scale 
Army and Air Force exercises. Are the Army and Air Force discussing 
large-scale Joint Air and Ground combat exercises that improve our 
joint readiness for a contested Air-Land battle campaign?
    Lieutenant General Anderson and Major General Dyess. Readiness of 
joint formations to fight large-scale contested Air-Land battle 
campaigns is primarily the responsibility of combatant commanders and 
accomplished through joint exercises, like Valiant Shield and Northern 
Edge. The Army ensures forces provided to combatant commanders can 
seamlessly integrate with the U.S. Air Force and are trained during 
U.S. Army Combat Training Center (CTC) rotations for decisive action in 
unified land operations. Maneuver CTCs integrate Air Force aircraft and 
controllers into Army Brigade Combat Team rotations at the tactical 
level. The Mission Command Training Program integrates joint fires and 
joint intelligence/surveillance/reconnaissance into Warfighter 
Exercises conducted for Army Division and Corps Headquarters.

    28. Senator Sullivan. Lieutenant General Anderson, Lieutenant 
General Murray, Major General Dyess, and Brigadier General Marion, the 
JPARC in Alaska is the largest joint overland training area in the U.S. 
with airspace the size of Florida and ground maneuver space the size of 
Delaware. What are your plans to use this ideal location for the 
advanced integrated training needed to best counter high-end and near-
peer threats?
    Lieutenant General Anderson, Lieutenant General Murray, Major 
General Dyess, and Brigadier General Marion. The Army, specifically, 
U.S. Army Pacific, plans to continue using the JPARC at the current 
rate to conduct the ARCTIC ANVIL training exercise on a bi-annual 
basis. Arctic Anvil is a live, virtual, constructive, Brigade Combat 
Team (BCT) home station training exercise designed to prepare a BCT for 
a rotation to a Combat Training Center (CTC). Arctic Anvil is conducted 
by the Joint Pacific Multinational Readiness Training Capability 
(JPMRC), which consists of a professionally trained operations group 
capable of providing standardized, instrumented, external evaluations. 
These exercises build, maintain, and extend BCT readiness using trained 
observer/coach/trainers, a live near-peer opposing force, and fully 
instrumented after-action reviews. The Army, Air Force, and Marine 
Corps are integrated in training exercises in Alaska that use JPARC. 
The most recent is Northern Edge where those services utilized Forts 
Wainwright, Greeley, the Yukon Training Area, Donnelly Training Area, 
Eielson AFB, and Elmendorf AFB. Marine Corps units used Donnelly 
Training area to fire the GMLRS round of the MRLS during Northern Edge 
and continued to train post-exercise. The Air Force conducts Exercise 
Distant Frontier (DF) and Red Flag-Alaska (RF-A), where U.S. and 
coalition air forces are integrated with ground forces. The facilities 
and infrastructure within the JPARC can enable scenarios and training 
goals supporting advanced integrated training countering high-end and 
near-peer threats. The Air Force proposes to expand the existing 
vertical and horizontal airspace structure needed to better accommodate 
low-altitude threat and multi-axis aircraft training mission 
requirements during JPARC training exercises. The Army is responsible 
for the management of the ground and airspace within the JPARC to 
support the year-round training readiness of its assigned forces, to 
include those in our AR 5-9 area of responsibilities. There is no joint 
ground management staff, therefore all joint multiservice, and 
coalition training efforts in the JPARC are coordinated by the Army 
workforce.
                               __________
           Questions Submitted by Senator Richard Blumenthal
      national commission versus aviation restructuring initiative
    29. Senator Blumenthal. Brigadier General Marion, when the Army was 
forced to balance budgetary constraints with the need to support 
continued deployments and replace aging aircraft, the Aviation 
Restructuring Initiative (ARI) was developed to economize the force 
while maintaining capability and utility by rebalancing aircraft 
between the Active and Reserve components. Yet recommendations issued 
by the National Commission on the Future of the Army over a year ago 
differ from ARI, particularly for Black Hawks. ARI advocates for four 
Black Hawk battalions to be added to the National Guard, while the 
Commission recommends only two as a cost saving mechanism to offset 
other changes it recommends. You and I discussed this issue in my 
office several months back. Where does the Army stand on reconciling 
these strategies and how will this impact Black Hawks? What is the 
optimal number of battalions required to meet the National Guard 
mission?
    Brigadier General Marion. The Army is still reviewing its decisions 
regarding the reconciliation and implementation of the Aviation 
Restructuring Initiative and the National Commission on the Future of 
the Army. The National Guard Mission will be fully supported.
                             marines united
    30. Senator Blumenthal. Lieutenant General Anderson, the Marines 
United scandal involved a private Facebook page originally intended as 
a suicide prevention page and used by 30,000 active duty and veteran 
Marines, as well as civilians. A private page within the Facebook group 
provided access to a Google drive that contained naked and exploitive 
pictures of women, including Marines. These photos were often 
accompanied by obscene and misogynistic commentary, as well as their 
personal information such as name, rank, and place of work. An NCIS 
investigation is ongoing. Although this incident involved the Marine 
Corps, I believe we would be naive to think this event is isolated to 
the Marine Corps and could not occur in the Army. The Army has training 
and policies providing guidance for online behavior. Do you believe the 
current training and policies are sufficient to address cyber 
harassment? What is the Army doing to proactively identify any possible 
websites of concern and protect its soldiers from cyber bullying? Are 
there programs and resources available?
    Lieutenant General Anderson. The Army's current training policies 
have been recently updated to reflect real work scenarios and vignettes 
to not only make training realistic, but to ensure all policies are 
written in a way that supports and protects the rights of the Soldier. 
Soldiers are trained on the appropriate conduct during Initial Entry 
Training and on an annual, recurring basis thereafter. The training 
approaches the problem from the perspective of Army values and respect 
for others. This training includes discussion points and vignettes with 
respect to electronic communications and online conduct. These 
discussion points and vignettes have been incorporated into 
institutional, command, and unit training packages for Equal 
Opportunity (EO), Equal Employment Opportunity (EEO), Treatment of 
Persons, Sexual Harassment/Sexual Assault Response and Prevention 
(SHARP), and Cyber Awareness, among others. This training is for 
enlisted and officer personnel, pre-command courses for command teams 
from company through brigade level, and functional courses that train 
recruiters and initial military cadre, such as drill sergeants and 
Advanced Individual Training leaders. From a policy perspective, the 
Army published interim guidance regarding online conduct in July 2015, 
and reissued in 2017, to supplement the existing policy concerning the 
treatment of persons. The policy advises the Army personnel that online 
misconduct is punitive, and online misconduct, to include harassment, 
hazing, bullying, stalking, discrimination, and retaliation is 
inconsistent with our Army values and negatively impacts command 
climate and readiness. The Army is very serious and deliberate about 
combatting cyber bullying and raising awareness to combat it, through 
both policy and training means. The Army considers cyber bulling to be 
a form of fratricide, as the G-1 himself describes it. Soldiers know to 
immediately report websites of concern to their chain of command.
                        black hawk modernization
    31. Senator Blumenthal. Brigadier General Marion, the FYDP projects 
that for fiscal year 2018, the Army is planning to seek 60 Black Hawks. 
Do you believe your fiscal year 2018 request will remain at this level? 
What is the ideal number you would procure?
    Brigadier General Marion. The submitted fiscal year 2018 budget 
includes 48 Black Hawks. We have structured the Black Hawk Multi-Year 
contract with options to accommodate additional aircraft if there is 
continued strong support for additional Black Hawks.

    32. Senator Blumenthal. Brigadier General Marion, what efforts are 
you taking to ensure a strong and reliable multi-year procurement 
strategy for the UH-60 million in order to give our warfighters much 
needed capabilities, while also ensuring a stable industrial base?
    Brigadier General Marion. The Army continues to support multi-year 
contracts for Black Hawk because of the cost savings they provide and 
the stability they provide to the industrial base. The Army has worked 
proactively with its government stakeholders and the industrial base to 
document requirements, request legislative authority and allocate 
funding for another multi-year contract. The Army fully intends to 
support its ninth multi-year Blackhawk contract for fiscal year (FY) 
2017 to fiscal year 2021.


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                        AIR FORCE MODERNIZATION

    The subcommittee met, pursuant to notice, at 3:30 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Committee Members present: Senators Cotton, Tillis, 
Sullivan, King, Blumenthal, Warren, and Peters.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    Today we'll be discussing the future of our Air Force, what 
shortfalls we need to fix, what capabilities we need to 
develop. As we all know, Congress has a tendency to think in 
one-year increments, a handicap our rivals are only too happy 
to exploit.
    So I consider this hearing our opportunity to take the long 
view. We'll get an update on the problems we heard about last 
year, like the shortage in fighter pilots and in crew members 
for remotely piloted aircraft. We'll also talk in more depth 
about how to keep our technological edge over the next 10 
years.
    The truth is, we've been losing ground for years. As 
Lieutenant General Stephen Hoog noted a little over two years 
ago, at the beginning of Desert Storm we had 134 combat 
squadrons. By 9/11, we were down to 88. Today, we're at 55. In 
fact, he argued, if we were to conduct Operation Desert Storm 
today, we would have to ``completely strip out Asia or strip 
out Europe, and we'd still be short of the combat power we had 
in Desert Storm.'' And that was a relatively small conflict 
against one country in one region.
    We all know how we got here. The last administration made 
severe cuts to the Defense budget, which Congress did far too 
little to oppose, and since then the threats to our national 
security have multiplied, whether it's the Islamic State, 
Russia, China, North Korea, or Iran.
    At the very moment when the dangers to our country are 
increasing, the Air Force's capacity, readiness, and 
capabilities are decreasing. But now we have a new 
administration that recognizes this dire situation. The 
President has promised to build a military that far outpaces 
our rivals. The question we want to discuss today is how do we 
do that?
    I will be particularly interested to hear from our 
witnesses how the Air Force plans to modernize its forces as 
part of the larger effort to rebuild our military. A strong Air 
Force is key to our joint war fighting capability. We have to 
be able to deploy and support forces anywhere on the globe, and 
to do that we need a sufficient strategic and operational 
reserve, national mobilization capability, and robust defense 
industrial base.
    What we do this year will determine how we fare over the 
next 10 years. The stakes are high, and I know all of us here 
take them very seriously.
    I look forward to hearing our witnesses' testimony. All 
three of them come from the Air Force's headquarters at the 
Pentagon: Lieutenant General Mark Nowland, Deputy Chief of 
Staff for Operations; Lieutenant General Arnold Bunch, Military 
Deputy, Office of the Assistant Secretary of Air Force for 
Acquisitions; and Lieutenant General Jerry Harris, Deputy Chief 
of Staff for Strategic Plans, Programs and Requirements.
    Gentlemen, thank you all for appearing today. Thank you for 
your many decades of distinguished service to our country in 
uniform.
    Senator King?

                STATEMENT OF SENATOR ANGUS KING

    Senator King. Thank you, Mr. Chairman.
    I want to extend a welcome and thank you to each of our 
witnesses for appearing before the subcommittee today. I look 
forward to hearing your testimony and discussing these 
important issues.
    Last week the subcommittee heard from the Army witnesses 
about the challenges that the Army has in its modernization. 
Following our first hearing two weeks ago on all armed warfare 
in the 21st century, it's clear that both our ground and air 
forces need to reestablish the capabilities required to 
dominate--I emphasize dominate--near-peer adversaries across 
the full spectrum of military operations.
    Today I'm looking forward to hearing from our Air Force 
witnesses about the challenges and opportunities they face in 
modernizing the Air Force. I'm especially interested in hearing 
from the witnesses how the Air Force plans to manage its 
multiple modernization programs in ways that deliver the 
capabilities our war fighters need to defeat our most capable 
adversaries on a timely basis--I want to emphasize on a timely 
basis--while protecting our taxpayers' dollars. Often, in 
acquisition matters, timeliness as well as dollars are 
important considerations.
    Too many defensive acquisition programs over-promise and 
under-deliver on cost and schedule, and we must do better if 
we're going to effectively modernize our fighter, bomber, 
aerial refueling and other fleets to the levels required to 
meet our future requirements.
    Our witnesses this afternoon face huge challenges as they 
strive to balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge so critical to successful military 
operations. Resources are never unlimited, and the Air Force 
must make investments based on near-term risks as well as 
future threats to procure new weapons, upgrade existing 
platforms, and fund research and development accounts.
    Our Air Force will bear the brunt of dealing with the anti-
access, aerial denial threats that our Armed Forces may and 
likely will face in the future. These challenges are made 
particularly difficult by the spending caps imposed by the 
Budget Control Act. These caps were relieved somewhat for 
fiscal year 2016 and 2017 in the bipartisan Budget Act of 2015, 
but the caps again take effect in 2018 and are not 
automatically nullified by making cuts in non-defense 
discretionary programs.
    Every year we are challenged to make decisions balancing a 
number of competing demands for resources, including resources 
for current operation and investment in future modernization. 
In the absence of specific budget proposals, however, we will 
be assessing overall plans and programs regarding current and 
future aviation programs. There are a number of other issues 
that we need to discuss, but in the interest of time I will 
stop here and wait for our discussion.
    Again, I want to thank our witnesses; and thank you, Mr. 
Chairman, for calling this hearing.
    Senator Cotton. General Nowland?
    Lieutenant General Harris. Sir, may I start?
    Senator Cotton. You may, General Harris.
    Lieutenant General Harris. Yes.
    Senator Cotton. Did you draw the short straw this morning?
    Lieutenant General Harris. I did, sir.
    Senator Cotton. Okay. Sorry to hear that.
    Lieutenant General Harris. It's because I'm younger. 
They're more experienced.
    Senator Cotton. You have the most hair.
    [Laughter.]
    Lieutenant General Harris. I'm not sure.
    [Laughter.]

  STATEMENT OF LIEUTENANT GENERAL JERRY D. HARRIS, JR., USAF, 
    DEPUTY CHIEF OF STAFF FOR STRATEGIC PLANS, PROGRAMS AND 
     REQUIREMENTS, HEADQUARTERS, UNITED STATES AIR FORCE; 
 ACCOMPANIED BY LIEUTENANT GENERAL ARNOLD W. BUNCH, JR., USAF, 
 MILITARY DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR 
FORCE FOR ACQUISITION; AND LIEUTENANT GENERAL MARK C. NOWLAND, 
   USAF, DEPUTY CHIEF OF STAFF FOR OPERATIONS, HEADQUARTERS, 
                    UNITED STATES AIR FORCE

    Lieutenant General Harris. Sir, thank you for having us 
here today to continue our discussion on Air Force 
modernization.
    To the several members of the committee who have served in 
our Armed Forces before, a special thank you for continuing to 
serve this great nation.
    First, we would like to enter our written statement into 
the record.
    Senator Cotton. So entered.
    Lieutenant General Harris. Your United States Air Force is 
always there. We're providing global vigilance, global reach, 
and global power. The demand for our service has never been 
higher, even though we are 38 percent smaller, already noted, 
than we were in 1991.
    We've been continuously deployed across the globe, and our 
adversary has been watching and copying us, learning from us 
every day, year in and year out. The world is changing, and our 
adversaries are catching us faster than we predicted. To ensure 
we keep the advantage across the entire spectrum of warfare, we 
must modernize our nuclear forces, our conventional forces, and 
the projection of those forces in air, space, and cyber 
domains.
    We're increasing our fighter and tanker procurement to 
modernize the force, and soon we'll be producing the B-21 to 
modernize our long-range strike fleet.
    We are also in the early stages of replacing a portion of 
our training aircraft, which will enable shorter training 
timelines and better-trained air crew.
    We are also modernizing some of our older aircraft, 
extending their durability, and providing increased capability 
to kill and survive in combat.
    We're making progress with the space fence, protected 
SATCOM [satellite communications], and our Joint Space 
Operation Center.
    Our number-one asset is our airmen, and we continue to grow 
them. Venues such as this give us the opportunity to highlight 
our efforts, and we appreciate the opportunity to partner with 
the subcommittee. Thank you.
    [The prepared joint statement of Lieutenant General Harris, 
Lieutenant General Bunch and Lieutenant General Nowland 
follows:]

Prepared Statement by Lt. Gen. Jerry ``JD'' Harris Jr., USAF, Lt. Gen. 
     Arnold W. Bunch, Jr., USAF and Lt. Gen. Mark C. Nowland, USAF
                              introduction
    Chairman Cotton, Ranking Member King and distinguished members of 
the Airland Subcommittee, thank you for the opportunity to provide an 
update on the United States Air Force Modernization programs and Force 
Structure. Today's demand for Air Force capabilities continues to grow 
as airmen provide America with unmatched Global Vigilance, Global Reach 
and Global Power. We are supporting combatant commander requirements in 
response to growing challenges from Russia, China, North Korea and 
Iran, in addition to the ever present counterterrorism mission in the 
Middle East and around the world. While our forces have been heavily 
engaged in deterring or addressing these operational challenges, our 
adversaries have taken the opportunity to invest in and advance their 
own capabilities. To address ever narrowing capabilities gaps, we need 
your support in the form of increased, steady and predictable 
appropriations. With this support, the Air Force can invest in critical 
capabilities and modernization programs while sustaining capacity and 
recovering readiness to ensure the joint force can deter, deny and 
decisively defeat any enemy that threatens the United States or our 
national interests.
                           operations update
    ALWAYS THERE  Your Air Force relentlessly provides Global 
Vigilance, Global Reach, and Global Power for the nation . . . we're 
always in demand . . . and we're always there. Our airmen continue to 
provide two legs of the nuclear triad and resource 75 percent of the 
Nuclear Command, Control, and Communications (NC3) framework, made 
possible, in part, through one of the 12 satellite constellations our 
space operators command and control every day. Beyond NC3, those 
constellations provide other critical capabilities such as worldwide 
secure communications, global positional awareness, global missile 
warning, and a battlefield situational awareness architecture for our 
joint warfighters.
    Your Air Force has been globally engaged for the last 26 years in 
combat operations. Though our end strength has decreased 38 percent 
since 1991, we have experienced significant growth across several 
mission areas. Our airmen provide joint forces with Global Vigilance 
using real-time multi-domain platforms and sensors integrated across 
our global intelligence and command and control (C2) networks to find, 
fix, and finish a range of hostile targets simultaneously across the 
globe. Without fail, the Air Force performs 60 combat lines of 
persistent attack & reconnaissance missions with remotely piloted 
aircraft (RPA) every day . . . they serve as the unblinking eye to 
support combatant commanders and joint warfighters and give us a 
competitive advantage. Through our Intelligence, Surveillance and 
Reconnaissance (ISR) capabilities, we provide warfighters over 6,000 
intelligence products per day used to identify enemy targets and 
trigger 70 percent of Special Operations Forces (SOF) assaults on 
violent extremist organizations.
    Additionally, the Air Force has conducted 4,000 cyber missions 
against more than 100,000 targets, disrupting adversaries and enabling 
over 200 High Value Individual kill/capture missions. In securing our 
networks and digital infrastructure, 2016 saw Air Force cyber operators 
block more than 1.3 billion malicious connections--an average of more 
than 40 per second.
    Nearly every three minutes a mobility aircraft departs on a 
mission, providing . . . and access, projecting power through a network 
of airfields in 23 countries and 77 locations, while providing critical 
aerial refueling capability. In 2016, our aeromedical professionals 
evacuated over 5,700 patients and provided emergency medical care 
resulting in a 98 percent survival rate. Your Air Force provides 
unrelenting ability to maneuver, sustain, and recover personnel and 
assets . . . at home, abroad, and with our allies and partners.
    With fighters, bombers, RPAs, and Intercontinental Ballistic 
Missiles (ICBMs), the Air Force provides conventional and nuclear 
Global Power that can strike an enemy on short notice anywhere in the 
world. In Iraq and Syria, the Air Force has led 65 percent of the more 
than 17,000 coalition airstrikes since 2014, delivering decisive 
firepower supporting joint, special operations and coalition ground 
forces to defeat and degrade ISIS and regain critical territory.
    Stitched together, the fabric of our Air Force weaves multi-domain 
effects and provides U.S. servicemen and women the blanket of 
protection and the ability to power project America's full range of 
combat capabilities. Make no mistake, your Air Force is always there.
    READINESS IN A CHANGING WORLD  However, being ``always there'' 
comes at a cost to our airmen, equipment, and infrastructure, and we 
are now at a decision point. Sustained global commitments and recent 
funding cuts have affected capacity and capability for a full-spectrum 
fight against a near-peer adversary. In 2013, sequestration forced hard 
decisions that sacrificed the readiness and size of the Total Force in 
order to ensure our technological superiority against future 
adversaries. In the fiscal year 2016 and fiscal year 2017 budgets, we 
made the necessary adjustments to balance near-term readiness with 
future modernization, but due to continuous combat operations, reduced 
manpower, an aging fleet, and inconsistent funding our readiness has 
suffered.
    In a world of increasing threats, stronger adversaries and a 
persistent war against violent extremism, there is a greater disparity 
between commitments and the resources necessary to achieve our national 
security objectives. Instead of rebuilding readiness for near-peer 
conflicts, your Air Force is globally engaged in operations against 
lesser-equipped, but still highly lethal and adaptive enemies. Airmen 
serve at home and abroad to underpin joint force success, but it comes 
at the expense of full-spectrum readiness.
    The first step to regain full-spectrum readiness is to rebuild our 
Operational Training Infrastructure. This includes not only live, 
virtual and constructive environments, but also the ranges and space 
necessary to train against high-end threat systems in a multi-domain 
environment. Once established, our 4th and 5th generation fighter units 
need relief from current tasking against low-end adversaries in order 
to train for emerging threats. We prioritized this initiative by 
creating a directorate on the Air Staff dedicated solely to this 
monumental effort. We took the first step. However, the complexity of 
linking all of the systems needed for tomorrow's fight and 
deconflicting training requires both manpower and finances.
    Your Air Force needs permanent relief from BCA, increased funding, 
flexible execution authority, and manpower to recover full-spectrum 
readiness. We will continue to do all we can to innovate, transform, 
and improve how we maximize our resources. We need your help in 
providing stability with the ability to modernize our capabilities, at 
the pace required to fight and win against any emerging threat.
    PEOPLE  Airmen are our greatest resource and our Air Force needs to 
increase end strength to meet national security requirements. Manpower 
shortfalls in key areas remain the number one issue limiting readiness 
and is our top priority as we rebuild squadrons across the Air Force. 
At the start of 2016, our end strength stood at 311,000 Active Duty 
airmen, down from more than 500,000 during Desert Storm--a 38 percent 
decrease. Though we appreciate your support to build the force up to 
about 321,000 in 2017, we will still be stretched to meet national 
security requirements.
    To improve readiness and attain manning levels matching our mission 
requirements, we are considering an increase to our Active Duty, Guard, 
and Reserve end strength and will work with the Secretary of Defense to 
develop the FY 2018 President's Budget to address personnel shortages. 
Our Total Force model (incorporating our Active Duty, Guard, Reserve, 
civilians, and our contracted capabilities) not only recognizes the 
value of an integrated team, but helps guarantee today's and tomorrow's 
capability. We will develop plans to address shortfalls in a number of 
key areas, including critical career fields such as aircraft 
maintenance, pilots, NC3, intelligence, cyber, and battlefield airmen.
    We face an aircrew shortage crisis across all disciplines. The Air 
Force has the world's finest aircrew who enable an incomparable duality 
of global mobility and combat lethality. In the aircraft maintenance 
field, we were short approximately 3,400 aircraft maintainers at the 
close of 2016. Because of this shortage, we cannot generate the sorties 
needed for our aircrews. As airlines continue hiring at unprecedented 
rates, they draw away our experienced pilots. Without a healthy pool of 
pilots, we risk the ability to provide airpower to the nation.
    Pilots are strategic national assets and the pilot crisis extends 
beyond the Air Force and military. It is a national problem which 
requires senior-level attention in Congress, the Commercial Industry, 
and the DOD. To address this national challenge, since 2014 the 'Air 
Force -Airline Collaboration', formally known as the National Pilot 
Sourcing Forum has increased efforts to effectively utilize and train 
an adequate number of pilots to meet our nation's pilot demand signal.
    However, pilot retention has declined for five straight years. 
Today the Air Force has a rated manpower shortfall of approximately 
1,550 pilots across the Total Force. This shortfall is most pronounced 
in our regular Air Force fighter community which is short more than 950 
pilots. We are grateful for your support to increase the pilot bonus, 
and we will continue to ensure our retention programs are appropriately 
sized and utilized. Your Air Force will utilize the new Fiscal Year 
2017 NDAA Aviation Bonus authority ($35,000 per year maximum) and 
implement a tiered-model using a directed business case model to 
identify areas of greatest need.
    Retaining our pilot force goes beyond financial incentives . . . it 
is about culture. Your Air Force is implementing many non-monetary 
efforts to reinvent the culture and improve the quality of life and 
quality of service for our airmen. We have reduced additional duties 
and superfluous training courses, as well as hired contractors in 
fighter squadrons to perform burdensome administrative tasks, enabling 
our pilots to focus on their primary duty: flying. We have also 
increased the transparency of the assignment process and increased 
flexibility to promote family stability. Your Air Force is exploring 
opportunities to reduce deployment burdens by enabling more Air Reserve 
Component volunteers for 179/365-day deployments. We must show our 
airmen that we are creating a culture that reminds them they serve in 
something bigger than themselves . . . defending America.
    In addition to retaining our talented personnel, the Air Force must 
also increase pilot production and absorption while reducing 
requirements. The increased end-strength provided in the Fiscal Year 
2017 NDAA will allow us to maximize the training pipeline and fill out 
under-manned units, which are vital to our recovery. Our fighter pilot 
production targets have increased 15 percent (to 335 Total Force 
pilots) per year while we surge the number of new aircraft maintainers 
by more than 1,500 per year to better man flying squadrons and 
reestablish sortie generation rates with a completion target of 3-5 
years. However, other options beyond manpower increases exist to season 
our young pilots while accelerating readiness recovery.
    The Air Force's plan to conduct an experimentation campaign this 
summer directed at the Air Force's light attack capabilities may 
provide opportunities to create a ``high/low'' mix for combatting low-
end threats in more permissive environments. During this 
experimentation campaign, we will gather information before working 
with Congress to determine what we can afford for the future. This 
approach could provide more cockpits to absorb and season a greater 
quantity of fighter pilots and provide 4th and 5th generation aircraft 
the required training time to prepare for high-end threats and the 
operational tempo relief to extend their service life.
                   force structure and modernization
    FIGHTERS  Five years ago during a period of severe fiscal 
constraints, the Air Force rebalanced our fighter force structure using 
analysis which showed the Air Force could decrease fighter force 
structure by approximately 100 aircraft if we were willing to accept 
higher risk. This resulted in the current fighter inventory of 
approximately 1,000 primary mission aircraft and slightly more than 
1,950 total aircraft. This inventory complies with Fiscal Year 2016 
NDAA language on the limitation on retirement of Air Force Fighter 
Aircraft; however, with today's sustained operational demand for 
rotational fighter presence, our current 55 combat-coded fighter 
squadrons do not allow for enough time at home station to train pilots 
and maintain aircraft to achieve the full spectrum readiness necessary 
to meet the requirements set forth in the Defense Planning Guidance.
    We need to regrow our current fighter force to a minimum of 60 
combat fighter squadrons and 2,100 fighter aircraft across our Active, 
Guard, and Reserve components. This
    balance will evolve as we procure more F-35 aircraft and develop 
Penetrating Counterair (PCA) from a 4th/5th generation mix to a 5th/6th 
generation mix.
    The Air Force's major modernization focus today is the F-35A, which 
is the centerpiece of our future fighter precision attack capability. 
Its missions will include Air Interdiction, Offensive and Defensive 
Counter Air, Close Air Support, Strategic Attack, Suppression of Enemy 
Air Defenses, Armed Reconnaissance and Combat Search and Rescue, as 
well as serving as a dual capable aircraft for the U.S. and partner 
nations. To fill capability and capacity shortfalls, the Air Force 
needs to increase F-35A procurement to a minimum of 60 aircraft per 
year as quickly as possible. This must be carefully balanced with the 
required follow-on modernization effort for the F-35A.
    The F-35's follow-on modernization effort centers on the Block 4 
upgrade, which is geared toward meeting the estimated threat in the 
2025 timeframe and beyond. We cannot emphasize enough how important it 
is that we fully fund Block 4 to prevent delaying required capabilities 
for American and Coalition warfighters, including integration of 
additional weapons and upgrades to the electronic warfare system, data 
link systems, and radar. Once Block 4 upgrade is complete and ready to 
be fielded we will examine acceleration of the F-35A program to the 
maximum affordable procurement rate to meet projected 5th Generation 
requirements.
    The F-22, currently the only U.S. fighter capable of operating in 
highly contested environments is also an integral piece of the Air 
Force's force structure modernization plan. Its stealth, super cruise, 
integrated avionics and sensors combine to deliver the Raptor's unique 
capability. We plan to retain the F-22 until the 2060 timeframe, 
meaning a sustained effort is required to counter advancing threats 
that specifically target its capabilities.
    As our adversary capabilities advance, PCA will play a significant 
role in targeting and engaging future threats and is critical as a node 
in the larger network, providing data from its sensors to enable 
employment using either stand-off or stand-in weapons. This capability 
will provide the survivability, lethality and maintainability to meet 
emerging worldwide threats across the spectrum of conflict and will be 
the cornerstone of the Air Force shift from 4th/5th generation to a 
5th/6th generation fleet.
    In addition to pursuing new capabilities and modernizing fifth 
generation fighters, the Air Force also seeks to extend the service 
life and modernize critical capabilities of key fourth generation 
aircraft. Doing so will help maintain Service capacity and readiness to 
meet the needs of today's counterterrorism fight while ramping up the 
F-35 production line and developing PCA.
    The legacy service life extension program (SLEP) will extend the F-
16 airframe structural service life from the current 8,000 hours to 
12,000+ hours, adding fifteen to twenty years of service for selected 
F-16s. To ensure the F-16's lethality and prominence in low-end 
conflicts, we are pursuing an active electronically scanned array 
(AESA) radar upgrade that offers advanced capabilities and improved 
reliability and maintainability. We are also upgrading the mission 
computer, display generator, electronic warfare components, and the 
ALQ-131 self-protection jamming pod, known as the Pod Upgrade Program 
(PUP) that enables advanced technology jamming techniques.
    Along with the F-16, the Air Force expects the F-15E to be an 
integral part through at least 2040 and we are pursuing a new 
electronic warfare self-protection suite, the Eagle Passive/Active 
Warning Survivability System (EPAWSS) for the Strike Eagle fleet.
    The Air Force will not be able to rely solely on our current 
programs and capabilities to ensure readiness to fight the most 
advanced threats in the future. To that end, we are aggressively 
pursuing a path toward strategic agility in our capability development. 
We have reinvigorated development planning (DP) at the enterprise level 
to build-in agility and formulate truly innovative strategic choices 
for capability development. Core Development Planning functions 
include: formulating and evaluating viable future concepts, defining 
operational trade space, identifying technology shortfalls and Science 
and Technology needs, and assisting the operations community in 
refining requirements.
    To oversee and direct capability development of the highest 
priority operational challenges and opportunities, the Air Force 
established the 3-star Capability Development Council (CDC), chaired by 
the Vice Chief of Staff of the Air Force, as well as stood up the 
Strategic Development Planning and Experimentation (SDPE) office to 
plan, manage, and execute warfighting experimentation campaigns. 
Experimentation provides the ability to rapidly explore a wide range of 
innovative materiel and non-materiel solution options. To further these 
efforts, the Air Force programmed resources starting in fiscal year 
2017 to conduct concept-driven experimentation campaigns, including 
funds for prototyping, live and virtual simulations; developing a cadre 
of expertise, along with the tools to conduct experimentation 
campaigns.
    The Light Attack Experimentation Campaign informs planning and 
strategic choices in this critical area. The Air Force is experimenting 
with potential off-the-shelf aircraft to determine industry's 
capability, capacity, and interest to provide cost-effective innovative 
solutions with low procurement, operating and sustainment costs. Since 
the deployment demand is not expected to decrease, the Air Force must 
meet capability demands in permissive environments while building and 
maintaining readiness to meet emerging threats in more contested 
environments.
    Aligning capability, capacity and cost with conflict is key to 
meeting Air Force commitments to combatant commanders and effectively 
using taxpayer resources. Assessing the viability of low operating 
cost, light attack platforms has the potential to reduce operating 
costs while still meeting combatant commander needs.
    The Air Force recently released an Invitation to Participate to 
industry for a live-fly experiment with off-the-shelf aircraft that may 
meet an Air Force need for a low-cost capability that is supportable 
and sustainable. Planned for later this year, this live-fly experiment 
will assess the capabilities of these off-the-shelf light attack 
aircraft, which will be flown by Air Force personnel in scenarios 
designed to highlight aspects of various combat missions, such as close 
air support, armed reconnaissance, combat search & rescue and strike 
control and reconnaissance. The experiment will also include the 
employment of weapons commonly used by other fighter/attack aircraft to 
demonstrate the capabilities of light attack aircraft for traditional 
counter-land missions. Results from this experimentation campaign will 
be used to inform future experimental companies, requirements and 
possibly investment decisions. The evaluation of off-the-shelf 
candidates is not yet a program and there is no plan for what happens 
after the experiment.
    MUNITIONS  There is an ever growing demand for the effects airpower 
brings to the joint force. Within our fiscal boundaries, we have sought 
to balance the requirement for current munitions with the need to 
advance capabilities in the same manner we have with our aircraft force 
structure. However, sustained combat operations, BCA limitations, and 
support for our coalition partners have negatively impacted these 
efforts. Absent sustained and increased funding, munition stockpiles 
will continue to decrease as well as negatively impact readiness and 
our ability to meet national security objectives in the future.
    Sustained combat operations and support for our coalition partners 
are reducing munitions inventories faster than our ability to procure. 
Historically, munitions funding has been reduced to pay other critical 
service bills. To resolve this issue, we need increased and sustained 
funding to send a more consistent demand signal to our industrial base. 
With the dispensation provided to us by the Congressional Defense 
Committees, we were able to ulitize the Overseas Contingency Operations 
funding to replenish the munitions with high combat expenditures to 
date. Additionally, Overseas Contingency Operations funding while 
important, is only a means of replenishing what is used in 
contingencies and generally results in replenishment 2-4 years after 
the munitions are expended.
    We are currently using legacy munitions on our 5th generation fleet 
which negates the full advantage these platforms can provide. 
Investments into programs such as the Small Advanced Capabilities 
Missile (SACM) and the Stand in Attack Weapon (SiAW) are crucial to 
realizing the full potential of our next generation of aircraft. The 
SACM is a smaller, affordable air to air weapon that is required to 
increase magazine depth and maximize utility of a PCA capability. SiAW 
is an air-to-surface weapon designed to hold at risk the surface 
elements that make up the A2AD environment and will be integrated on F-
35, B-21 and other future platforms like PCA. With your continued help 
the USAF must continue to invest in and develop advanced munition 
capabilities such as these to ensure future air superiority for the 
Joint Force.
    BOMBERS  As with the fighter force, the total bomber inventory has 
also been significantly reduced. To provide perspective, in 1991 we had 
290 aircraft available within the bomber fleet versus 156 B-1s, B-52s, 
and B-2s today. The current number is insufficient to meet Defense 
Planning Guidance and nuclear guidance while sustaining current 
operational demands and maintaining sufficient training and readiness 
capacity.
    A key modernization effort that will provide warfighters the 
capability to operate in tomorrow's high-end threat environment is the 
development of the B-21 Raider. The B-21 will provide the President 
with the ability to hold targets at risk around the globe while denying 
sanctuary to our adversaries. In addition to its conventional 
capabilities, the B-21 will support the nuclear triad providing an 
advanced and flexible deterrent capability with the ability to 
penetrate modern air defenses. Agile acquisition processes have been 
built into the B-21 development and procurement efforts, ensuring we 
deliver system capabilities for the best value, while integrating open 
architecture standards for ease of upgrade to future technology 
requirements.
    The Air Force remains committed to B-21 affordability, with the 
average procurement cost of $564 million in base year 2016 dollars. We 
require a fleet size that will ensure sustained dominance well into 
this century and intend to procure a minimum of 100 B-21s. Procuring at 
least 100 B-21s will also reduce lifecycle ownership costs. Further, we 
are continuing to study the right size of the total future bomber 
force. Deterrence and demonstrated combat capability remain vital 
instruments of power, especially as our enemies are committed to 
denying our attacks from the air. Only 12 percent of our current bomber 
fleet is survivable in such an environment. Therefore, the B-21 remains 
an absolute national defense priority and we are grateful for your 
continued support of this critical program going forward.
    Equally important to developing advanced capabilities is the Air 
Force's commitment to modernize the legacy bomber fleet. The 19 
remaining B-2 aircraft, currently the only low-observable, Anti-Access/
Area Denial asset capable of penetrating advanced enemy defensive 
systems, are approaching 30 years of service and require engine, 
avionic, communications and defensive systems upgrades to maintain 
viability in the face of advancing enemy capabilities.
    Similarly, the 62 remaining B-1s have been in service for nearly 35 
years and are receiving upgrades to their avionics and flight systems. 
These upgrades will ensure the B-1's viability into the mid-to-late 
2030s. Lastly, the B-52H is programmed to at least 2050, putting the 
remaining fleet of 76 at nearly 100 years of service. To sustain this 
venerable capability there are a number of modernization efforts 
currently in work: replacement radar, new engines, improved/integrated 
avionics, defensive and weapons management, and communication upgrades.
    In conjunction with the upgrades to the bomber fleet, the Air Force 
is looking to update the Air Launched Cruise Missile (ALCM) inventory 
with the Long Range Stand Off (LRSO) program.
    SPACE  We view our national security as inextricably dependent upon 
space-enabled capabilities. Meanwhile, potential adversaries are 
investing heavily in technologies designed to exploit this dependency 
in order to diminish the national security advantages which stem from 
space capabilities. We must expect that an adversary associated with 
any military conflict will likely seek to attack space systems, to 
include offensive action in and through space; perhaps even before 
kinetic activities take place on land, sea, or in air.
    Additional investment is required to build robust and resilient 
architectures while implementing the Space Enterprise Vision (SEV), 
which looks to invest smartly in the highest payoff capabilities that 
enhance space domain mission assurance. The Air Force will continue 
development of GPS III satellites that will provide enhanced, higher-
power, and jam-resistant position, navigation, and timing for joint 
warfighters. This GPS warfighting advantage will be reliant upon a Next 
Generation Operational Control System (OCX) to provide enhanced 
cybersecurity, precision, reliability and integrity.
    Similarly, the Air Force provides robust worldwide satellite 
communications (SATCOM) to joint warfighters and must continue efforts 
to enhance current protected SATCOM systems such as the Advanced 
Extremely High Frequency (AEHF) satellites while addressing current and 
future threats by providing resiliency and advanced defensive 
capabilities in architectures like the addition of Protected Anti-Jam 
Tactical SATCOM. Our future Space Based Infrared System (SBIRS) 
satellites must also modernize into systems capable of responding 
quickly to threats while maintaining our edge in strategic missile 
warning and launch detection to our fielded forces and the homeland.
    Investment in space-based assets is crucial to our ability to 
maintain space-enabled capabilities, but investment in space assets 
alone is insufficient. The nation must also invest in advanced Space 
Situational Awareness (SSA) and C2 capabilities, which will allow for 
rapid understanding of threats and decision-making to defend assets. As 
an example, the Air Force is investing in the Space Fence program to 
provide surveillance of small objects and satellites, allowing early 
detection of threats. Investment in additional ground-based sensors 
like the Space Surveillance Telescope and radars, as well as space-
based sensors, will provide the necessary indications and warning of 
adversary actions on-orbit. Bottom line, we must gain the ability to 
acquire much more precise and robust data regarding activities on-
orbit, which also drives a C2 requirement to synthesize data and make 
decisions.
    The Air Force has made an initial investment in building the Joint 
Interagency Combined Space Operations Center (JICSpOC) which is 
designed to ensure the national security space enterprise meets and 
outpaces advances in space threats. To act on information provided by 
SSA architecture, JICSpOC will provide resilient, responsive, and 
interoperable C2 capabilities to provide the ability to respond once a 
threat is known.
    Additionally, the Air Force is investing in C2 tools such as Joint 
Space Operations Center (JSpOC) Mission System (JMS), which will 
provide modernized hardware and software solutions to better synthesize 
the increased volume of SSA data. Improved SSA data coupled with a 
mission-ready JICSpOC ensures future implementation of SEV principles 
to their greatest degree of survivability in a war that extends into 
space, ultimately supporting joint warfighters across land, air and sea 
to maintain the operational advantage.
    Historically, the Air Force has funded space programs in order to 
simply maintain an operational advantage, with no concern for 
resiliency and survivability because the threat of combat extending 
into space was not mature. The threat environment is now changed. 
Therefore, considerable increase in investment of SEV-enabling 
architectures, SSA and Space C2 are necessary if our joint warfighters 
are expected to operate with the traditional advantages our space 
systems provide.
    CYBER  The Air Force continues to build its contribution to joint 
cyber mission forces by developing the next generation cyber warrior, 
adding manpower for offensive and defensive cyber operations, and 
equipping them with the right capabilities to ensure effective 
operations. The Air Force plans to shift from a 20th century network-
centric infrastructure to a 21st century data-centric infrastructure. 
This transition will enable power projection through information 
integration and reallocate critical Information Technology manpower 
towards emerging cyber warfighting missions.
    The ability to effectively operate in cyberspace is vital to 
deliver airpower and conduct the Air Force's core missions. We must 
field and sustain cyber resilient capabilities that provide mission 
assurance against savvy and constantly evolving adversaries. In 
response to Congressional direction and our internal vision of the 
need, the Air Force has initiated a multi-pronged approach to provide 
assurance, resilience, affordability, and empowerment to enable the Air 
Force's assured cyber advantage to ensure our ability to fly, flight, 
and win in air, space, and cyberspace.
    Signed in November 2015, our Air Force Cyber Campaign Plan (CCP) 
has two goals: 1) to ``bake in'' cyber resiliency in new weapon systems 
and 2) mitigate critical vulnerabilities in fielded weapon systems. It 
consists of seven Lines Of Action (LOAs) which are designed to be the 
``engine'' behind increasing the cyber resiliency of all Air Force new 
and legacy weapon systems. The CCP addresses the first goal by 
integrating cyber resiliency into the system engineering processes to 
`bake in' resiliency before systems are fielded. It also 
institutionalizes adaptable subsystem architectures for enterprise 
technology baselines and business processes, when designing and 
building new weapon systems. Concurrently, the plan addresses the 
second goal by pursuing top down and bottom up methodologies to finding 
and mitigating mission `critical' cyber vulnerabilities. Other LOAs 
address other important CCP support activities, including cyber 
workforce development, creation of a cross-cutting common security 
environment, and the development of counter cyber intelligence 
capability. We are committed to building out the Air Force's 
contributions to USCYBERCOM's Cyber Mission Forces (CMF) to support the 
Nation and the Department of Defense's Joint Information Environment 
(JIE) framework.
    MULTI-DOMAIN COMMAND AND CONTROL (MDC2)  An MDC2 capability 
generates effects that present the adversary with multiple dilemmas at 
an operational tempo that cannot be matched. The Air Force is focused 
on creating feasible investment options throughout its BMC2 portfolio 
that drive towards the attainment of an advanced MDC2 capability for 
the joint force. For example, multiple AWACS modernization activities 
are underway with the most notable being the upgrade to the Block 40/45 
mission system which is the foundation for all future AWACS capability 
improvements. Additionally, the Air Force is in the midst of 
accomplishing activities for a follow-on airborne battle management 
command and control capability, the Airborne Battle Management and 
Surveillance (ABMS), which is currently provided by the E-3/AWACS 
fleet. The ABMS system is envisioned to be an evolutionary leap in 
capability intended to achieve IOC prior to the end of AWACS projected 
service life in 2035.
    The E-8C Joint Surveillance Target Attack Radar System (JSTARS) 
executes Battle Management and Surveillance of air-to-ground 
operations, an integral piece to today's fight. Our JSTARS 
recapitalization strategy integrates mature sensor, communications and 
battle management technologies on a business class aircraft; the 
results should reduce life cycle cost while increasing operational 
availability and mission system capability. We seek to balance mission 
capability, risk and cost, and will look for opportunities to 
accelerate the recapitalization as the program progresses.
                                summary
    The demand for air, space, and cyber power is growing and our Chief 
is committed to ensuring that America's airmen are resourced and 
trained to fight alongside the Army, Navy, Marines and Coast Guard to 
meet national security obligations. The Air Force seeks to balance risk 
across capacity, capability, and readiness to maintain an advantage, 
however persistently unstable budgets and fiscal constraints have 
driven us to postpone several key modernization efforts. These delays 
created a rapid approaching modernization bow wave that includes 
programs critical to meet our capacity and capability requirements 
across all mission areas.
    The delays have also opened an opportunity to our competitors to 
close gaps and negate our traditional advantages. Although we are 
grateful for the recent fiscal relief, we still face uncertainty. 
Sustainable funding across multiple fiscal year defense plans is 
critical to ensure we can meet today's demand for capability and 
capacity without sacrificing modernization for tomorrow's high-end 
fight against a full array of potential adversaries.
    As critical members of the joint team, the USAF operates in a vast 
array of domains and prevails in every level of conflict. However, we 
must remain focused on delivering Global Vigilance, Global Reach and 
Global Power, through our core missions of Air Superiority, Space 
Superiority, Global Strike, Rapid Global Mobility, ISR, and C2 to 
continue to provide our nation with security it enjoys. We look forward 
to working closely with the committee to ensure the ability to deliver 
combat air power for America when and where we are needed.

    Senator Cotton. General Bunch?
    Lieutenant General Bunch. Sir, for the three of us, that 
one statement. We look forward to answering your questions. 
Thank you, Senator Cotton, Senator King, for the opportunity to 
be here today.
    Senator Cotton. Thank you. I appreciate it.
    So, as we know, the Department of Defense, like all 
departments, is operating under a continuing resolution until 
April 28th. The situation is far from ideal. There is a 
potential, though, for a full-year continuing resolution for 
all of fiscal year 2017. That would be far more damaging to our 
military services because of ongoing budget disagreements 
within the Congress.
    Can I ask each of our witnesses to give examples from their 
respective areas of the damaging effects a full-year budget 
under a continuing resolution might have, General Nowland, from 
an operations and readiness perspective; General Bunch, for 
program acquisition; and General Harris, for long-term strategy 
effects?
    General Nowland?
    Lieutenant General Nowland. Mr. Chairman, thank you for the 
opportunity. A continuing resolution would devastate the 
readiness that we're trying to regenerate. Basically, in air, 
space, and cyber, it would have operational effects as we are 
working to regain our readiness. We would prioritize to make 
sure that we continue to do the deployed mission, but those 
other units who are not either deployed or preparing to deploy, 
they would suffer readiness realities because they would 
basically have to stop flying in the air domain. The other 
missions in space and cyber would continue, but training 
opportunities would be lost.
    Lieutenant General Bunch. Mr. Chairman, in the acquisition 
community, a year-long continuing resolution would be 
devastating for the efforts that we're trying to do to 
modernize our Air Force. In the critical area of nuclear 
programs, we would require as many as 17 anomalies if we could 
afford to do that within our existing programs to keep these 
critical upgrades to the B-2, the B-52, Minuteman, and our NC3 
[Nuclear Command Control Communications] capabilities on track.
    It would also impact 60 Air Force acquisition new starts 
that we had planned across the spectrum, and we would end up 
needing another anomaly to cover the B-21 program, which is off 
to a good start at this point.
    It would impact us in missile and ammunition procurement. 
It would impact us in our modernizations to aircraft and our 
procurement to include Compass Call. It would impact us in 
missile procurement. It would impact us in space procurement 
with our beyond-line-of-sight terminals and our evolved 
expendable launch vehicle programs, intended to assure that we 
have mission assurance in space. And it will result in a stop 
work issued against the GPS OCX program, just to name a few.
    Senator Cotton. You mentioned the B-21. What about two 
other of your largest procurement programs, the F-35 and the 
KC-46A?
    Lieutenant General Bunch. So the F-35 right now, I do not 
have an anomaly that we're listing as one we would need at this 
stage, sir. On the KC-46, we provided an anomaly, and we were 
able to go award lot three already under the continuing 
resolution to keep the production program on track at the price 
bands that we had negotiated with Boeing when we awarded the 
contract.
    Senator Cotton. You mentioned a lot of anomalies. How would 
you end up prioritizing and balancing those?
    Lieutenant General Bunch. Sir, that's why I said if we 
could afford to do that. What we would have to do is work with 
the remainder of the team and look at where those 
modernizations are for the longer-term plan that Joe Harris 
talks about and determine which areas we could take risks in or 
which areas we could not take risks in.
    Senator Cotton. General Harris?
    Lieutenant General Harris. Thank you, Chairman. That's a 
great question. We appreciate the opportunity to address it.
    A continuing resolution, to be honest, would be something 
that our adversaries haven't been able to do to your Air Force, 
and that's going to be ground us, which, as you said, we're 
trying to avoid. With the current hole that we would be in, 
it's about $600 million in our flying hour program alone. 
That's 120,000 flight hours, and your Air Force goes through 
that in a month-and-a-half. So it would be the last month-and-
a-half the entire Air Force would have to stop flying, but 
because we can't do that, it would start affecting units almost 
immediately, forcing their grounding, and that turns around our 
readiness program.
    The airmen that we talked about are the most important to 
us and our chief, number-one effort. We'd have to defer all 
those bonus payments that we were setting up to cover to retain 
them, which means we're going to be training more and creating 
a bigger hole in our future programs.
    Senator King. I want to push down a little bit on the 
effects of a continuing resolution. I agree with you that it's 
no way to govern, and we shouldn't be even thinking about a 
further continuing resolution for the rest of the year.
    However, basically it means that you have the same amount 
of money that you had last year. Why is it that it creates such 
a problem? For example, General Harris, you just said you'd 
have to ground the squadrons for two months at the end of the 
year. You didn't have to ground them last year. I'm unclear as 
to why it would have that effect.
    Lieutenant General Harris. Sir, that's a great question. We 
are actually flying more this year, trying to improve our 
readiness status. So we had been at that since 1 October based 
on the signals and messaging we've had from both Congress and 
OSD [Office of the Secretary of Defense]. So we're flying at a 
rate greater than last year, trying to reverse our readiness 
trends and have more airmen prepared to fight the high-end 
conflict, not just today's fight. So we're ahead of last year's 
curve significantly, trying to get these airmen up to speed.
    Senator King. So basically what you're saying is if you 
don't have additional funding over and above what you had for 
last year, you'd run out of money and that's why you'd have to 
ground those squadrons.
    Lieutenant General Harris. That's exactly right, sir.
    Senator King. General Bunch, the same question. Why such a 
drastic effect if indeed you're having the same amount? This is 
what my taxpayers in Maine would say: They're getting the money 
that they got last year; why would there be such a drastic 
effect on various programs?
    Lieutenant General Bunch. Yes, sir. So, some of these 
programs--for example, OCX [Operational Control System]--if you 
recall, we had to plus up the budget to get the program back on 
track. That's a program where we're going to be spending more 
money this year than we were before, so that's an example of 
that.
    On our weapons procurement, one of the things that we've 
seen is the desire and the continued utilization of precision 
weapons to minimize collateral damage and dependence on those, 
and that demand signal has gone up, and we have tried to 
respond to that by trying to increase the production of joint 
direct attack munitions, small diameter bomb, Hellfire, and 
advanced precision kill weapons system. All of those were on a 
ramp to plus back up so that we can rebuild our stockpiles and 
match what we're utilizing in the fight today.
    Senator King. Isn't that what OCO [overseas contingency 
operations] was all about?
    Lieutenant General Bunch. So the problem--it is, sir. But 
the problem with OCO traditionally, last year you allowed us to 
take some OCO dollars and predict what our utilization would be 
so that we could procure weapons. That's not traditionally how 
we've been able to do that. So that helped us. The problem with 
OCO is it's years before I can get to the point that I fill 
back up those stockpiles.
    What we're trying to do is send a steady signal with stable 
funding and a demand signal to the industrial base so that they 
keep the production levels up at what we need, not only for us 
but also for our partners, and also for foreign military sales 
and for other activities as we fight around the world.
    Senator King. So part of the problem with a continuing 
resolution is predictability and maintaining your acquisitions 
and maintaining the industrial base.
    Lieutenant General Bunch. Sir, the way that we describe, I 
describe, particularly in the weapons area, is for many years 
we've been full up on the throttle and full back on the 
throttle, and what we've got to do is set a stable throttle and 
continue to keep stable funding to send that signal to industry 
so that industry is willing to make the investments so that 
they can support what we need to procure.
    Senator King. I hesitate to speculate how a jet airplane 
would fly if Congress was in the driver's seat, the pilot's 
seat.
    In your prepared testimony, one of the most, I thought, 
troubling pieces--and this is returning to the longer-term 
issue--is manpower shortfalls, particularly pilots and 
maintainers. This appears to be a serious, ongoing problem, and 
particularly in the next few years I understand there are a 
great number of retirements in the commercial side, and you're 
seeing a loss of people.
    How do we cope with the shortfall in pilots, and also 
maintainers?
    Lieutenant General Bunch. Senator King, that's a fantastic 
question. Our Air Force and our chief has directed that we take 
this on head-on. The answer is we're going to need a little bit 
of help from everybody, work with industry, work with Congress, 
but what we can control we're taking on right now. The first 
thing we need to do, sir, is we're working on our requirements.
    So we have a rated staff allocation plan, which is as you 
look at your United States Air Force, not every pilot is 
flying. Some pilots are doing staff duty, some pilots are doing 
training duties----
    Senator King. Wouldn't pilots rather be flying?
    Lieutenant General Bunch. Yes, sir, they would, but not for 
their entire career because we need pilots in staff positions 
so that we can make good decisions about future acquisition, 
about future con ops, about command and control. So we have a 
myriad of duties.
    Our young pilots, your first 11 years of your career 
essentially, sir, is built around building technical 
capability. So that's really where the vast majority of our 
pilots, our young pilots, are. As you become older, we need 
less older pilots, but we need to use them to train our Air 
Force and to operate our Air Force. But we basically have cut 
our staff, so we're looking at requirements.
    The second thing we do is we're increasing production. We 
are pushing up our production to the maximum capacity that we 
can, and in particular with fighter pilots we're going to try 
to produce 335 total force fighter pilots per year, and we're 
going to produce those continually for the next five to seven 
years. We need to just produce those pilots to fill in gaps.
    As we do that, we will also create mobility pilots, but we 
also have a responsibility to build coalition and international 
pilots. So we're going to maximize our production while 
balancing our training requirements.
    Senator King. My time has expired, but we're going to get 
back to this. I want to follow up on how we're going to do the 
retention. I think that's very important. And also recruit and 
retain people who are maintaining, because you can have pilots, 
but if the planes aren't ready, that's a problem too.
    Mr. Chairman, thank you.
    Senator Cotton. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    Gentlemen, thank you for being here and for your service.
    The question I want to focus a little bit on, the 
continuing resolution and the effect that it may have. But 
before I do, I've got a couple of baseline questions.
    How many squadrons do we currently have that are at their 
highest level of certification or readiness?
    Lieutenant General Harris. Sir, it's not many. It's less 
than half that are in what we would call Level 1 or Level 2 
readiness.
    Senator Tillis. How many are at Level 1?
    Lieutenant General Harris. Three, maybe four.
    Senator Tillis. I think it's four. And that's a total of 
how many squadrons?
    Lieutenant General Harris. Fifty-five.
    Senator Tillis. And the number of pilots that you all would 
like to have versus how many you need, how far behind are we?
    Lieutenant General Harris. Sir, we are probably 700 to 
1,000 in the Air Force alone; and, as we're talking about, 
we're increasing our production now. The bonus increase that 
Congress has given us will help us retain more of those mid-
level pilots, but we don't think it's enough. Although we'll 
never keep up with airline salaries, currently between us and 
the Navy are producing about 2,200 pilots a year. This past 
year that we're finishing now, airlines are hiring 4,000. We're 
only producing 2,200.
    Lieutenant General Nowland. Sir, we're 1,555 total force 
pilots behind today.
    Senator Tillis. Okay, it's even worse than I thought.
    Now, with that sort of as a baseline, I don't think you all 
would put that as something you're really happy with and that's 
in the best interests of the national security, or really, for 
that matter, the morale of the Air Force. Let's say that some 
people around here are going to declare victory and high-five 
if we get a continuing resolution passed for 12 months that 
has, let's say, even the numbers that we talked about here in 
terms of increased spending. How do those numbers change at all 
over the next 24 months? Do they get better, worse, or stay the 
same?
    Lieutenant General Harris. Sir, they'll get worse. First 
off, we won't be able to close out 2017 at our end strength 
that we're looking for of 321,000. We'll fall short of that 
number, and that will just compound as we go forward. The chief 
and secretary are trying to grow the number of airmen we need--
maintainers, ops, flyers, those that are working across the 
spectrum. Right now, we just don't have enough doing the 
mission.
    Senator Tillis. If passing the CR [continuing resolution] 
was what many people think here would be a success, I don't 
think anybody in uniform would think it was a success, 
particularly those who are worried about our readiness and our 
capability and our ability to project power.
    Lieutenant Bunch? Or General Bunch. I'm sorry.
    Lieutenant General Bunch. I was one once, sir. I was a 
lieutenant.
    Senator Tillis. A little younger.
    Lieutenant General Bunch. A day or two ago, sir, and still 
loving it. It would be devastating for us----
    Senator Tillis. Devastating.
    General Bunch.--if we take a continuing resolution 
throughout the year. We'll be at $2.8 billion short. We will 
have to find a way to fund within five months.
    Senator Tillis. My next question relates to the sad reality 
that that may be the best that we can expect. I hope we can get 
more, but that may be the best we can expect.
    What advice would you give to us in terms of other things 
we could do that could remove some of the hurdles or allow you 
to be more productive with the money that you have if we're 
constrained by money? I don't want to be. I think that we need 
to place a priority on the challenges that you have and all the 
other branches have. But what other things should we be looking 
at that you haven't heard any movement on that could 
potentially increase your flexibility, reduce burdens, reduce 
inefficiencies to at least help bend the curve on what is 
otherwise just an undeniable downward trend?
    Lieutenant General Harris. Senator, that's not an easy task 
to come up with. We do have some new starts that we are trying 
to get through authorizing those with the money would help, 
allowing us to move money, if necessary, left and right to 
cover some of these shortfalls. I think we're already doing 
that, and we have good support from Congress. But not having a 
stable budget from year to year really impacts my ability to 
work on my 5-, 10-, and 20-year plans.
    Senator Tillis. No doubt about it. I mean, we can sit here, 
and we beat you all until you bleed, we beat you for bleeding, 
for cost overruns on certain projects, but we create the 
structural inefficiencies that cause that to happen. You can't 
make a long-term supply chain optimization outcome happen 
unless you have a long-term spending horizon to plan it on.
    General Bunch, you were going to say something?
    Lieutenant General Bunch. Yes. I would just say, sir, that 
Congress has been very helpful with us when we've come in on 
critical acquisition programs, to give us the anomalies, and we 
appreciate that support. But if we go for the year long, and I 
talked about the number of nuclear anomalies we would need and 
the number of new starts, all that is out of balance with what 
limited amount of money we've got, and we've got to make 
trades, and we have to work on all of these together, and that 
would be very challenging to do.
    Senator Tillis. In my remaining time I don't expect an 
answer, but we would like to hear back from you specific things 
so that we can ease the burden. If we're going to get to a 
point to where the CR is all we can get, please give us 
feedback on things that we can go nail down that at least make 
you managing in this fiscally tight time more efficient. It 
shouldn't be the solution, but at least it provides some relief 
that we're not really talking enough about now.
    Thank you, Mr. Chair.
    Senator Cotton. General Nowland, you said you have a 
shortfall of 1,555 total force pilots today?
    Lieutenant General Nowland. Yes, Mr. Chairman.
    Senator Cotton. What's your shortfall of fighter pilots 
today?
    Lieutenant General Nowland. Sir, today, as of today, we're 
950 fighter pilots short across the total force.
    Senator Cotton. Thank you.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    And gentlemen, thank you for testifying today and your 
service, appreciate it very much.
    I wanted to talk about another shortfall that we were 
trying to get some more focus on. In NDAA last year, I 
sponsored a provision that asked for a report on the F-35 
maintainer shortage, and I think that was due a couple of weeks 
ago. I know you're busy, so maybe we can see that relatively 
soon, or maybe it's already completed.
    But the point of the amendment was actually to be helpful, 
to try to get your ideas on how we actually close that gap. My 
one question--that language was based on the end strength of 
321,000. I think General Goldfein talked about end strength of 
350,000. What does that do to the maintainer shortage, and will 
you be explaining that kind of increase on end strength and 
what we need to do to address the maintainer shortage in the 
report?
    Lieutenant General Harris. Senator Sullivan, I'll start 
with that. Thank you. Sorry if we're late on the report. We'll 
work on that.
    Senator Sullivan. We know you've got a lot going on. And 
like I said, that was not a smack-you-down provision. That's a 
provision trying to help.
    Lieutenant General Harris. Understand.
    Senator Sullivan. Because it's an important issue.
    Lieutenant General Harris. What we're looking at doing, 
when the chief talks about closing out this year at 321,000, 
that includes growth in our maintainers. We are over-assessing 
from our current need of what we need of new recruits, because 
it takes us so long to train. We recognize that we've got to 
bring them in somewhere. So we're bringing in more than 1,000 
now than we had planned in the long-range plans and picking 
that up. So we will get healthy over time, but it will become 
an experience issue for a while. We won't have too many 3 
level, and 5 and 7 level.
    As we grow to 350,000, that will help the chief right-size 
all of our squadrons. Right now, it's about 80 percent manned 
across any squadron. We're trying to work on the ops and 
maintenance first to get at the combat capability, but we 
certainly need the support so that we have the quality of life 
that takes care of all the airmen that are flying to make sure 
we can retain them when they're at mid-level career and they 
get those other choices that are out there.
    Senator Sullivan. And more broadly speaking, how are we 
looking on the F-35 production, the cost, the deployment? 
Obviously, the President was talking about this for some time, 
and I think General Mattis or a senior Air Force official took 
that over. Are we seeing cost reductions and the deployment 
schedules on schedule right now?
    Lieutenant General Bunch. Sir, let me start with that, and 
then I'll let these two gentlemen jump in.
    We are seeing General Bogdan driving cost savings into the 
program through his efforts with Lockheed Martin. We are seeing 
it come down, the price curve, the way that we want it to. It's 
at or better than what General Bogdan had been trying to drive 
to, to show us what we were doing.
    So one of the things we're asking for is please keep 
driving that cost down and----
    Senator Sullivan. And I think it's helpful to have the 
President of the United States raising that and pushing on 
that, too.
    Lieutenant General Bunch. Sir, we love anybody that's 
putting pressure on us to try to save money. We're all good 
with that.
    Senator Sullivan. That's your ultimate leverage.
    Lieutenant General Bunch. Yes, sir. So we are seeing that. 
The message we have given out is we need to see those costs 
continue to come down. We want to see the sustainment costs 
continue to come down, and we want to continue to----
    Senator Sullivan. Is that process impacting the schedule of 
deployments, or no? I mean, it's a different place.
    Lieutenant General Bunch. So right now we haven't deployed. 
We have done Red Flag, and I'll let these gentlemen talk to 
that. But right now we're staying on track with the production 
the way we want it, the fielding the way we want it and 
intended, and the schedule is moving forward with the 
completion of the 3-F testing. So we're moving in that 
direction, and I'll pass it over to General Nowland and General 
Harris to address the Red Flag and how the jet is performing.
    Senator Sullivan. So there's no right movement? Aren't the 
Marines getting a new IwoKuni and Bravos?
    Lieutenant General Nowland. Senator Sullivan, the Marines 
have moved them to IwoKuni. Our first operational squadron 
initial operational capability is at Hill Air Force Base. They 
recently deployed the Red Flag and had a very successful Red 
Flag. We are next going to take them and they're going to go to 
Europe on a theater security package and work through initial 
operational capability, working towards full operational 
capability as we work to develop the capability of the system, 
the network, how do we bring it all together and how do we 
deploy with the two increased combat capability.
    Senator Sullivan. Okay.
    Lieutenant General Harris. And, sir, the pilots that are 
flying this airplane, the Red Flag, love it. They step down out 
of the cockpit and they tell stories of the kill ratios that 
are phenomenal. Those that have flown Red Flag in now fifth gen 
and fourth gen wonder why they ever did it in a fourth gen 
airplane.
    Lieutenant General Bunch. Sir, what I've told people is we 
look at the F-35 program and we had some developmental things 
that we worked through, and we had challenges that General 
Bogdan and his team have worked through with Lockheed Martin 
and with everybody. Probably we have semi-annual meetings with 
all the international partners, and it was about three ago that 
the conversation wasn't about the development; the conversation 
was predominantly focused on when we're going to start 
deploying and how we're going to support down range.
    To me, that was a shift in the program that we are moving 
forward. The platform has crossed a hurdle and we're really 
getting to where we're looking to employ the asset.
    Senator Sullivan. Good.
    Mr. Chairman, I have a few more questions, but I'll defer 
to whatever your role is here.
    Senator Cotton. You can ask one.
    Senator Sullivan. It will be a multi-part one question.
    [Laughter.]
    Senator Cotton. Well played.
    Senator Sullivan. Let me ask you, you talk about the fifth 
gen and the Red Flag. One of the things I like to do is take 
military members who aren't in the Air Force, other senior 
leaders, and try to get some of my colleagues up to Eielson to 
see the Red Flag Alaska exercises and J-Park. And every time I 
go there, which is frequently, the superlatives that are talked 
about with regard to the J-Park training--which I think the 
airspace is about the size of Florida, so a little bit bigger 
than what we've got down in the lower 48, actually a lot 
bigger, and we're expanding it right now, as you know--is that 
one of the issues that keeps coming out is that you talked 
about readiness at the outset of your testimony and the 
importance of ranges.
    My understanding is that when you're talking about fifth 
gen air-to-air training, because the standoff ranges are 
increasingly much further with the fifth gen aircraft, that the 
ranges need to be increasingly large, or the airspace needs to 
be bigger. We have that at J-Park, which I think I'd like your 
opinion on whether, as General Welch said prior to his leaving, 
that that was the best range on the Planet Earth.
    But if you agree with that, what are the suggestions to 
increase readiness? Although it is a remarkable place for air-
to-air combat, I'd ask the question that the last Red Flag 
evolution they did they had close to 90 aircraft up night 
fighting and getting refueled, and it was remarkable--not the 
notional aircraft, the real aircraft.
    What are your suggestions that we need to do to improve J-
Park, and do you agree with oncoming fifth gen, that that is 
not only the crown jewel of air-to-air training in the U.S. 
military but it's going to be increasingly important as we move 
to F-35s and F-22s?
    And what do we do about the aggressor squadron? We had a 
great aggressor squadron in Alaska. The F-16s are very good. 
But at the fifth gen level, are we going to need to bring in F-
22s to be aggressors at a certain point?
    So that's my multi-part question. And I'll also ask about 
where are we on KC-46 spacing. There was NDAA language last 
year that laid out particular principles that the Congress 
wanted you to look at, and I just would like an update on that.
    That's one question, by the way.
    [Laughter.]
    Lieutenant General Nowland. Sir, I think you might get 
multiple answers.
    Senator Sullivan. Well, if the Chairman would allow it, I 
think that would be great.
    Lieutenant General Nowland. Senator Sullivan, as the 
director of operations, I can tell you J-Park is critical 
towards the future. Airspace and the range size that you talk 
about is absolutely--you're spot on, we need greater distances. 
But our chief has just directed a new initiative that's called 
Operational Training Infrastructure. We used to talk about 
live, virtual, constructive, but what we have determined, it's 
much bigger than just live, virtual, constructive. It's the 
whole system that goes into it.
    So part of the F-35 and F-22 fifth generation platforms are 
so smart that threat replication becomes very, very important, 
and you can't do it necessarily. You have to have some very 
high-fidelity simulation. So in A-3, director of operations, we 
are standing up a new division with a general officer that will 
be looking at how----
    Senator Sullivan. You put your pilots here and the trainers 
if they get a kill?
    [Laughter.]
    Lieutenant General Nowland. Every day we come to work 
thinking about do we do training better and how do we maximize 
our investments in training to include our Nellis ranges, to 
include J-Park, our training infrastructure, how do we man our 
aggressor squadrons, how do we train in our aggressor 
squadrons, what is the future of our adversary air squadrons, 
how do we get adversary air while not reducing readiness of 
blue forces.
    So your question is spot on. We are thinking every day 
about it because we know that fifth generation training is 
different than training of fourth generation.
    Senator Sullivan. You can integrate the fifth gen physical 
air-to-air with some of the notional. Isn't that correct?
    Lieutenant General Harris. Sir, we're working on that. 
That's part of our upgrade that we're looking for follow-on. 
Right now we're concentrating on combat capability for the F-
35, but we are working through several programs to bring that 
training in because, as you're aware, the J-Park, I've been 
lost in it as a former Blue Fox pilot back in the 1990s. It is 
a massive air space, yet these threats are partially reliant on 
threat density and being able to put multiple threats 
overlapping on top of each other. That's what we meant to kick 
the door in with our fifth gen aircraft, and we continue to 
work on that.
    That's not easy to do. J-Park is a jewel. It's not a 
backyard range that we have, but where we base our F-35s with 
two squadrons at Eielson, in addition to what we've got at 
Elmendorf with the F-22s, we need to continue to work on that, 
but we have to balance it. Are we buying more threats to train 
against versus combat capability in the aircraft that we're 
trying to do? That's always a balance that we work through on a 
daily basis.
    Senator Sullivan. Thank you.
    Lieutenant General Bunch. I love what they said. We're 
trying to do this holistically to make sure we're on the right 
path to inquire what we need to be able to support the live, 
virtual, constructive and what we're trying to do for the 
future. There's not only a range aspect of this, but there's 
also a security aspect of this as to what you can do virtually 
and what you can really do in the open air that we have to 
balance as well, sir. And I, unfortunately, do not have the KC-
46 basing thing with me, so I'll have to take that one for the 
record, sir. But I'll get you an answer back.
    Senator Sullivan. Okay. Great. Thank you.
    Mr. Chairman, thank you.
    Senator Cotton. Thank you.
    General Nowland, I want to return to this question about 
fighter pilot shortfalls. I'm not trying to sharp-shoot the 
number. I'm just trying to get a handle on them. Whatever they 
are, I think the upshot of those numbers is not good.
    Last year your predecessor, General Raymond, testified the 
Air Force was short 511 fighter pilots. That was expected to 
grow to 834 by 2022, in part because of the higher than 
expected hiring by private airlines last year, though you 
finished 2016 short over 700 pilots. I understand that 
Congresswoman Wilson in her questions for the record submitted 
for tomorrow's hearing has said they will be short 800 fighter 
pilots, but you say it's 950 fighter pilots short today?
    Lieutenant General Nowland. My numbers are total force. So 
it depends on how you look at the numbers, but we'll make sure 
we square with----
    Senator Cotton. And that's total force fighter pilots.
    Lieutenant General Harris. Nine-hundred-fifty total force 
fighter pilots.
    Lieutenant General Nowland. Total force fighter pilots.
    Lieutenant General Harris. Active, Guard, and Reserve.
    Senator Cotton. So might the discrepancy be counting Guard 
and Reserve, along with Active?
    Lieutenant General Nowland. Quite possibly, sir, because 
our 55 fighter squadrons include our Guard and Reserve. They 
are not in addition to that. And as we look at our 
requirements, we stack nearly 50 squadrons on top of each other 
to get through the defense planning guidance that we have now 
for some of our larger conflicts, and that's when we need 55 
healthy and ready squadrons, then look at growth to make sure 
that we can meet our needs.
    Senator Cotton. Whatever the number is, and I'm pleased to 
get it to us broken down along those dimensions, would you 
agree with my first statement that the upshot number is not 
good for the health of the Air Force and for the security of 
our nation?
    Lieutenant General Nowland. Mr. Chairman, absolutely. We 
can show you that the number has gotten worse over time and is 
increasing. Now, we are very hopeful, under retention, our 
third line, that the extra money that Congress allocated to us 
and the plan that we're coming back with, with a pilot bonus, 
with a tiered system, a business model system that allows us to 
give multiple options, will be part of the solution. But it's 
not money alone that's going to keep pilots in. It's also 
partially got to do with culture of the squadrons and getting 
pilots back to their primary duty.
    One of the primary irritants for pilots is additional 
duties, and our chief has taken actions to eliminate additional 
duties. We put five additional personnel into 24 fighter 
squadrons to help with the additional duties as we look at----
    Senator Cotton. Could you give the committee some examples 
of additional duties?
    Lieutenant General Nowland. Yes, sir. For example, we put 
people in that will help them do the scheduling duty that 
requires you to do that every day; help with reporting, 
reporting functions, whether that be OPRs, ZPRs, administrative 
type of work that needs to be done in a squadron. The things 
that take a squadron, a fighter pilot away from flying, being 
an officer--remember, we're all officers first, so professional 
officership comes first. But then replacing those duties that 
detract him from not preparing for his next sortie. So we're 
looking at areas such as that.
    Senator Cotton. Okay. The committee last year increased the 
cap for bonuses from $25,000 to $35,000. Do you anticipate a 
request that you'll be increasing the cap further?
    Lieutenant General Harris. Sir, we would request that. 
We're finding almost a one-to-one ratio. So with the $35,000 
bonus, that is an increase, and that's good. After two decades, 
we have not changed it, but we're actually hoping for higher. 
At $50,000, we may get up to 50 percent retention. So we will 
tier that based on where we have our biggest needs, and right 
now that is in the fighter pilot community.
    Senator Cotton. At what phase in one's career would one 
receive that bonus?
    Lieutenant General Harris. At the end of your pilot 
training commitment. So it is around that 11- to 12-year point, 
and then the option is for five years or to keep you out to 20 
years. We have several options to get at different lifestyles 
to retain as many of the pilots as we can.
    Senator Cotton. So perhaps a $50,000 bonus for a five-year 
commitment, or more?
    Lieutenant General Nowland. Essentially, the RAND study 
said $48,000 a year. The problem is----
    Senator Cotton. I'm sorry. Is it a year?
    Lieutenant General Nowland. A RAND study said--yes, sir--a 
$48,000 bonus is what they were recommending, and that was 
based on a number of 3,500. The problem is the airlines are 
hiring more than that. In 2022, we have data that shows that 58 
percent of American Airlines pilots are going to be eligible 
for retirement.
    So as we look to the future, this problem is not going 
away. That's why it's production, retention, requirements, and 
then as we think about this as a national problem, if you think 
it cost us $11 million to create an F-22 pilot, and you lose 
him at the peak of his proficiency, it's a loss to the nation 
of a big investment.
    Senator Cotton. My time is up on this round. I will just 
say that our committee staff has traveled and conducted sensing 
sessions with some pilots in Europe and in the Middle East, and 
I think there's a strong non-monetary component to it as well. 
One of those components is the operational tempo. The Air Force 
has been heavily deployed in those theaters now for 27 years. 
Obviously, there's a self-reinforcing aspect to it as well as 
the pilot shortage grows shorter and the up tempo becomes even 
greater. So I think that's something that both the Air Force 
and this committee needs to consider as well, as important as 
those monetary bonuses are.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    And I thank all three of you for being here. I appreciate 
your testimony here today.
    My question centers around the A-10 aircraft. In Michigan, 
our Air National Guard flies A-10s and has been doing that very 
successfully, but we are also now on the short list of five 
potential sites for deployment for the F-35, which we hope will 
have a successful outcome as that process moves forward.
    But if you could talk a little bit about how you see this 
transition as we move away from A-10s, what will be some of the 
sequencing and timelines for that, as well as new F-35 
squadrons coming in, perhaps taking some of these positions. 
How do you see that unfolding?
    Lieutenant General Harris. Senator Peters, that's a great 
question. First off, what I'd like to say is we are living with 
the NDAA requirements right now on the A-10s, and we are 
waiting for the comparison testing to be complete before we 
make decisions on the final outcome. But at this time we are 
not asking for additional upgrades with the A-10. It is an 
awesome airplane, and I would venture to say it is the best CAS 
[close air support] airplane that we have.
    But where I think we have not done well in telling our 
story with the F-35 is that as it moves in, as we are holding 
at 55 squadrons, things have to fall off the bottom, and it's 
going to be our older fighters that we have not upgraded. A-10s 
may be some of that, F-16s, F-15s. We're buying roughly two 
squadrons a year. When we look at the 60 range that we're 
aiming for, by the time we put some in training, some in test, 
and continue to grow the efforts that we need. So that's the 
pace that we're looking at, and we are working a few years 
ahead because of the MILCON required to support the F-35 and 
the capabilities that it brings to any fight. A lot of that 
involves the higher classification and the security 
requirements on ramps, those types of things that we have to 
upgrade.
    Senator Peters. Right. Thank you.
    Your testimony also mentions the space domain and that we 
need reliable access to space, including jam-resistant position 
navigation and timing. My understanding is that our adversaries 
have been investing a great deal in their space capability, 
something that we have to be concerned about.
    What do you believe are the most important investments that 
we need to make now in space to support those vital missions? 
What should we be doing here in Congress to help you achieve 
that important mission?
    Lieutenant General Bunch. Sir, I think we've outlined in 
our budgets that we put in, we put those in the highest 
priority. I believe we're giving you what we believe we need 
for the future. I will tell you right now, we're very focused 
on developing the new launch capability to get us off the RD-
180 and to move the pads so that we can have two domestically 
produced, commercially viable providers of launch services to 
meet all of our NSS [National Security Space] requirements. So 
those programs, we've been doing other transaction authority 
investments with public-private partnerships with industry for 
the last few years that we're trying to expand out now to go to 
launch service agreements.
    Also, we need to keep the OCX program on track because we 
need that to have a stronger encrypted M-code GPS signal for 
what we're going to do for those activities.
    The last thing that our chief is very focused on, and I'm 
not going into a whole lot more details about specific 
programs, is we need to normalize how we're doing our space 
business. We need to treat it like an operational domain. We 
need to treat it like the air domain. We need to set the 
requirements. We need to make sure we've got con ops for how we 
would operate and do things. We have to do all those things 
beforehand. We need to streamline the acquisition. That's in my 
swim lane. We need to partner better with the NRO [National 
Reconnaissance Office]. We need to make sure we're moving out 
and using the operationally responsive space authorities that 
we have. We need to look at doing RCO [Rapid Capabilities 
Office]-like activities in the space domain, which is another 
area that we're focused on right now.
    So we have a big focus in the space area to be more 
responsive to what we're trying to do because we know that's a 
critical domain and a critical area that we do our business in.
    Senator Peters. Thank you.
    Senator Cotton. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    General Harris, last week the House Armed Services 
Committee held a hearing on Air Force readiness, and during 
that hearing your colleague, Major General West, seemed to 
indicate that the Air Force might be prepared to retire the F-
15C and D in the next year or two. Is that right? Does the Air 
Force propose retiring the F-15? And how is the Air Force going 
to replace that capability?
    Lieutenant General Harris. Ma'am, thank you. It's an 
opportunity for us to tell the story. That's pre-decisional. We 
have not decided, and throughout we continue to deploy the F-
15C/D fleet. It's an air superiority fighter for us with 
somewhat limited capabilities from a fourth gen perspective 
compared to an F-22, but we are not replacing it at this time. 
It is something that we're looking at as we continue to bring 
in more fifth gen capability, what assets do we push out at the 
bottom of that chain.
    Senator Warren. All right. So let me ask you, then, if it's 
pre-decisional, has the Air Force done the analysis to 
demonstrate that purchasing new F-16s instead of servicing the 
F-15s will provide the same level of capabilities and actually 
save the taxpayer money?
    Lieutenant General Harris. We are doing that analysis. I 
don't know how that is going to turn out from a cost 
perspective, but I think it's going to be fairly balanced. So I 
look forward to providing that when we get that information 
completed.
    Senator Warren. And I'll take it you'll get that resolved 
before you make any decisions?
    Lieutenant General Harris. We will, and certainly that's 
part of it, but we also have to look at the operational 
capabilities and what a fifth gen fighter, although it is a 
multi-role fighter in the F-35, brings to this fight as a 
family of systems. It far out-classes anything in our fourth 
gen.
    Senator Warren. I understand that, and actually I've got 
some questions about that. But what I really want to focus on 
is what we're doing in the next year or two, at a time when 
we're hearing about readiness difficulties with the Air Force.
    I also want to ask, you know that more than 60 percent of 
our F-15s belong to the Air National Guard. So what I'd like to 
have here today is your commitment that the Air Force will 
consult with the Air Guard and specifically with the Adjutants 
General in states with the Air Guard F-15 wings before any 
decisions are made.
    Lieutenant General Harris. Ma'am, they're part of my team 
on the plan process. So they're involved with us every day. At 
that testimony, seated next to General West was General Rice, 
the Air National Guard commander. So they're involved with----
    Senator Warren. I know General Rice well. Good.
    General Harris.--and we'll continue to work with them.
    Senator Warren. All right. I just want to make sure we're 
going to do that.
    Given its cost, I realize that we may not be able to 
procure the F-35 in the numbers the Air Force has planned until 
2045. So I'm also not convinced that the F-16 is fully capable 
of replacing the F-15 in meeting the air-to-air mission. So I 
just want to raise the point, because it seems to me that 
retiring hundreds of aircraft at a time when the Air Force is 
in need of additional capability may not make a lot of sense 
here, and I just want to make sure you're looking very 
carefully at the proposal. I know we'll have questions as this 
emerges.
    Lieutenant General Harris. Yes, ma'am, we're looking at 
that, and what our chief is trying to drive to is to maintain 
us at 55 fighter squadrons, including our Guard and Reserve in 
that number, and making them healthy with what we have.
    Senator Warren. Okay. I also want to, if I can get it in 
quickly here, I want to ask you about the nuclear command and 
control network, the NC3 system that connects our President to 
our field forces in case of emergency. As you know, the system 
is absolutely essential to provide early warning, to 
communicate critical information in a nuclear crisis. If NC3 
doesn't work, the rest of our nuclear triad becomes essentially 
useless here.
    The current NC3 system is old. General Hyten recently said 
that NC3 was his highest priority for nuclear recapitalization, 
and he said, and I'm going to quote him here, ``Any delay, 
deferment, or cancellation of NC3 modernization will create a 
capability gap potentially degrading the President's ability to 
respond appropriately to a strategic threat.''
    So I just want to ask, General Bunch, is NC3 the highest 
priority for the Air Force as well?
    Lieutenant General Bunch. Ma'am, we have multiple 
priorities.
    Senator Warren. I know.
    Lieutenant General Bunch. NC3 is a priority that we have 
within the Air Force. We named Air Force Global Strike Command 
and General Rand as the lead for the NC3 effort. So we named a 
four-star and a MAGCOM [major commands] as the lead. We aligned 
NC3 efforts under a program executive officer up at Hanscom 
right now, and we designated someone. We did not have that 
before. He's designated to look over all those programs. We've 
aligned that into the nuclear weapons center, which we've stood 
up now and we've restructured so that it's really only focused 
on the sustainment and the modernization of our nuclear 
inventory.
    So we, the Air Force, have made a big commitment to 
prioritizing that. I will not tell you that we have it 100 
percent straight today. I will tell you that there are a lot of 
small efforts that are in a lot of different POs that don't 
have a whole lot of manpower. Our team met with the A-10 and 
pulled in all the program executive officers who have those 
assets, and pulled in the Global Strike Command and other 
expertise to get us on a path to make sure that we are focused 
on that and delivering those capabilities which are so critical 
to our ability to keep the nuclear deterrent viable.
    Senator Warren. Good. I appreciate that.
    I have additional questions, but I'll just ask them in a 
QFR. I just want to say I think this is an absolutely critical 
program, and it's important for us to keep an eye on it. So, 
thank you, General.
    Lieutenant General Bunch. Yes, ma'am.
    Senator Warren. Thank you.
    Senator Cotton. Senator Blumenthal?
    Senator Blumenthal. Thanks. Thank you, Mr. Chairman.
    I have a couple of simple numbers questions which you may 
have answered; I apologize if you have, but I would like to 
hear the answers.
    What is the ideal procurement number for fiscal year 2018 
on the F-35 for you? What do you want on the F-35 for fiscal 
year 2018?
    Lieutenant General Bunch. Sir, I'd like to get to 60 F-35A 
models for the U.S. Air Force.
    Senator Blumenthal. Okay. And I think there's been some 
testimony about the number of--and by the way, I'm not a 
business guy, and I'm not a military professional, but common 
sense tells me if you order enough of them, the price comes 
down with scale, and I've heard that from the company. So if 
you confirm it, I'll believe it's true.
    Lieutenant General Bunch. Sir, what we've asked and what 
I've given in our dialogues and the message I've carried from 
our chief is we want to go to 60. We need to see the price 
continue to come down on the curve so that we can continue to 
procure those, and we need the operations and sustainment 
effort that we need so that we can operate and maintain those 
the same way. That is what General Bogdan's team is working. 
They understand where we want to go, and I'm comfortable that 
as we've gone through the buys over the years we are moshing 
down the curve and we are coming down to a lower rate, and 
that's where we want Lockheed Martin to stay.
    Senator Blumenthal. And Lockheed Martin and Pratt and all 
the contractors involved have begun a war on costs. In fact, 
they began it some time ago, maybe years ago, and they have 
continued that war to drive down costs, but scale is very 
important to that effort.
    Lieutenant General Bunch. It is, sir.
    Senator Blumenthal. Thank you.
    I know there's been some talk about the number, the 
shortages of pilots--how many are you down from the number that 
you need? I've heard different numbers--800, 900. Maybe it's--
--
    Lieutenant General Nowland. Senator Blumenthal, the number 
changes every day. But as of today, we are 1,555 total force 
pilots short of our requirements.
    Senator Blumenthal. Fifteen hundred and fifty-five.
    Lieutenant General Nowland. Yes, sir, 1,555.
    Senator Blumenthal. And what is the number from which you 
are short?
    Lieutenant General Nowland. Sir, our total number of pilots 
is approximately 20,300. That's approximately what our total 
requirements are for pilots.
    And I'm sorry, Chairman Cotton, I gave you 1,550 because I 
didn't have my glasses on. I apologize.
    Senator Blumenthal. And of those 1,555--again, I apologize, 
because my terminology probably won't be as exact, as official 
as it should be. What number of those are fighter pilots?
    Lieutenant General Nowland. Sir, we are 950 fighter pilots 
short today.
    Senator Blumenthal. That would square with what I've heard. 
And out of what number is that?
    Lieutenant General Nowland. Sir, I'll get you the exact 
number. I don't want to give you a wrong number. I've got it 
right down here, but I don't have total number of fighter 
pilots broken out. I have it broken out by the services, so I 
can get it to you.
    Senator Blumenthal. If you could, I would appreciate it.
    Lieutenant General Nowland. Yes, sir.
    Senator Blumenthal. And again, I don't mean to make too 
much of this numbers stuff, but one theory that has been 
advanced to me about how to keep and maybe even attract more 
skilled pilots is this idea of readiness, giving them time, 
basically time to train, because they need, so it's been 
described to me, time in the air to be proficient. And if they 
don't get that time, they feel they're not proficient, and it's 
a real deterrent to stay in the Air Force. So it makes the 
offers they may receive from the private world all the more 
attractive.
    So readiness is a key to keeping and attracting skilled 
pilots. Is that over-simplistic, or is it relevant?
    Lieutenant General Nowland. Senator Blumenthal, no, you are 
exactly right. It's a combination, a series of things. Chairman 
Cotton already mentioned it also, personnel tempo. Deploying 
down-range is one thing, but then when you come home, flying 
and then being home--I have a story of an F-22 pilot, a major 
who was in Alaska, sir. He had been there for seven years. He 
went to weapons school. He was at the peak of his game. He came 
home one day and his wife put her hand on his shoulder and 
said, honey, I love you, but you've got to get out of the Air 
Force. And he said why? Because in the last five years you've 
been home 10 months.
    So that's an extreme case. Now, the good news is he went to 
the Reserves and he's still serving with the Air Force. But 
personnel tempo is part of it. When you're a very small Air 
Force and you're a very small F-22 fleet, you're constantly in 
demand. So we're looking at how we get personnel tempo under 
control.
    There's deployment to dwell, but there's also personnel 
tempo. Building white space is super important.
    Lieutenant General Harris. May I add to that also?
    Senator Blumenthal. Yes, absolutely. Thank you. With the 
Chair's permission.
    Lieutenant General Harris. Sir, you're exactly right. 
Quality of life is a part of this. The pilots came in, they 
intended to fly and they like to fly. So one of the chief's 
number-one items is to fix our squadrons and right-sizing them. 
So we are putting administrative support back into the 
squadrons. Over the last two decades as we've been getting 
smaller, we've been cutting as much of the tail as we can, and 
we realize we did too much. The flying squadrons are so small, 
they had no support.
    So after a full day of flying or an exercise that they were 
deployed to, they had to come home and do a significant amount 
of paperwork that could be done by many people, not just the 
flyers. So we're looking at a lot of those tasks, if you want 
to call them additional duties, whether it's keeping the areas 
that we work in that are highly classified open and having 
somebody to do that, rather than requiring an aviator to do 
that, we're getting at a lot of those tasks.
    So the quality of life will continue to rise. So as we get 
them home, that 10-month/5-year vignette, that's just not all 
combat operations. It's a significant portion of that, but it's 
all the other training they're doing off-station that we're 
trying to free up back at home.
    Senator Blumenthal. And if I could ask just one more 
question, please? In terms of continuing proficiency, the 
administrative duties, personnel tempo, when someone comes home 
they want to stay proficient, ready, are they getting enough 
time actually in the air flying?
    Lieutenant General Nowland. Sir, it varies by weapon 
system. But the answer is we are working to increase weapon 
system sustainment. This is where our maintainers come in. We 
have a minimum number of sorties per month that we need to fly 
pilots to consider them mission ready, and we are driving our 
maintenance to try to increase our utilization rate so we can 
fly pilots more, because that minimum number should be the 
floor, not the ceiling. We want to be above that number to 
increase our readiness, and we are driving towards a 
utilization rate, with additional maintainers and more weapons 
systems sustainment funding, which we've done. We're moving in 
that direction. The trends are going in the right direction, 
but we're not where we want to be right now.
    Senator Blumenthal. Thank you. Thank you all very, very 
much for your service and for being so forthcoming today.
    And thanks to the Chair.
    Senator Cotton. Senator King?
    Senator King. Thank you, Mr. Chairman.
    We've talked a lot about retention. I'd just note, General, 
you made the point that whatever the bonus is, it's a lot less 
than $11 million, which is the cheapest training, the training 
you don't have to do because you've got somebody who is already 
trained. So I think that's got to be part of our calculus as we 
talk about this.
    Again, talking a bit about the shortage, I understand that 
there is an excess of pilots on the mobility side, and I was 
wondering if there was any effort or plans or thought being 
given to shifting pilots from mobility over to where you are 
facing the shortages.
    Lieutenant General Nowland. Senator King, that's a great 
question. The mobility excess pilots we have moved into our 
training architecture. So as we looked at our overall 
operational training infrastructure, it also deals with manning 
our T-38s, T-6 squadrons, and UPT [undergraduate pilot 
training]. And as we became shorter on fighter pilots, we took 
fighter pilots out of the training infrastructure and moved 
them into unique fighter pilot jobs. So mobility pilots have 
moved into that training function.
    We have a very small number, but we have moved some 
mobility pilots who went through T-38s into a fighter cockpit. 
But that's a very small number because a specialized UPT, the 
vast majority of our pilots who have gone through T-1 training 
go into the mobility world, and they've not formed T-38s.
    Senator King. Are bonuses being paid to mobility pilots 
even though there's an excess?
    Lieutenant General Nowland. Well, there's not really--it 
depends on what you mean by excess. We're still short of our 
overall pilot numbers, and we're still taking risk in our 
training infrastructure, and the mobility pilots are also going 
to be short like fighter pilots here. Air Mobility Command 
tells us by 2020 we will start to lose them.
    Our pilot retention, our pilot numbers are based upon a 65 
percent take rate. Unfortunately, our mobility pilots are not 
at that rate. They're below 65 percent. But we've been living 
off of over-producing mobility pilots in years 7, 8, 9, 10.
    Senator King. You had an excess but the excess is being 
worked down, is what you're saying.
    Lieutenant General Nowland. We are using all of our pilots 
to the maximum extent capability. It's just we filled our 
mobility pilots; they're filling other functions. So I think 
we're saying the same thing. Over time, our mobility excess 
that is allowing us to do our training function will degrade 
and will be gone, and then we'll have to figure out how we're 
going to fill our training cockpits.
    Senator King. Let me talk about a related, not the same but 
a related issue, and that's UAV [unmanned aerial vehicle] 
pilots. My understanding is that we're now in a world of using 
enlisted personnel as UAV pilots, at least with the Global 
Hawk. What about Predators and Reapers? How is that working? 
Have you found any diminution of quality using enlisted people 
in these slots? Because we were stressing out the regular 
pilots, as I understand it. Has that change been implemented, 
and to what extent has it been successful?
    Lieutenant General Nowland. Senator King, this is a 
fabulous question. I love this question. Our RPA [remotely 
piloted aircraft] pilots, we are moving enlisted pilots into 
our RQ4 community, because what we found is that in our RQ4 
community it's very similar to what we did in space, the way 
we're operating. They have not arrived there yet, sir. They're 
going through the training pipeline right now. So our first 
batch is going through the pipeline. We now have the next 
batch. We just had our second batch of enlisted pilots who have 
been selected and now are starting down the track to be 
enlisted RPA pilots.
    Our MQ1s and MQ9s--our MQ1 fleet we're going to retire. Our 
MQ9 is going to be essentially our new platform. We don't have 
the enlisted aviators in MQ9s right now, sir.
    Senator King. What's the MQ9?
    Lieutenant General Nowland. The MQ9, it is the Reaper.
    Senator King. That's the Reaper, okay.
    Lieutenant General Nowland. Yes, sir. We have the Predator, 
which is the MQ1, which we are eliminating, and the MQ9, the 
Reaper.
    Senator King. So you have no enlisted people in the Reaper 
program. Are you planning to move in that direction?
    Lieutenant General Nowland. We have enlisted people in the 
Reaper program, sir. They're just not pilots. We have a pilot, 
we have a sensor operator, and they are a team, and they work 
side by side.
    Senator King. Will you have enlisted pilots in the Reaper 
program?
    Lieutenant General Nowland. At this time, Senator, what 
we're doing is we are looking and evaluating. As we go down 
this road, we're going to evaluate all options in the future. 
But the first thing is we need to get our enlisted aviators 
into the RQ4 and see how they go.
    Right now, our training pipeline is pretty much set. This 
year we're going to train over 300 RPA operators. Whether 
they're an officer or enlisted, you still have to train 300 RPA 
pilots. So there really is no advantage one way or the other 
right now. We've got time to make this decision down the road, 
sir.
    Senator King. I commend--again, we've got to think very 
creatively about how we fill this shortfall, and if the 
enlisted people can do this job effectively, that's another 
resource that at least being able to reallocate trained fighter 
pilots into fighters.
    The B-21, are the requirements for the B-21 locked down, no 
more good ideas?
    Lieutenant General Bunch. Yes, sir. We locked the 
requirements down before we went into--General Welch did. 
Before General Welch, we continue to keep them under General 
Goldfein. General Goldfein has made it crystal clear to the two 
of us that he is the chief requirements officer for the Air 
Force, and if we want to change anything in those requirements, 
particularly in the KPP, key performance parameter, he needs to 
know about it and he needs to approve it.
    Our intent all along has been to keep those locked down so 
that we would not increase costs. We could control. One of the 
things that I talk about, I believe one of the key things we 
did on the program was we put cost as a key performance 
parameter for what we wanted, and I viewed that as serving as 
an appetite suppressant. It caused everyone not to try to add 
additional things. It caused everybody to use what we had, and 
we built it in a way that we can increase its capability over 
time because of the open modular system that we designed as the 
backbone for the platform.
    Senator King. And as you know, we have an interesting 
contract, which I think is a creative solution to the risk 
problem of 70 percent fixed, 30 percent cost plus. But that 30 
percent could explode if we start redesigning the platform in 
the middle of the construction process.
    Lieutenant General Bunch. It's been a key factor for us, 
sir, that we're looking at. There are a couple of things we 
didn't want to get into the B-2. We rewrote the requirements 
after we awarded the contract and we redesigned the platform. 
We don't want to go there. That's why holding the requirements 
so stable is so critical to us.
    Senator King. I like hearing you say we don't want to go 
there. I'd rather have you say we will not go.
    Lieutenant General Bunch. No. I apologize, sir. We're not 
going there.
    Senator King. Thank you.
    Lieutenant General Bunch. We're not going there.
    Senator King. Mr. Chairman, thank you.
    Senator Cotton. I want to return to Senator King's 
questions about RPAs, and I want to ascend above the enlisted 
question for a moment. We'll return to that, though.
    Last year, Secretary James recommended an RPA get well plan 
that included over 140 specific actions. General Nowland, how 
many of those actions have been completed, and when will they 
all be completed?
    Lieutenant General Nowland. We call that the cultural 
process improvement program. The exact numbers, I'll have to 
consult or get back to you; I don't know. The most important 
part of it, though, was the deployment to dwell and the crew 
ratios, Mr. Chairman, and we've reached over a 10.1 crew ratio. 
We've had a series of initiatives.
    In my previous job I was the 12th Air Force Commander, so I 
was intimately familiar with this. We've had a series of 
initiatives to try to normalize what we call life at Creech Air 
Force Base in Northwest Las Vegas, and those initiatives have 
gone through. The morale at Creech is good because we now have 
the crew ratios where we are driving to what we call a deploy 
to dwell, so that the pilots will actually have time to come 
out of combat sorties and go into training sorties. This is so 
important for us, because we are learning that our MQ9s are 
force multipliers.
    One vignette. On the most sophisticated sortie we do at the 
weapons school, which is weapon school integration, they always 
have an exercise where they have personnel recovery of a downed 
airman. The RPA, the MQ9 crew, when it operates in that role, 
is a perfect, perfect example of how you integrate all the 
information in and then get it to Sandy-1, who is the A-10 that 
is doing the actual job of rescuing the pilot, because they can 
have situational awareness, coordinate all activities.
    So we're learning that there's multiple functions for these 
weapons systems as we move forward. The exact number, sir, on 
CPIP [Culture Process Improvement Program], I will get back to 
you, but we are progressing in a very good fashion.
    Senator Cotton. General Harris, did you have an answer to 
that question?
    Lieutenant General Harris. Not to the number. We closed out 
on the 140, but we are more than halfway through that program. 
Last time I left the dance at Air Combat Command, we were 
executing that, so we will get back to you on that.
    Senator Cotton. That's fine. Just please get it to us for 
the record.
    How are we doing on pilot production for the MQ1 and MQ9 as 
a whole, putting aside the question of the division of labor, 
or the potential division of labor between officer and 
enlisted?
    Lieutenant General Nowland. Yes, sir. For Fiscal Year 2016, 
MQ1 and MQ9, we produced 252. We forecasted 271. So we were a 
little short of what we wanted to do. But we also did foreign 
military sales with 35, and we hit all 35 of those pilots as we 
moved forward.
    The 271, the reason we were a little short had to do with a 
little bit of weather. It also had to do with some maintenance 
and student proficiency, and that's pretty normal as you're 
going through to meet your productions. As we forecast to the 
future, in 2017, we're expecting to produce 346 MQ1 and MQ9, 
although we have closed our MQ1 RTU now. We are moving 
exclusively to MQ9.
    Senator Cotton. Three-hundred and forty-six you said?
    Lieutenant General Nowland. Yes, Mr. Chairman.
    Senator Cotton. Does that meet the standard we need for a 
healthy force in the RPA community?
    Lieutenant General Nowland. Yes, Mr. Chairman. We've got a 
very good number now on where we're moving forward. We are 
driving to a 14-to-1 crew ratio, which will really enable us to 
start training, and that's part of the CPIP. We also are 
looking forward to opening another wing at Shaw Air Force Base 
as we grow the capability. So that will enable us to do the 
transition as we move over and manage our force.
    Senator Cotton. Two years ago in the NDAA, the committee 
authorized bonuses of up to $35,000 for these pilots. My 
understanding is that the bonus was at $25,000 for some time, 
but it recently may have gone to $35,000. Is that correct?
    Lieutenant General Harris. Yes, it has. We expect to start 
paying that out this year. It's the initial air crew that are 
now coming up being bonus eligible. So to this point it hasn't 
mattered. They're still on that first commitment that they 
haven't been eligible for it. We expect it to help.
    But, Mr. Chairman, I'd like to explain. We will look at how 
these people are being retained, because some of the 
contractors that we're currently competing with are paying 
upwards of $40,000 a month for these RP operators to come off 
of Active Duty and to go fly other missions associated with 
what they're doing. So again, we will never, even with our RPA 
team, compete with the prices that are available on the 
commercial market, but getting back to that quality of life, 
opening a new base at Shaw, the mission accomplishment, the 
sense of being a part of the team is everything that we're 
putting into the CPIP program to retain these fantastic 
aviators.
    Senator Cotton. Finally, to return to Senator King's 
specific question about enlisted personnel and tie a bow on it 
exactly, in the Fiscal Year 2017 NDAA we directed Air Force to 
transition a significant number of those pilots to enlisted 
personnel by fiscal year 2020, and to Guard and Reserve by 
fiscal year 2023. Will you complete that transition and 
compliance with the Fiscal Year 2017 NDAA?
    Lieutenant General Harris. Yes, sir. We are on track to 
meet that. That was specific to the Global Hawk, the RQ4, and 
we think we are on track at this time. So the first students, 
as you heard, are graduating this year and will start rolling 
through the mission. We will continue in that process, and as 
we learn more about how the enlisted team are doing in this, we 
will then take that information and consider do we move that 
into the next RPA platform, maybe an MQ9.
    But again, they're employed differently, so that is a value 
judgment we'll have to look at as we understand how well these 
airmen are doing, and right now in the training they're doing 
outstanding.
    Senator Cotton. So you take it as an open question at this 
point whether we should have enlisted personnel in the future 
acting as pilots for MQ9s, to be considered in the future based 
in light of the evidence we'll acquire during the transition 
for the Global Hawk?
    Lieutenant General Harris. Yes, sir.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. Just one follow-up on the B-21. Whatever we 
build will be obsolete the day it comes off the line, and 
therefore I hope that the design takes that into account and 
will allow modular replacement upgrades, software, in some 
cases hardware, so that the platform itself can be maintained 
but that its capabilities can be modernized as technology 
develops. Is that the design concept, General?
    Lieutenant General Bunch. Sir, that was a fundamental 
design concept. We went with the open mission systems 
architecture for the software so that everything would have an 
interface and we could advance technology as it evolved or we 
could make changes as adversaries evolved. We also designed the 
aircraft with additional power, electrical air conditioning in 
space in key areas that we may need to utilize so that we can 
grow the platform for the future.
    Senator King. So if you have to add one cable, there's a 
place for it.
    Lieutenant General Bunch. If we need to add something, sir, 
we've got areas that we can do that. If we need to change out a 
component, if it ties into the open system architecture, we can 
do that. We can do it and keep competition in the platform for 
the life of the platform, and we can do it in a more efficient 
manner because we won't have to test as much, and I personally 
believe it will increase our cyber security as we go through 
that process.
    Senator King. Excellent. I hope that you'll keep in touch 
with the committee on that project as it moves forward. I think 
it's one of the most important that we have, that the Air Force 
and the government is undertaking, and I hope we can have a 
continuing dialogue on that.
    Lieutenant General Bunch. Sir, we welcome that. We are 
committed to complete transparency with the appropriately 
cleared individuals on all the defense committees. We have been 
working with the defense committees for four years before we 
awarded the contract so that everyone knew what we were trying 
to do, and we're balancing all other transmissions to the 
public and what we can communicate against the security and the 
risks involved so that we can be as transparent as possible 
with the American public as well.
    Senator King. But you feel at this point the contract and 
the development is on track?
    Lieutenant General Bunch. Sir, I get monthly updates. We've 
done our initial baseline review. We've completed the 
preliminary design review. We're going into detailed design 
review. The contractor is hiring people at the appropriate 
level to get the work done, and we're tracking what they're 
doing. Everything right now indicates to me that we haven't 
slipped anything.
    Senator King. Gentlemen, thank you very much for your 
testimony. It's been very illuminating, and we look forward to 
working with you.
    Thank you, Mr. Chairman.
    Senator Cotton. Let me ask maybe a broader philosophical 
question about the B-21, but also especially what we've learned 
over the last 25 years.
    General Bunch, do you think, from a development 
perspective, it's best to develop prototypes and have a fly-
before-you-buy methodology for large and complex systems like 
these aircraft?
    Lieutenant General Bunch. It depends, in my experience, on 
how you set up the prototype project to go. I believe the best 
thing we can do, and I think the B-21 is an example of this, 
whether you build an exact prototype, I think a robust tech 
maturation and risk reduction phase is critical. If you recall, 
in that program we invested in the B-21 program with multiple 
contractors for quite a few years before we awarded a contract 
so that they could develop the technologies, mature those 
technologies. We were more informed buyers, and we had 
everything almost up to the preliminary design review before we 
awarded the contract. That cost us money up-front to be able to 
do it, but it also made the technology much more mature and 
made it much better for us to do.
    There are areas, though, that we can prototype and we can 
go procure straight out of that. That's an area we're trying to 
do with some of our experimentation campaigns to see what the 
art of the possible is there, and the Congress has been very 
willing to give us rapid prototyping and rapid filling 
authorities that we will employ in those opportunities where 
that arises.
    Senator Cotton. Developmental planning experimentation 
prototyping used to be resident in the Air Force's systems 
command, which was disbanded 25 years ago. Since then we've had 
struggles with programs like the B-2, the F-22, the C-17, the 
F-35. Do you think it's a coincidence that that command was 
disbanded and we've had these struggles since then, or is it a 
cause?
    Lieutenant General Bunch. Sir, I wouldn't tie it directly 
to the way that we reorganized to go to Air Force materiel 
command from systems command or logistics command. What I will 
say, we the Air Force, we let that developmental planning skill 
atrophy. That's something that our chief, General Welch, and 
Secretary James viewed as something we needed to get refocused 
on, and they believe we need to do more experimentation and 
more of that type of prototyping activity to see what 
technology can do so that we can respond more rapidly.
    I believe they made a real strong commitment to that when 
they started budgeting $100 million a year into the budget so 
that we could have it for experimentation and for developmental 
planning. They stood up an office that's in Air Force materiel 
command that leads those efforts for us.
    So I believe our stepping away and letting that atrophy as 
we looked at capabilities and technology hurt us more than a 
reorg. We're refocused on that, and we're invested in those 
areas to see what technology can do so that we make wise 
investments.
    Senator Cotton. So an atrophy of skill sets more so than a 
reorganization?
    Lieutenant General Bunch. That is my view, sir. I believe 
it was an atrophy of skill sets and a loss of, a lack of 
importance placed on that as we moved forward, and we needed to 
refocus on those efforts.
    Senator Cotton. Thank you.
    General Nowland, I want to speak about force structure, 
capacity. I mentioned in my opening statement General Hoog's 
remarks from 2014 about Air Force capacity. In response to this 
situation, in the NDAA a couple of years ago we directed the 
Air Force maintain a minimum inventory of 1,900 total fighter 
aircraft and 1,100 combat coded fighters. Do those numbers 
enable the Air Force to meet combatant commanders' demands and 
execute our national defense strategy today?
    Lieutenant General Nowland. Mr. Chairman, that's a 
fantastic question. If you were to think about our 55 fighter 
squadrons, the seven years of declining budgets have caused 
cracks within those. So we are working on our chief's number-
one priority of strengthening the squadrons. By strengthening 
the squadrons, we see fantastic results. I just returned from 
Jordan, where we have an F-15E squadron that is doing fantastic 
work. It's about to drop its 5,000th bomb in the war against 
Isis, because it has all its manning and it has the weapon 
system support.
    So when we strengthen all of them, and if we could 
strengthen all of our squadrons to be at the maximum capacity, 
we can absolutely execute the national defense strategy, but we 
would be very tight if you think about the changes that have 
happened with our adversary. That's why the Air Force would 
like to grow to 60 fighter squadrons, and we would also like to 
build some attack squadrons in the future.
    But in the end, Mr. Chairman, we can execute the strategy. 
But to be perfectly honest, it will be great airmen that will 
make it happen, and we'll do it on the back of our airmen.
    Senator Cotton. So Congress did so with an intent to stem 
further divestment in combat air power, and sometimes Congress 
can act as a blunt instrument, not a fine scalpel. So given 
that intent, can you tell us what the Air Force's actual 
requirement today is for total fighter aircraft and for total 
combat coded aircraft?
    General Harris, you look like you'd like to answer.
    Lieutenant General Harris. I would. As part of the 
requirements, sir, one of the things we're looking at is we 
think the 1,900 number is a bare minimum at the floor. We think 
it's probably closer to 2,100, a little above that for our 
fighter aircraft so that we can maintain probably 60 squadrons. 
We don't want to grow to 60 now and still have a broken force 
or a force that is not as ready as it can be. We want to fix 
the 55 we have. We are not planning to go below the 1,900. We 
are struggling with the way the budget is rolling out to us to 
maintain that in the long term, but we do understand the task 
of the NDAA. We do not intend to go below the 1,900. We will 
keep our 55 squadrons. We will grow them healthy if we are able 
to get a stable, predictable budget that comes to us and 
continue to improve along that line.
    Lieutenant General Bunch. It's a complicated answer.
    Senator Cotton. A simple question, complicated answer 
maybe?
    Lieutenant General Bunch. Fifty-five fighter squadrons. We 
would like to have 24 aircraft per squadron, and that's 
probably our most efficient use of those airplanes. Fifty-five 
times 24 is not 1,900. It is slightly above that number. Where 
we believe we have some of that change is some of our aircraft, 
our squadrons are manned at 18 airplanes per squadron. So 
that's what drives some of these changes----
    Senator Cotton. Is that a concession to budgetary 
necessity?
    Lieutenant General Bunch. It really is. If we were 
unconstrained, we would have every squadron with 24 combat 
coded airplanes, plus a couple of backup or BAI spares, which 
is common in each one of these units, so if you lose an 
airplane you have it available already maintained and ready to 
go, employed on a daily basis.
    Senator Cotton. Okay. General Bunch, I need to ask about 
the UH1 November helicopter replacement program. There's a 
little bit of history here. Last year you submitted an out-of-
cycle request to Chairman McCain for authorization to use 
provisions of the Economy Act of 1932 to purchase UH-60 Mike 
Model helicopters on the Army's contract. These aircraft would 
be replacements for our aging November model helicopters used 
for the ICBM missile fields security and other utility missions 
as determined by the commander of STRATCOM [Strategic Command].
    The committee agreed, and we passed that request and 
authorization in the Senate version of the NDAA. Afterwards, 
the Air Force reversed that decision and decided to proceed 
with the full and open competition, and then after receiving 
responses from potential offerors on the draft request for 
proposals, the Air Force determined none of the offerors, 
including the 60 Mike Model, met the requirements for the 
program.
    What was the reason the Air Force rescinded the request for 
authorization to use the provisions of the Economy Act when 
your own business case analysis showed that the course of 
action met the requirement and provided the best value for the 
taxpayer?
    Lieutenant General Bunch. Sir, the Department made a 
decision based on the amount of money that we were going to 
move into the year that we needed to----
    Senator Cotton. The Department of Air Force or the 
Department of Defense?
    Lieutenant General Bunch. The Department of Defense made a 
decision based on the amount of money we were going to need to 
move into those areas, and we were going on a full and open 
competition from that point forward.
    Senator Cotton. Have requirements changed from the time the 
decision was made to use the Economy Act until the draft RFP 
[request for proposal] was opened for full and open?
    Lieutenant General Bunch. Sir, let me take that. I don't 
believe we changed the requirements from that point forward. We 
did not.
    Senator Cotton. General Harris----
    Lieutenant General Bunch. We did not. He's the requirements 
guy, and I'm the----
    Senator Cotton. You're shaking your heads. Can you answer 
for the record?
    Lieutenant General Harris. The requirements did not change. 
Yes, sir.
    Senator Cotton. Okay.
    General Nowland, I understand that the commander of 
STRATCOM has rescinded the request for forces to provide 
additional security since mitigation measures have been in 
place to satisfy his security concerns. Do these mitigation 
measures now supplant entirely the need to recapitalize----
    Lieutenant General Bunch. They do not, sir. They do not 
change the need to replace the UH1.
    Lieutenant General Nowland. Sir, I'll pitch in also, Mr. 
Chairman. What they've done is they've done tactic techniques 
and procedures and had airmen that have been able to. It does 
not replace the need to replace the airplane. The requirements 
are still valid. It's just that the airmen have figured out a 
way to meet the requirements, but it's a band-aid type of 
solution. We need new aircraft for that mission set.
    Lieutenant General Bunch. Chairman Cotton, our nuclear 
arsenal remains secure, and we're able to execute the mission, 
but we still need the recap. We still need to get those in. 
We're doing a draft RFP in April. We will do the final RFP this 
summer. We'll award a contract next year. We plan to field 
helicopters in the 2020 to 2021 timeframe, sir, depending on 
what the winner comes in with.
    Senator Cotton. Thank you.
    I have one final question about the budget, which will 
probably tie a bow on it. My first question, the constraints of 
a CR in the short term. This is going to be facing the long 
term, General Harris. You have many large, long-term 
procurement programs over the next decade. We touched on some 
of those but not all of them, nuclear enterprise modernization, 
F-35A, KC-46A, the B-21, JSTARS, the TXT-38 replacement, the 
Presidential aircraft replacement, and now there's growing 
discussion of a penetrating counter-air and associated 
capability required to outpace our strategic competitors in the 
realm of air superiority.
    I think it's safe to say that these represent hundreds of 
billions of dollars required to recapitalize and modernize the 
Air Force and remain ahead of our near-peer competitors. Have 
you received indications from the new administration that the 
Air Force budget modernization program will support all of 
these modernization programs?
    Lieutenant General Harris. Yes, sir, we have. We continue 
to ensure that those modernization programs, which are large, 
continue to fit into the budget and the planning cycle that we 
have. So that's the work that my team does on a day-in and day-
out basis. We're doing as much as we can in parallel to solve 
as many problems as we can, and then we will also continue to 
modernize the current fleets and assets to make sure that we 
can sustain the capacity that we have and not drop below any of 
the requirements over the long term.
    So it is part parallel, part serial to get at what you're 
rightly pointing out are some of the concerns we have with the 
large budget of the future. The best thing we can get out of 
Congress is a stable budget that predicts, allows us to have a 
good prediction of where we will be in the future, and then we 
can right-size our acquisition and our approach to that to make 
sure we're getting the best value we can.
    Senator Cotton. General Bunch, General Nowland, do you have 
anything to add to General Harris' answer?
    Lieutenant General Bunch. I do not, sir.
    Lieutenant General Nowland. Mr. Chairman, the modernization 
byway that we face is critical, and Congress and working with 
everyone, it's critical to our operators to give our airmen the 
best chance of success. We are also thinking about how do we 
out-think our enemy. It's multi-domain operations. We need to 
think about how we operate in space, cyber, air domain, land, 
maritime domain, and bring joint effects to the battlefield.
    I know we focus on all the money and how we're doing it, 
but what we're really going to do is enable our airmen to think 
multi-domain of how we can defeat our enemy who has watched us 
for 26 years and is working to defeat us. So we're going to 
out-think our enemy while we simultaneously, with your help, 
reestablish and renew our weapons systems.
    Senator Cotton. General Bunch?
    Lieutenant General Bunch. Chairman Cotton, what I want to 
stress is our role as the acquisition, we have to do that 
efficiently and effectively to maximize the use of those 
dollars to get that capability, and our most important 
treasure, our airmen, America's sons and daughters, that were 
entrusted to provide that equipment and have a decided 
advantage on the battlefield, which, as you've talked about 
earlier, we do not have as much as we did before. That has 
atrophied away, and we need to continue to go after that. 
That's our commitment in the acquisition community to do that 
each and every day.
    Senator Cotton. Thank you, gentlemen. Thank you very much 
for your time and your views. This has been a very wide-ranging 
and informative hearing. We appreciate your service to our 
country, and on behalf of all the airmen you represent, thank 
you for their service as well.
    This hearing is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Tom Cotton
                              compass call
    1. Senator Cotton. Lieutenant General Bunch and Lieutenant General 
Harris, where does the Air Force stand in moving out on its plan for 
re-hosting Compass Call? Can the process be accelerated?
    Lieutenant General Bunch. The Air Force is ready to begin the 
COMPASS CALL re-host; however, it is one of the many new start programs 
the Air Force cannot begin due to the Continuing Resolution (CR). The 
Air Force will move out on the COMPASS CALL re-host plan following the 
enactment of the Appropriations Act for Fiscal Year 2017. The Air Force 
is weighing options to accelerate the COMPASS CALL re-host program 
against fiscal constraints & production capacity.
    Lieutenant General Harris. The Air Force is poised to begin the 
COMPASS CALL re-host; however, it is one of the many new start programs 
that the Air Force cannot begin due to the current Continuing 
Resolution (CR). The COMPASS CALL re-host is currently on the Chief of 
Staff's Unfunded Priority List and the Air Force plans to quickly move 
out on the COMPASS CALL re-host plan once an Appropriations Act for 
Fiscal Year 2017 is passed.
                              jstars recap
    2. Senator Cotton. Lieutenant General Bunch, given the operational 
demand for these platforms and the cost of keeping the legacy airframes 
flying, assuming Congress provides the resources, can you assure me the 
Air Force will make a decision and move this program forward by making 
a contract award in fiscal year 2017?
    Lieutenant General Bunch. Currently, the Air Force does not plan to 
award the JSTARS Recap Engineering and Manufacturing (EMD) contract in 
fiscal year 2017. EMD source selection began on 2 March 2017. Any 
source selection timeline is speculative at this point because source 
selection is a data driven event, but source selection will likely span 
well into fiscal year 2018.

    3. Senator Cotton. Lieutenant General Bunch, is JSTARS recap 
vulnerable to delay should Congress fail to pass a Defense 
Appropriations bill for fiscal year 2017?
    Lieutenant General Bunch. Yes, failure to pass the fiscal year 2017 
Defense Appropriations bill will affect the JSATRS Recap Radar Risk 
Reduction effort and put Initial Operational Capability in fiscal year 
2024 at risk.

    4. Senator Cotton. Lieutenant General Bunch, could the Air Force 
accelerate the program once the winning bid is determined?
    Lieutenant General Bunch. The JSTARS Recap program is paced by the 
selected vendor's proposed schedule and funding. If there are 
opportunities to accelerate, the Air Force will brief the Congressional 
Defense Committees as directed in the fiscal year 2017 NDAA.

    5. Senator Cotton. Lieutenant General Bunch and Lieutenant General 
Harris, do you agree that JSTARS Recap is a top modernization priority 
and that further delay has a negative impact on COCOM requirements?
    Lieutenant General Bunch. Yes, the Air Force is committed to 
accelerating IOC/FOC. However, until establishment of the program 
baseline with the selected contractor at Milestone B, the Air Force 
will focus on setting the conditions necessary to accelerate if 
opportunities become available. Shortly after the EMD contract award, 
the Air Force will provide a report outlining accelerated schedules and 
funding profiles.
    Lieutenant General Harris. Yes. Multi-Domain Command and Control 
(MDC2) is the Chief of Staff of the Air Force's third focus area and 
critical for future operations. The Air Force remain committed to 
JSTARS Recap, which is currently under source selection as of 2 March. 
Contract award, scheduled for fiscal year 2018, will identify any 
potential acceleration options.
                               __________
              Questions Submitted by Senator Dan Sullivan
           adversary air to air and surface to air capability
    6. Senator Sullivan. Lieutenant General Bunch, Lieutenant General 
Nowland, Lieutenant General Harris, we never want a fair fight with 
adversary, let alone a fight were we are potentially outranged. 
Reported advances in very long range air-to-air missiles, and surface-
to-air missiles from Russia and China threaten to do just that. What 
technologies should we focus on for success of our 5th Generation and 
4th Gen aircraft (including High Value Airborne Assets) in this 
environment?
    Lieutenant General Bunch. The U.S. Air Force is currently 
performing research on advanced capabilities Air-to-Air missiles for 
future demonstration, including work on sensors, fusing, warhead and 
propulsion. Our research goals include: high loadout and sortie 
effectiveness for potential future engagements and High Energy Density 
Propulsion for longer range in smaller volume. Our efforts in directed 
energy weapons (DEWs) may provide an improved capability by damaging/
destroying the seeker components at longer ranges and with greater 
capacity.
    Lieutenant General Nowland and Lieutenant General Harris. The Air 
Force chartered the Air Superiority 2030 Enterprise Capability 
Collaboration Team (ECCT) to provide a holistic approach to develop 
capability options to enable joint force Air Superiority in the highly 
contested environment of 2030 and beyond. Advances to long range air-
to-air missiles and surface-to-air missiles are a part of this 
environment that we describe as Anti-Access Area Denial (A2AD). The Air 
Superiority 2030 ECCT determined that there is no single capability or 
technology that provides a ``silver bullet'' solution. Rather, to 
achieve Air Superiority against the threats you describe and the A2AD 
environment we need to develop a family of capabilities that operate in 
and across air, space, and cyberspace domains. This family must include 
both stand-off and stand-in forces, integrated and networked to achieve 
mission effects. Additionally, the speed of capability development and 
fielding will be critical to retain the U.S. advantage in the air.
                       awacs radar modernization
    7. Senator Sullivan. Lieutenant General Bunch, Lieutenant General 
Nowland, Lieutenant General Harris, the Air Force continues to upgrade 
legacy assets with sensor enhancements, such as AESA radars for F-15s 
and F-16s. What is the plan to upgrade AWACS sensor capability, which 
has not been upgraded since the completion of the Radar System 
Improvement Program (RSIP) in December of 2000?
    Lieutenant General Bunch. The AWACS sensor suite is anchored by the 
S Band Radar, but it also relies on a Passive Detection System (PDS) 
and an Identification Friend or Foe (IFF)/Selective Identification 
Feature (SIF) system. In the near term, the USAF is upgrading the S 
Band RSIP radar through the Electronic Protection program, which adds 
an adjunct processor to increase performance in an electronic attack 
environment. The Next Generation Identification Friend or Foe (NGIFF) 
program also widens the IFF/SIF capability by including Modes 5 and S. 
Furthermore, the Combat ID program upgrades the existing capability to 
provide a persistent Airborne Moving Target Indication Battle 
Management Command & Control (AMTI BMC2) combat ID in support of the 
kill chain. Finally, the PDS is reinforced by the enhanced computer 
processing provided by the Block 40/45 program.
    Lieutenant General Nowland and Lieutenant General Harris. Air Force 
has begun the Joint Capabilities Integration and Development System 
(JCIDS) process for the air-to-air Battle Management Command and 
Control (BMC2) mission area. We completed a Capability Based Assessment 
(CBA) in fiscal year 2016 (FY16) and are developing the Initial 
Capabilities Document (ICD) for Advanced Battle Management and 
Surveillance (ABMS). ABMS will be a revolutionary leap, not a recap, 
driven by evolving threat and operational environments. The Air Force 
will make a decision on the way-forward in fiscal year 2020, based on 
the outcome of an Analysis of Alternatives (AOA).
                               __________
              Questions Submitted by Senator Joe Donnelly
           strategic missiles--commonality and collaboration
    8. Senator Donnelly. Lieutenant General Harris, the Air Force is 
undertaking a tremendous effort to both sustain and modernize its 
strategic missile systems, including the Minuteman III programed depot 
maintenance effort and the development of the Ground Based Strategic 
Deterrent as the next generation intercontinental ballistic missile. As 
we look ahead, nuclear sustainment, life extension and modernization 
efforts will require the Defense Department to manage a significant--
though I believe necessary--degree of cost and risk across multiple 
programs. General Harris, is the Air Force committed to working with 
the Navy to enhance commonality across U.S. strategic missile systems 
when such an approach will reduce cost and risk?
    Lieutenant General Harris. Yes, the Air Force remains committed to 
pursuing smart strategic missile commonality not only with the Navy, 
but with mission partners in related areas such a ballistic missile 
defense, space launch, command and control, and cyber resilient 
software. In March 2016, a Joint Air Force/Navy team completed an 
assessment of potential opportunities for commonality between the 
Ground Based Strategic Deterrent (GBSD) and Trident missile programs. 
The findings of this study were subsequently incorporated into the GBSD 
acquisition strategy. The Air Force will continue to work with the Navy 
and others to lower GBSD program costs and risks while meeting 
operational and schedule requirements.

    9. Senator Joe Donnelly. Lieutenant General Harris, is the Air 
Force committed to maximize the sharing of information, best practices 
and services with the Navy to reduce cost and risk and avoid the 
duplication of effort as we undertake major Triad modernization 
programs over the next several decades?
    Lieutenant General Harris. Yes, the Air Force is committed to 
making technologies and processes developed for GBSD available to the 
Navy and Department of Defense mission partners to inform other Triad 
modernization programs.

                                 [all]
</pre></body></html>
